<html>
<title> - A REVIEW OF THE FISCAL YEAR 2020 BUDGET REQUEST FOR U.S. CUSTOMS AND BORDER PROTECTION, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, AND U.S. CITIZENSHIP AND IMMIGRATION SERVICES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
 A REVIEW OF THE FISCAL YEAR 2020 BUDGET REQUEST FOR U.S. CUSTOMS AND 
 BORDER PROTECTION, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, AND U.S. 
                  CITIZENSHIP AND IMMIGRATION SERVICES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                     BORDER SECURITY, FACILITATION,
                             AND OPERATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2019

                               __________

                           Serial No. 116-19

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov       
        

                          __________
                                 

              U.S. GOVERNMENT PUBLISHING OFFICE 
 37-865 PDF            WASHINGTON : 2019                           
                               
                 

                  COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON BORDER SECURITY, FACILITATION, AND OPERATIONS

                 Kathleen M. Rice, New York, Chairwoman
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana, Ranking 
J. Luis Correa, California               Member
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Al Green, Texas                      John Joyce, Pennsylvania
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
             Alexandra Carnes, Subcommittee Staff Director
          Emily Trapani, Minority Subcommittee Staff Director
          
          
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     8

                               Witnesses

Mr. Robert E. Perez, Deputy Commissioner, U.S. Customs and Border 
  Protection:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Matthew T. Albence, Acting Director, U.S. Immigration and 
  Customs Enforcement:
  Oral Statement.................................................    19
  Prepared Statement.............................................    22
Ms. Tracy Renaud, Acting Deputy Director, U.S. Citizenship and 
  Immigration Services:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27

                             For the Record

The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Anthony M. Reardon, National President, National Treasury 
    Employees Union..............................................    57
  Vicki B. Gaubeca, Director, Southern Border Communities 
    Coalition....................................................    63
  Church World Service...........................................    64

                                Appendix

Questions From Chairwoman Kathleen M. Rice for Robert E. Perez...    67
Questions From Ranking Member Clay Higgins for Robert E. Perez...    68
Questions From Chairwoman Kathleen M. Rice for Matthew T. Albence    69
Questions From Ranking Member Clay Higgins for Matthew T. Albence    69
Questions From Chairwoman Kathleen M. Rice for Tracy Renaud......    70


 A REVIEW OF THE FISCAL YEAR 2020 BUDGET REQUEST FOR U.S. CUSTOMS AND 
 BORDER PROTECTION, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, AND U.S. 
                  CITIZENSHIP AND IMMIGRATION SERVICES

                              ----------                              


                         Thursday, May 9, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border Security, 
                              Facilitation, and Operations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 310, Cannon House building, Hon. Kathleen M. Rice 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Rice, Correa, Torres Small, Green, 
Clarke, Higgins, Lesko, Joyce, and Guest.
    Miss Rice. The subcommittee on Border Security, 
Facilitation, and Operations will come to order.
    The subcommittee is meeting today----
    Mr. Higgins. Mike, please.
    Miss Rice. I have a loud enough voice to carry, I think. 
Can everyone hear me?
    The subcommittee is meeting today to receive testimony on 
the fiscal year 2020 budget request for U.S. Customs and Border 
Protection, U.S. Immigration and Customs Enforcement, and U.S. 
Citizenship and Immigration Services. I want to thank the 
administration officials who came here this morning to testify 
and provide additional details about their priorities and 
programs for the coming fiscal year.
    But I am going to be frank with everyone here today. This 
budget request is deeply flawed and seems to double down on a 
number of highly questionable policies that have been patently 
and repeatedly rejected by Congress over the past 2 years. That 
includes billions of dollars for a useless border wall and 
hundreds of millions of dollars for additional detention space 
for migrant families.
    Let me be clear, these items were nonstarters in last 
year's budget, and they will be nonstarters this year, too. The 
fiscal year 2020 CBP budget proposal includes a $5 billion 
request for a border wall, while simultaneously eliminating or 
reducing funding for several technology-oriented security 
measures, including video surveillance and cross-border, 
tunnel-detection systems. Shockingly, the proposed budget would 
also drastically reduce funding for nonintrusive inspection 
systems, which scan for drugs, guns, and other contraband at 
ports of entry.
    Last year Congress allocated over $500 million to procure 
new NII systems. In the 2020 budget, the President requests 
just $59 million. That is not enough. We have been over this 
time and time again. We need to continue investing in proven 
border security technology. It works and it works well. 
Eliminating funding for something as effective as NII systems 
is reckless and dangerous, and it will hamper our ability to 
secure our border. There is overwhelming evidence of that.
    In fiscal year 2018, 90 percent of heroin was seized at 
ports of entry by CBP officers while only 10 percent was seized 
between ports. CBP officers at ports of entry also seized 81 
percent of fentanyl in the same period. NII systems play an 
indispensable role in these types of seizures.
    Meanwhile, there is absolutely no evidence that a border 
wall would be more effective in stopping contraband from 
crossing the border. None whatsoever. Nevertheless, here we are 
again litigating this issue. The President himself frequently 
talks about the horrors of human trafficking and of the 
families that have been devastated by the opioid epidemic. Yet 
given the chance to actually do something about it, to actually 
invest in the resources that will help prevent those tragedies, 
he opts for a border wall, something that only serves to 
bolster his ego and irrevocably harm our border communities.
    It is hard to believe that this needs to be said, but 
clearly it does. Our committee is not in the business of 
funding ridiculous, xenophobic, campaign promises. We are in 
the business of securing our border and ensuring the efficacy 
of our border operations. We will not sign off on a budget that 
is chockful of baseless, politically-motivated line items that 
would only leave our border more vulnerable than it already is.
    This brings me to my next point: This committee is not just 
responsible for ensuring border security. We are also 
responsible for making sure that that security apparatus does 
not undermine a fair, thorough, and humane immigration and 
asylum process. This budget woefully fails to deliver on that 
as well.
    First and foremost, the fiscal year 2020 budget creates 
something called the Border Security and Immigration 
Enforcement Fund, which appears to use USCIS fees to fund an 
expansion of detention capacity to 60,000 beds, including a 300 
percent increase in family detention space, as well as an 
increase in law enforcement and prosecution-related personnel. 
As I see it, this fund only further advances USCIS's alarming 
change in focus from an agency responsible for facilitating and 
granting immigration benefits into an enforcement arm for this 
President to execute his cruel and punitive immigration agenda.
    Thus far, USCIS has not answered questions about this fund, 
instead directing questions to the White House. I can assure 
you that we will get the answers here today.
    Second, in addition to the 60,000 beds that the fiscal year 
2020 budget proposes, it also requests funding for 54,000 ICE 
detention beds, a significant increase over the 40,520 cap in 
the fiscal year 2018 and 2019 appropriation bills. ICE has 
continuously ignored the bed caps and still exceeds its current 
bed capacity today as it carries out Trump's anti-immigration 
agenda.
    Immigration detention is supposed to be civil detention. 
However, I have seen ICE detention facilities, and I can assure 
you, there is nothing civil about them. ICE's detention 
facilities look and feel like prisons. I saw them with my own 
eyes last month when I led a delegation from this committee 
down to El Paso. These facilities are chronically cited for 
conditions that are hazardous to the health and safety of its 
detainees, including lack of medical care, overuse of solitary 
confinement, spoiled and rotten food, and unreported health and 
security incidents. That is to say nothing of the repeated 
reports of abuse toward LGBTQ individuals, pregnant women, and 
other vulnerable populations.
    To make matters worse, ICE has consistently failed to hold 
detention facilities accountable to performance standards. How 
in good conscience can we increase their capacity for detention 
when they have proven incapable of properly overseeing their 
existing facilities?
    On May 1, 2019, OMB sent a letter to the Speaker, 
requesting an emergency appropriation of $4.5 billion for the 
remainder of fiscal year 2019 to address the, ``humanitarian 
and security crisis at the Southern Border.'' Of that $4.5 
billion, $1.1 billion was for DHS, and what did DHS say they 
would use that money for? Additional detention beds, rapid DNA 
testing for individuals that CBP and ICE believe could be human 
smugglers disguised as family units, and training for Border 
Patrol agents to begin administering credible fear screenings 
to families that they apprehend.
    All the while, this administration continues to illegally 
curtail and criminalize our asylum process. They have continued 
to implement the metering process, whereby the administration 
limits the number of people who are permitted to apply for 
asylum each day, and they have maintained the remaining Mexico 
policy where migrants and asylum seekers are forced to wait in 
Mexico while their asylum cases are processed. Taken together, 
these two strategies have led asylum seekers and migrants to 
cross in between ports of entry which is far more dangerous.
    Last week Bishop Mark Seitz from the Catholic diocese of El 
Paso, Texas, testified before this subcommittee. He described 
the dangerous conditions he saw in Mexico along the U.S. 
border. He specifically called on the Trump administration to 
end policies like migrant protection protocols, also known as 
``remain in Mexico,'' that force asylum seekers to wait in 
Mexico under grave safety, humanitarian, and due process 
concerns.
    Not only does this policy put tremendous stress on our 
Mexican partners, it has also proven to be deeply flawed. For 
example, several migrants subject to remain in Mexico, received 
notices to appear in immigration court, but with an incorrect 
court date or no date at all. Even though the migrant could not 
have possibly shown up for a court date they did not know 
about, some have been ordered removed in absentia. It is things 
like this, that make a mockery of our entire immigration 
system.
    Then, of course, there are the President's absurd threats 
to close the border altogether or charge fees for asylum 
applications, but this is what happens when you prioritize 
fear-mongering and campaign slogans over thoughtful border 
policies like addressing chronic personnel challenges and 
helping our Central American neighbors. President Trump's 
proposed DHS budget is simply a continuation of his misguided, 
shortsided, enforcement-only approach to border security and 
immigration. At this point, we know all too well how that ends. 
It will undoubtedly lead to the inhumane treatment of migrants 
and severe misallocations of limited DHS resources. If anyone 
has any doubts about that, then I would remind them of the 
administration's horrifying family separation policy which 
plunged DHS into a state of utter chaos and paralysis and 
caused unimaginable trauma to thousands of children.
    When does it stop? When will this administration wake up to 
the reality that these policies are not only inhumane, they are 
not only un-American, but they are actually undermining our 
ability to secure our border. These policies make us less safe. 
We cannot continue down this road. We cannot continue allowing 
this administration to divert resources away from solutions and 
distort DHS's critical mission. We need to focus on and invest 
in the proven, common-sense strategies that will address both 
the humanitarian and security challenges at the border, and 
that is what I intend to do here today.
    [The statement of Chairwoman Rice follows:]
                 Statement of Chairwoman Kathleen Rice
                              May 9, 2019
    I want to thank the administration officials who came here this 
morning to testify and provide additional details about their 
priorities and programs for the coming fiscal year. But I'm going to be 
frank with everyone here today. This budget request is deeply flawed 
and seems to double down on a number of highly questionable policies 
that have been patently and repeatedly rejected by Congress over the 
past 2 years. That includes billions of dollars for a useless border 
wall and hundreds of millions of dollars for additional detention space 
for migrant families.
    Let me be clear. These items were non-starters in last year's 
budget, and they will be non-starters this year too. The fiscal year 
2020 CBP budget proposal includes a $5 billion request for a border 
wall, while simultaneously eliminating or reducing funding for several 
technology-oriented security measures including video surveillance and 
cross-border tunnel detection systems. Shockingly, the proposed budget 
would also drastically reduce funding for Non-Intrusive Inspection 
(NII) Systems, which scan for drugs, guns, and other contraband at 
ports of entry. Last year, Congress allocated over $500 million to 
procure new NII systems. In the 2020 budget, the President requests 
just $59 million. That is not enough.
    We have been over this time and time again. We need to continue 
investing in proven border security technology. It works. And it works 
well.
    Eliminating funding for something as effective as NII systems is 
reckless and dangerous and it will hamper our ability to secure our 
border. And there is overwhelming evidence of that. In fiscal year 
2018, 90 percent of heroin was seized at ports of entry by CBP 
officers, while only 10 percent was seized between ports. CBP officers 
at ports of entry also seized 81 percent of fentanyl in the same 
period. NII systems play an indispensable role in these types of 
seizures. Meanwhile, there is absolutely no evidence that a border wall 
would be more effective in stopping contraband from crossing the border 
. . . none whatsoever. Nevertheless, here we are again, litigating this 
issue.
    The President himself frequently talks about the horrors of human 
trafficking and of the families that have been devastated by the opioid 
epidemic. Yet, given the chance to actually do something about it . . . 
 to actually invest in the resources that will help prevent those 
tragedies, he opts for a border wall . . . something that only serves 
to bolster his ego and irrevocably harm our border communities.
    It's hard to believe that this needs to be said, but clearly it 
does: Our committee is not in the businesses of funding ridiculous, 
xenophobic campaign promises. We are in the business of securing our 
border and ensuring the efficacy of our border operations. And we will 
not sign off on a budget that is chock-full of baseless, politically-
motivated line items that would only leave our border more vulnerable 
than it already is.
    And this brings me to my next point. This committee is not just 
responsible for ensuring border security, we are also responsible for 
making sure that that security apparatus does not undermine a fair, 
thorough, and humane immigration and asylum process. And this budget 
woefully fails to deliver on that as well.
    First and foremost, I noticed that the fiscal year 2020 budget 
creates something called the ``Border Security and Immigration 
Enforcement Fund,'' which appears to use USCIS fees to fund an 
expansion of detention capacity to 60,000 beds, including a 300 percent 
increase in family detention space, as well as an increase in law 
enforcement and prosecution-related personnel. As I see it, this fund 
only further advances USCIS' alarming change in focus from an agency 
responsible for facilitating and granting immigration benefits, into an 
enforcement arm for this president to execute his cruel and punitive 
immigration agenda. Thus far, USCIS has not answered questions about 
this fund, instead directing questions to the White House. I can assure 
you that will not fly today.
    Second, in addition to the 60,000 beds that the fiscal year 2020 
budget proposes, it also requests funding for 54,000 ICE detention 
beds, a significant increase over the 40,520 cap in the fiscal year 
2018 and 2019 appropriations bills. ICE has continuously ignored the 
bed caps and still exceeds its current bed capacity today as it carries 
out Trump's anti-immigration agenda. Immigration detention is supposed 
to be civil detention. However, I have seen ICE detention facilities, 
and I can assure you there is nothing civil about them. ICE's detention 
facilities look and feel like prisons. I saw them with my own eyes last 
month when I led a delegation from this committee down to El Paso. 
These facilities are chronically cited for conditions that are 
hazardous to the health and safety of its detainees including lack of 
medical care, overuse of solitary confinement, spoiled and rotten food, 
and unreported health and security incidents. And that's to say nothing 
of the repeated reports of abuses toward LGBTQ individuals, pregnant 
women, and other vulnerable populations. And to make matters worse, ICE 
has consistently failed to hold detention facilities accountable to 
performance standards. How in good conscious can we increase their 
capacity for detention when they have proven incapable of properly 
overseeing their existing facilities.
    On May 1, 2019, OMB sent a letter to the Speaker requesting an 
emergency appropriation of $4.5 billion for the remainder of fiscal 
year 2019 to address the ``humanitarian and security crisis at the 
Southern Border.'' Of that 4.5 billion, 1.1 billion was for DHS. And 
what did DHS say they would use that money for? Additional detention 
beds. Rapid DNA Testing for individuals that CBP and ICE believe could 
be human smugglers disguised as family units. And training for Border 
Patrol agents to begin administering Credible Fear Screenings to 
families that they apprehend.
    All the while, this administration continues to illegally curtail 
and criminalize our asylum process. They have continued to implement 
the ``metering'' process, whereby the administration limits the number 
of people who are permitted to apply for asylum each day, and they have 
maintained the Remain in Mexico policy, where migrants and asylum 
seekers are forced to wait in Mexico while their asylum cases are 
processed. Taken together, these two strategies have led asylum seekers 
and migrants to cross in between ports of entry, which is far more 
dangerous.
    Last week, Bishop Mark Seitz from the Catholic Diocese of El Paso, 
Texas, testified before this subcommittee. He described the dangerous 
conditions he saw in Mexico along the U.S. border. He specifically 
called on the Trump administration to end policies like Migrant 
Protection Protocols, also known as ``Remain in Mexico'' that force 
asylum seekers to wait in Mexico under ``grave safety, humanitarian, 
and due process concerns.'' And not only does this policy put 
tremendous stress on our Mexican partners, it has also proven to be 
deeply flawed. For example, several migrants subject to Remain in 
Mexico received Notices to Appear in immigration court, but with an 
incorrect court date, or no date at all. And even though the migrant 
could not have possibly shown up for a court date they did not know 
about, some have been ordered removed in absentia. It's things like 
this that make a mockery of our entire immigration system . . . And 
then of course, there are the President's absurd threats to close the 
border altogether or charge fees for asylum applications.
    But this is what happens when you prioritize fear-mongering and 
campaign slogans over thoughtful border policies, like addressing 
chronic personnel challenges and helping our Central American 
neighbors.
    President Trump's proposed DHS budget is simply a continuation of 
his misguided, short-sighted, enforcement-only approach to border 
security and immigration. And at this point, we know all too well how 
that ends: It will undoubtedly lead to the inhumane treatment of 
migrants and severe misallocations of limited DHS resources. And if 
anyone has any doubts about that, then I would remind them of the 
administration's horrifying family separation policy, which plunged DHS 
into a state of utter chaos and paralysis and caused unimaginable 
trauma to thousands of children.
    When does it stop? When will this administration wake up to the 
reality that these policies are not only inhumane . . . they are not 
only un-American . . . but they are actually undermining our ability to 
secure our border. These policies make us less safe. We cannot continue 
down this road. We cannot continue allowing this administration to 
divert resources away from solutions and distort DHS's critical 
mission. We need to focus on and invest in the proven, common-sense 
strategies that will address both the humanitarian AND security 
challenges at the border . . . and that's what I intend to do here 
today.

    Miss Rice. With that, I now recognize the Ranking Member of 
the subcommittee, the gentleman from Louisiana, Mr. Higgins, 
for an opening statement.
    Mr. Higgins. Thank you, Madam Chair, and thank you to our 
witnesses for being here today to present President Trump's 
fiscal year 2020 budget for Customs and Border Protection, 
Immigration and Customs Enforcement, and Citizenship and 
Immigration Services.
    Law enforcement professionals tasked with actually securing 
our border agree that we need layered security, enhanced 21st 
Century security, to control the incredible flow of human 
trafficking and illegal crossings. We need enhanced technology 
to detect an incoming illegal crossing, enhanced physical 
barriers to delay and deter that crossing, enhanced capacity to 
respond to that detected and deterred crossing, and enhanced 
capacity to process once arrests are made appropriately 
according to the law.
    Budgets for border security should be determined based upon 
the actual needs as expressed by the law enforcement 
professionals on the ground and commanders in the field, not by 
politicians and bureaucrats in the District of Columbia.
    I have said in every hearing held this year, and I will say 
again, there is a growing humanitarian, National security, and 
illegal immigration crisis at the Southwest Border. This fiscal 
year, CBP is on track to apprehend the highest number of 
migrants in 12 years. This increase in new migrant crossings 
has pushed our ability to properly manage our Southern Border 
and enforce our immigration laws. We have been pushed to the 
breaking point and beyond. Migrants professing--processing 
facilities along the border are continuing to be pushed far but 
past their capacity. Border Patrol is apprehending record 
numbers of groups of a hundred migrants or more. It is very 
challenging to deal with. CBP just reported that they 
encountered over 100,000 people at the Southwest Border in 
April of this year alone, nearly a 600 percent increase since 
2017.
    Law enforcement officers are being taken off the line of 
duty to transport and accompany migrants to hospitals once they 
reach our border in deteriorating health. This is 
unsustainable.
    For political reasons, perhaps, my colleagues on the other 
side of the aisle, have hesitated to even admit that a crisis 
exists. During the last fiscal year, there was attempts to zero 
out funding for additional Border Patrol agents, to zero out 
funding for additional ICE agents, and to block supplemental 
appropriations language to support our men and women along the 
border. This effort to defund border security is an attack on 
law enforcement. It forces illegal migrants to be released en 
masse, into our border communities, and prevents ICE from 
arresting criminal aliens who threaten public safety.
    Because of this inaction, last week the administration 
submitted a fiscal year 2019 supplemental budget request to 
Congress for $4.5 billion in humanitarian assistance. I 
encourage my colleagues to set aside their hatred for President 
Trump and work to address the crisis at the border.
    I stand ready to work with Members on both sides of the 
aisle to pass legislation in support of this necessary 
supplemental request. Today we will examine the President's 
fiscal year 2020 budget request and determine if it is adequate 
in providing CBP, ICE, and USCIS, with the tools and resources 
necessary for them to carry out their mission. I was happy to 
see increases made to the CBP and ICE budgets to address the 
crisis at the border and at least deliver a down payment on 
border security called for by the law enforcement professionals 
on the ground.
    The President's fiscal year 2020 budget funds the 
construction of approximately 300 miles of enhanced physical 
barriers and needed 21st Century technology. Important access 
roads, and the ability to respond is included in this budget. 
The budget also makes strong investments in front-line 
personnel, to hire an additional 1,000 ICE law enforcement 
officers, 750 Border Patrol agents, 171 CBP port of entry 
officers, 128 immigration court-processing attorneys, and the 
necessary associated support personnel.
    I was encouraged to see that the request includes strong 
investments in Homeland Security investigations, to fund and 
prosecute cross-border criminals, including terrorists, 
transnational criminal organizations, human traffickers, and 
all those who participate in sexual exploitation.
    President Trump is determined to do what it takes to secure 
the homeland, and I support this thoroughly justified budget. 
Today, we are fortunate to have experts before us who can 
explain why they need these resources and how they will be 
deployed. I look forward to the testimony of our witnesses. I 
respect my colleagues on both sides of the aisle, and, Madam 
Chair, I yield back.
    [The statement of Ranking Member Higgins follows:]
                Statement of Ranking Member Clay Higgins
                              May 9, 2019
    Thank you, Madam Chair, and thank you to our witnesses for being 
here today to present President Trump's fiscal year 2020 budget for 
Customs and Border Protection, Immigration and Customs Enforcement, and 
Citizenship and Immigration Services.
    I've said this in every hearing held this year, and I will say it 
again: There is a growing humanitarian, National security, and illegal 
immigration crisis at the Southwest Border.
    This fiscal year, CBP is on track to apprehend the highest number 
of migrants in 12 years. This increase in new migrant crossings has 
pushed our ability to properly manage our Southern Border and enforce 
our immigration laws to the breaking point. Migrant processing 
facilities along the border are continuing to be pushed past 100 
percent capacity. Border Patrol is apprehending record numbers of 
groups of 100 migrants or more. CBP just reported that they encountered 
over 100,000 people at the Southwest Border in April of this year, 
nearly a 600 percent increase since 2017. Law enforcement officers are 
being taken off the line of duty to transport and accompany migrants at 
hospitals once they reach our border in deteriorating health.
    Ladies and gentlemen, this is unsustainable.
    For political reasons, my colleagues on the other side of the aisle 
refuse to act or even admit that a crisis exists. During the last 
fiscal cycle, they tried to zero out funding for additional Border 
Patrol agents. They tried to zero out funding for additional ICE 
agents. They then blocked supplemental appropriations language to 
support our men and women along the border.
    This effort to defund border security is an attack on law 
enforcement. It forces illegal migrants to be released en masse into 
our border communities and prevents ICE from arresting criminal aliens 
who threaten public safety.
    Because of this inaction, last week the administration submitted a 
fiscal year 2019 supplemental budget request to Congress for $4.5 
billion in humanitarian assistance. I encourage my colleagues to put 
aside their political rhetoric and hatred for President Trump and work 
to address the crisis at the border. I stand ready to work with Members 
on both sides of the aisle to pass legislation in support of this 
necessary supplemental request.
    Today, we will examine the President's fiscal year 2020 budget 
request and examine if it is adequate in providing CBP, ICE, and USCIS 
with the tools and resources necessary for them to carry out their 
important mission.
    I was happy to see increases made to the CBP and ICE budgets to 
address the crisis at the border and put a down payment on border 
security.
    The President's fiscal year 2020 budget funds the construction of 
approximately 300 miles of new border barriers, needed 21st Century 
technology, and important access roads.
    The budget also makes strong investments in front-line personnel to 
hire an additional 1,000 ICE law enforcement officers, 750 Border 
Patrol agents, 171 CBP port of entry officers, 128 immigration court 
prosecuting attorneys, and the necessary associated support personnel.
    I was encouraged to see that the request includes strong 
investments in Homeland Security Investigations to find and prosecute 
cross-border criminals including terrorists, transnational criminal 
organizations, human traffickers, and those who participate in sexual 
exploitation of children.
    President Trump has the determination to do what it takes to secure 
the homeland, and I support this thoroughly justified budget request.
    Today, we are fortunate to have experts before us who can explain 
why they need these resources and how they will be deployed.

    Miss Rice. Thank you, Mr. Higgins.
    Other Members of the committee are reminded that under the 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                              May 9, 2019
    Today, we will hear from the 3 DHS components that are responsible 
for carrying out the Department's border security and immigration-
related missions. The President's fiscal year 2020 budget proposal 
continues to illustrate that the Trump administration's priorities are 
skewed, short-sighted, and cruel. One only needs to review the White 
House's supplemental request sent to Congress last week to know that 
the administration continues to act in bad faith in regards to 
addressing the current challenge we face of our Southern Border.
    There is a humanitarian crisis on our Southern Border, and this 
situation has been unfolding for nearly a year. This crisis is one of 
this administration's own making, and few steps have been taken to 
truly alleviate the pressures on the migrants, officers, and agents on 
the ground.
    The White House's supplemental request is a non-starter. The 
request for $81.7 million for more detention space for migrant families 
illustrates that the administration refuses to acknowledge or does not 
care that detention is harmful to children. The request for $23 million 
for a pilot program that will dramatically change the credible fear 
screening process is both deeply problematic and possibly illegal--
which is not surprising for the Trump administration. Neither of these 
two requests should be approved by Congress.
    Similarly, the President's fiscal year 2020 DHS budget proposal 
doubles down on many of the same requests that have been denied for 
funding by Congress over the past 2 years. For example, the fiscal year 
2020 U.S. Customs and Border Protection budget is dominated yet again 
by a request for billions of dollars for a wasteful border wall at the 
expense of other critical border security investments--such as non-
intrusive inspection technology at ports of entry. This technology has 
proven, time and again, to be an important tool in detecting nearly 90 
percent of the illegal drugs seized by CBP.
    Despite the long-standing and serious problems with conditions and 
abuses at immigration detention facilities, the White House continues 
to advocate for more bed space. Funding for ICE's Homeland Security 
Investigations, which investigates transnational drug trafficking 
organizations and human smuggling rings, would be diverted to fund 
interior immigration enforcement arrests and deportations instead. 
Meanwhile, U.S. Citizenship and Immigration Services' budget proposal 
shows this administration is unilaterally morphing the agency into an 
enforcement one, contrary to the law, rather than addressing the 
growing backlog of immigration applications.
    Border security is more than building a wall. Shortchanging legal 
due process and treating migrants inhumanely are not in keeping with 
our country's values. Democrats remain committed to being good stewards 
of taxpayer dollars by targeting resources at proven border security 
efforts while treating those arriving at our Southern Border in a 
humane manner.
    I would urge the administration to stop putting forward non-starter 
budget requests and instead join us in that effort.

    Miss Rice. I welcome our panel of witnesses. Our first 
witness is Mr. Robert Perez, the deputy commissioner for U.S. 
Customs and Border Protection. In this role, he serves as the 
agency's senior career official, overseeing the personnel who 
work every day to protect our Nation's borders. During his 26-
year career in Federal law enforcement, Mr. Perez has also 
served as the director of field operations in CBP's New York 
field office and in Detroit, Michigan, and held various other 
positions at CBP headquarters.
    Next, we have Mr. Matthew Albence, the current acting 
director for U.S. Immigration and Customs Enforcement. Mr. 
Albence oversees ICE's day-to-day operations and manages its 
operational and mission support personnel. Previously, he led 
ICE's enforcement and removal operations directorate, and has 
more than 24 years of Federal immigration law enforcement 
experience.
    Finally, we have Ms. Tracy Renaud, the acting deputy 
director of U.S. Citizenship and Immigration Services. She has 
also held a number of positions at USCIS headquarters, 
including chief of field operations and deputy associate 
director of refugee asylum and international operations. Ms. 
Renaud has spent more than 32 years working in the area of 
immigration benefits and services.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
or her statement for 5 minutes, and we will start with Mr. 
Perez.

STATEMENT OF ROBERT E. PEREZ, DEPUTY COMMISSIONER, U.S. CUSTOMS 
                     AND BORDER PROTECTION

    Mr. Perez. Chairwoman Rice, Ranking Member Higgins, and 
Members of the subcommittee, thank you for the opportunity to 
appear before you today. I am honored to represent the nearly 
60,000 men and women of U.S. Customs and Border Protection and 
speak to you about our fiscal year 2020 budget request. Across 
the board, CBP employees continue to perform difficult and, at 
times, dangerous work in complex and a dynamic environment.
    The President's fiscal year 2020 budget includes a combined 
total of $18.2 billion that enables CBP to carry out our 
mission through a range of investments needed to secure our 
Nation against 21st Century threats. The funds included in the 
fiscal year 2020 budget support our critical mission 
initiatives in border security, trade, and travel, 
counterterrorism, and other organizational improvements.
    The need for investment in border security has never been 
greater. We are in the midst of an on-going humanitarian and 
National security crisis on our Southwest Border. Last month, 
CBP apprehended over 109,000 migrants along our Southern 
Border, more than 66 percent of which were families and 
unaccompanied children. Two days last month we apprehended over 
5,000 migrants within one 24-hour period. So far this fiscal 
year, we have encountered 148 large groups of over 100 people.
    The increases in families and children coming across our 
border, in large groups and often remote areas, presents unique 
challenges to our operations and facilities. Our resources are 
outpaced by this crisis. Our system is well beyond capacity. As 
a career, law enforcement professional, with over 26 years of 
experience, I can tell you, I have never seen anything like the 
crisis we are experiencing now. We must secure our border, and 
working together, I know we can find solutions to do so.
    With regard to border security, the three primary areas of 
investment in the fiscal year 2020 budget are infrastructure, 
technology, and personnel. Funding provided for CBP in this 
budget supports construction of approximately 200 miles of new 
border wall system, including real estate environmental 
planning, land acquisition, and construction.
    Alongside the border wall system, technology is a critical 
tool that increases our situational awareness and decreases 
risks to the safety of our front-line personnel. The fiscal 
year 2020 budget request proposes investing in the sustainment 
and continued deployment of technology to strengthen border 
security operations between the ports of entry in the land, 
air, and maritime environments.
    But an organization is only as good as its people, and CBP 
has made it a top priority to attract, hire, train, and recruit 
a world-class work force. The 2020 budget includes an increase 
of $164.5 million to support hiring, training, and equipping of 
750 additional Border Patrol agents and 145 mission support 
personnel. CBP is also actively working to minimize attrition 
and fill positions in hard-to-fill locations.
    In addition to border security, facilitating lawful trade 
and travel is a crucial part of CBP's mission. The 2020 budget 
provides $62.6 million to support the procurement and 
recapitalization efforts of non-intrusive inspection 
technologies at our ports of entry that enable CBP to detect 
materials and contraband that may pose a threat to our country. 
The budget also requests an increase in funding for 267 CBP 
officers, agriculture specialists, trade and revenue positions, 
and mission and operational support personnel.
    In today's dynamic threat environment, detecting terrorists 
and criminals is paramount for our National security. To unify 
and streamline the vetting of international travelers and visa 
and immigration benefit applicants, the 2020 budget also 
includes $31.5 million to fund positions, tools, and system 
enhancements for the National vetting center.
    Finally, the fiscal year 2020 budget dedicates $54.9 
million in critical investments toward organizational 
initiatives, which will enable CBP to mature and develop our 
capabilities and business processes to meet the challenges of 
tomorrow.
    Our goal is to be the most innovative and trusted law 
enforcement agency in the world, and we are taking active 
measures to make that goal a reality. With the on-going support 
of Congress, CBP will continue to secure our Nation's borders 
while facilitating international trade and travel.
    Thank you for the opportunity to appear before you today. I 
look forward to your questions.
    [The prepared statement of Mr. Perez follows:]
                 Prepared Statement of Robert E. Perez
                              May 9, 2019
    Chairwoman Rice, Ranking Member Higgins, and Members of the 
subcommittee, it is an honor to appear before you today. As America's 
unified border agency, U.S. Customs and Border Protection (CBP) 
protects the United States from terrorist threats and prevents the 
illegal entry of inadmissible persons and contraband, while 
facilitating lawful trade and travel. The President's fiscal year 2020 
budget includes $18.2 billion in net discretionary funding and an 
additional $2.6 billion in mandatory and offsetting fee funding that 
will help CBP achieve our complex and vital mission with the right 
combination of trained and dedicated personnel, intelligence-driven and 
risk-based strategies, collaborative partnerships, tactical 
infrastructure, and advanced technology. Nearly a third of this amount, 
$5.9 billion, is for critical investments that will advance CBP's goals 
across all of our mission areas.
    Over the past year, we have made significant strides across every 
area of our mission. We facilitated record levels of lawful trade and 
travel, inspecting more than 413.9 million travelers--a 4.2 percent 
annual increase from the previous year. We interdicted increasing 
quantities of hard narcotics, including the largest seizure of fentanyl 
in CBP history at the Nogales, Arizona, Port of Entry (POE). That 
seizure was 254 pounds, or more than 100 million lethal doses. We 
enhanced screening and vetting, including advancements in cargo and 
conveyance screening technology that provides CBP with a significant 
capacity to detect dangerous materials and other contraband. We 
continued to implement the Trade Facilitation and Trade Enforcement Act 
(TFTEA, Public Law No. 114-125). And we remained committed to ensuring 
that our officers and agents are safe as they carry out their critical 
duties, and have the best training, policy, and equipment. Across the 
board, CBP continues to do difficult work in a complex and dynamic 
environment, and needs a range of investments to secure our Nation 
against 21st Century threats. The funds included in the fiscal year 
2020 budget support our critical mission initiatives in 4 strategic 
priority areas: Border security, trade and travel, counterterrorism, 
and organizational objectives.
    Before discussing in detail the President's 2020 budget, I would 
like to thank the subcommittee for its support of CBP priorities in the 
Consolidated Appropriations Act 2019 (Public Law No. 116-6), to include 
funding increases for humanitarian aid, staffing at our POEs, Non-
Intrusive Inspection (NII) equipment and other border security 
technologies. We are eager to put this funding to work to improve our 
Nation's security and facilitate lawful trade and travel. I ask 
Congress to support our fiscal year 2020 budget submission, which will 
allow our front-line personnel to do their jobs and carry out our 
critical missions to keep our Nation safe and prosperous.
    As the subcommittee is aware, the fiscal year 2020 budget builds on 
the fiscal year 2019 President's budget and continues the important 
efforts enacted in fiscal year 2019, as well. In a number of key areas, 
the fiscal year 2019 enactment diverges from the fiscal year 2019 
President's budget, both in terms of funding levels and limitations on 
where and how CBP can use the funding provided. The fiscal year 2019 
appropriations act does not fully fund our most critical needs for 
border wall system construction nor the hiring of additional Border 
Patrol agents, which deviates from the requirements identified by our 
agents on the front line. Accordingly, the administration continues to 
seek Congressional support for these priorities.
    In addition, the fiscal year 2019 appropriations act provides 
significant investments in humanitarian aid in response to a 
substantial increase in illegal crossings by family units and 
unaccompanied children, and arrivals of inadmissible persons at POEs 
across the entire Southwest Border. I want to express my appreciation 
for the support of this initiative and for the $415 million in fiscal 
year 2019 funds for facilities, medical care, transportation, and 
consumable commodities to help CBP care for those in its custody. We 
are executing those funds now and, while we are sustaining these 
efforts with $82.2 million in the fiscal year 2020 budget, we look 
forward to a dialog with you on how best to meet our evolving 
requirements at the Southwest Border. CBP must continue to adapt to the 
dynamic border environment while continuing to provide humane treatment 
for migrants we encounter.
    This situation on the border with unprecedented numbers of families 
and children represents an acute and worsening crisis. At the end of 
March, fiscal year 2019, the U.S. Border Patrol has seen more than a 
370 percent increase in the number of family units apprehended compared 
to the same time period in fiscal year 2018. We are continuing to 
monitor the on-going crisis at the border and will keep the Congress 
apprised of the evolving situation.
    Returning to the details of the fiscal year 2020 budget, our 
strategic priorities include $5.6 billion for border security; $188.4 
million for trade and travel facilitation and enforcement; $31.5 
million in support of the National Vetting Enterprise; and $74.3 
million for organizational initiatives that will help CBP meet future 
challenges and opportunities. These investments will enhance border 
security, enforce the Nation's immigration laws, promote public safety, 
minimize the threat of terrorist attacks by foreign nationals, maintain 
our ability to provide critical emergency response support to our DHS 
component partners, and protect American workers from unfair foreign 
competition.
                            border security
    CBP guards the front line of the United States, and our border 
security mission--at POEs, along our borders, and from the air and 
sea--is a matter of National security. At the border, we face alarming 
trends in illegal crossings that impact security, exploit our laws, and 
challenge our resources and personnel. We are seeing increases in 
illegal crossings and arrivals of inadmissible persons at POEs across 
the entire Southwest Border. In fiscal year 2018, CBP recorded 404,142 
apprehensions by U.S. Border Patrol (USBP) agents along the border and 
279,009 inadmissible cases by CBP officers at U.S. POEs--an 
approximately 15 percent increase between ports of entry over the 
previous year. CBP personnel also played a critical counter-narcotics 
role, seizing or contributing to the seizure of 1.1 million pounds of 
marijuana; 282,570 pounds of cocaine; 248,132 pounds of 
methamphetamine; 6,552 pounds of heroin; and 2,463 pounds of fentanyl.
    There are 3 primary elements of border security: Infrastructure, 
technology, and personnel. The fiscal year 2020 budget proposes new 
investments in all 3 elements, including the border wall system, as 
well as technology and equipment that keeps CBP personnel safe and 
allows them to more effectively and efficiently carry out their 
missions. All three components are necessary to safeguard and manage 
air, land, and maritime borders.
Infrastructure
    Tactical infrastructure, including physical barriers between the 
POEs, has long been a critical component of CBP's multi-layered and 
risk-based approach to securing our Southwest Border. It is undeniable 
that border barriers have enhanced--and will continue to enhance--CBP's 
operational capabilities by creating persistent impedance and 
facilitating the deterrence and prevention of successful illegal 
entries. CBP plans to deploy a border wall system in a multi-phased and 
prioritized approach that meets USBP's operational requirements, 
safeguards National security and public safety, and is the result of 
thorough analysis of threat, cost, and mission effectiveness. Border 
wall systems are comprehensive solutions that include a concentrated 
combination of various types of infrastructure such as physical 
barriers, all-weather roads, lighting, sensors, enforcement cameras, 
and other related technology, and contribute to USBP's core master 
capability of impedance and denial. The fiscal year 2020 budget 
includes $8.6 billion for the border wall, including $5.0 billion for 
DHS to support the construction of approximately 200 miles of new 
border wall system. This funding supports real estate and environmental 
planning, land acquisition, wall system design, construction, and 
construction oversight.
    Infrastructure investments also include facilities used by our 
workforce at and between POEs. Constructing and improving CBP's 
physical infrastructure is essential to keeping facilities 
operationally viable for front-line and mission support functions. CBP 
supports a vast and diverse real property portfolio, including more 
than 4,300 owned and leased buildings, over 28 million square feet of 
facility space and approximately 5,000 acres of land throughout the 
United States.
    The fiscal year 2020 budget includes $127.4 million for the 
construction, modernization, and expansion of Border Patrol, Air and 
Marine Operations (AMO), and Office of Field Operations (OFO) 
facilities. Of the $127.4 million total, the fiscal year 2020 budget 
includes $84.2 million for the Border Patrol, which provides $22.0 
million for a Border Patrol checkpoint in Freer, Texas; $15.0 million 
for the Carrizo Springs, Texas, checkpoint; $15.0 million for the Eagle 
Pass, Texas, south checkpoint; and $15.0 million for a Forward 
Operating Base in Papago Farms, Arizona. It also includes $14.2 million 
for minor construction, alternations, and improvement projects at 
Border Patrol facilities and $3.0 million for design efforts.
    Of the $127.4 million construction total, $6.0 million is provided 
to co-locate AMO's Corpus Christi Marine Unit at the U.S. Coast Guard's 
(USCG) existing property at Port Aransas, Texas. USCG's current 
facility is being rebuilt due to damages incurred during the 2017 
hurricane season and provides a new location for CBP that is closer to 
our operational watercraft.
    Further, the fiscal year 2020 budget includes $14.8 million to 
continue modernizing our POEs with capital improvements, furniture, 
fixtures, and equipment to ensure the facilities meet mission and 
security requirements. Also included is $22.4 million to support OFO 
expansion activities at the John F. Kennedy International Airport in 
New York. An important area for future collaborative work with the 
committee will be on modernizing and right-sizing U.S. Border Patrol 
and Air and Marine Operations facilities in response to growing and 
changing missions.
Technology and Equipment
    CBP's border security mission regularly requires that Border Patrol 
agents and CBP officers operate in diverse and remote locations where 
tactical communication, transportation, and surveillance capabilities 
are essential to coordinating mission activities and protecting the 
safety of CBP law enforcement personnel. The fiscal year 2020 budget 
will enable the continued deployment of proven, effective technology 
and equipment to strengthen border security operations in the land, 
air, and maritime environments.
            Land
    For our land-based border operations, technology and equipment are 
force-multipliers that enhance our agents' and officers' abilities to 
detect and respond to illegal activity. Fixed systems provide 
persistent surveillance coverage to efficiently detect unauthorized 
border crossings. Once detection is confirmed, Border Patrol can 
quickly deploy the appropriate personnel and resources to interdict the 
item or person of interest. The budget supports these critical assets 
by including $1.1 million for procurement and deployment of Integrated 
Fixed Tower (IFT) technology, which consists of surveillance radars and 
electro-optical/infrared (EO/IR) cameras mounted on fixed towers with 
communications to an operations center. In some areas along the 
Southwest Border, USBP also uses Unattended Ground Sensors (UGS), which 
provide short-range, persistent surveillance. The fiscal year 2020 
budget includes a procurement of approximately 8,900 UGS units and 
support equipment at $20.6 million.
    Remote Video Surveillance Systems (RVSS) are fixed technology 
assets used in select areas along the Southwest and Northern borders. 
These systems provide 
short-, medium-, and long-range persistent surveillance mounted on 
stand-alone towers, or other structures. The RVSS uses cameras, radio, 
and transmitters to send video to a control room. This enables a 
control room operator to remotely detect, identify, classify, and track 
targets using the video feed. The fiscal year 2020 budget includes 
$40.7 million for deployment of upgraded RVSS technology to 22 sensor 
towers and command control technology at Brownsville (5 new and 5 
existing) and Fort Brown (9 new and 3 existing) Stations in the Border 
Patrol's Rio Grande Valley (RGV) Sector. This investment will enhance 
the Border Patrol's situational awareness of border activity through 
persistent surveillance and detection to facilitate proper law 
enforcement resolution. The fiscal year 2020 budget also includes an 
additional $17.9 million to sustain RVSS.
    In areas where rugged terrain and dense ground cover may limit the 
effectiveness and coverage of fixed systems, USBP also uses mobile and 
relocatable systems. Mobile Video Surveillance Systems (MVSS) consist 
of short- and medium-range mobile surveillance equipment mounted on 
USBP vehicles. The budget includes $14.8 million to procure and deploy 
30 MVSS.
    Investments in the deployment and sustainment of border security 
technology such as IFT, RVSS, MVSS, and UGS will significantly 
strengthen CBP's ability to detect, identify, classify, and track 
illicit activity.
    The budget also includes $15 million for the procurement of 50 
Small Unmanned Aircraft Systems (sUAS). The Border Patrol requires sUAS 
capabilities to conduct surveillance in remote, isolated, and 
inaccessible portions of the Nation's borders. The sUAS provides ground 
reconnalissance, surveillance, and tracking capabilities in support of 
USBP surveillance tasks of predicting, detecting, tracking, 
identifying, and classifying suspected items of interest. An additional 
$1.7 million is also provided for sUAS operations and maintenance. The 
ability to persistently and discreetly surveil remote areas along 
portions of the border is critical to USBP's ability to secure the 
border. To keep pace with 21st Century technology, the budget includes 
a further $12.1 million to enable Remote Surveillance Technology 
Innovation.
    The budget also provides $3.2 million in operations and maintenance 
costs for the Cross Border Tunnel Threat (CBTT) program. The CBTT 
program strengthens border security effectiveness between POEs by 
diminishing the ability of transnational criminal organizations (TCOs) 
to gain access into the United States through cross-border tunnels and 
the illicit use of underground municipal infrastructure. This effort 
helps CBP predict potential tunnel locations; detect the presence of 
suspected tunnels and tunneling activities, and project the trajectory 
of a discovered tunnel; confirm a tunnel's existence and location 
through mapping measurement; and facilitate secure information sharing 
across all stakeholders.
    The CBP mission is dangerous, and CBP personnel can encounter 
situations requiring the use of force. As such, it is vitally important 
that CBP law enforcement personnel are equipped with properly 
functioning weapons. The fiscal year 2020 budget provides $19.4 million 
to continue CBP's transition to the new 9mm service weapon. In 2019, 95 
percent of all CBP service handguns will exceed the expected service 
life, resulting in an increased hazard rate for service handguns and 
exhausting the current reserve inventory. This funding will provide 
overall mission support associated with new training mandates related 
to the handgun transition and overall requirements associated with the 
acquisition of 9mm duty handguns, ammunition, replacement parts, and 
holsters.
    Investments in opioid detection equipment and safeguards are 
essential for ensuring the safety of our employees and for combatting 
the opioid crisis gripping our Nation. In January of this year, CBP 
officers at the Nogales Commercial Facility seized the largest amount 
of fentanyl in CBP history. Opioids--particularly fentanyl and its 
analogs--present significant dangers to first responders, including CBP 
officers, Border Patrol agents, and their K-9 partners. The budget 
provides $8.9 million for presumptive testing devices and related 
training, and naloxone countermeasure units and related training for 
OFO. It also includes an increase of $7.1 million for chemical analysis 
software and equipment for 24/7/365 narcotics reach-back services, 
laboratory instrumentation, satellite border laboratory locations, and 
digital forensics workspace and equipment. This funding will maintain 
OFO's safety stance for POEs and enhance CBP's Laboratories and 
Scientific Services (LSS) Directorate's capabilities and capacity.
    Additional technology funding includes $18.8 million for the Border 
Enforcement Coordination Network, which will replace Border Patrol's 
legacy Border Patrol Enforcement Systems.
            Air
    The fiscal year 2020 budget also seeks significant investments in 
our aircraft fleet, starting with $56.8 million to purchase two multi-
role enforcement aircraft (MEA). MEA are the optimal sensor-equipped 
aircraft for surveillance operations in regions along the Southern and 
Northern Borders, and maritime environments where terrain, weather, and 
distance pose significant obstacles to border security operations. This 
aircraft further serves as a force multiplier for law enforcement and 
emergency response personnel, facilitating the rapid-response 
deployment of equipment, canines, and people.
    The fiscal year 2020 budget includes $46.5 million to support the 
conversion of 3 Army HH-60L helicopters to CBP's UH-60 Medium-Lift 
Helicopter (MLH) configuration. These assets are the only helicopters 
with medium-lift capability that are rugged enough to support 
interdiction and life-saving operations in hostile environments, and 
are able to operate at high altitude in the desert, over open water, 
and in extreme cold. This request includes initial spare repair parts, 
training, and Army testing.
    The P-3 Long Range Tracker and Airborne Early Warning Aircraft 
provide critical detection and interdiction capability in both the air 
and marine environment. Their sophisticated sensors and high endurance 
capability greatly increase AMO's range to counter illicit trafficking, 
and CBP P-3s are an integral part of the successful counter-narcotic 
missions operating in coordination with the Joint Interagency Task 
Force-South. The fiscal year 2020 budget includes $8.1 million to 
address obsolescence issues in the P-3 by refreshing technology 
infrastructure of core critical detection and interdiction components.
    Aircraft sensor EO/IR systems provide improved detection and 
identification capabilities, greater stand-off ranges for more covert 
operation and safety, and have laser range finders, laser target 
illumination, and shortwave infrared functionality, which enhance 
mission coordination between airborne and ground agents. The EO/IR 
systems allow agents and investigators to view and record criminal 
activity for prosecution without alerting the suspects to their 
presence. Most of AMO's EO/IR systems are technologically outdated and 
have obsolescence issues, which causes maintenance and reliability 
issues. The fiscal year 2020 budget provides $13.5 million to replace 
up to 10 old, obsolete EO/IR systems, including a one-time purchase of 
high-bandwidth receive/transmit hardware, which supports transmission 
of motion video information and enables CBP to communicate 
simultaneously with multiple aircraft. Without this upgrade, CBP 
aircraft will have to share assets, thereby increasing the risk of 
damage to the sensors during system swap-outs. This funding increase 
will also enable the purchase of associated mission equipment that will 
ensure the continued viability of AMO assets to detect, identify, 
classify, track, and illuminate targets of interest to National 
security.
    Other investments in our aircraft fleet include $2.4 million for 
support services for Light Enforcement Aircraft programs to develop 
analytical products to determine future technology requirements, and 
$3.0 million for compliance with the Federal Aviation Administration's 
NextGen initiative, completing the phased-in purchase and installation 
of ADS-B transponders and cockpit displays in more than 250 AMO 
aircraft.
            Maritime
    AMO's Marine Interdiction Agents operate Coastal Interceptor 
Vessels (CIV) in coastal waters to combat maritime smuggling and defend 
the waterways along our Nation's borders from acts of terrorism. The 
vessels provide agents with additional speed and maneuverability, and 
improve safety. They are also equipped with a state-of-the-art marine 
navigational suite. The fiscal year 2020 budget provides $14.8 million 
for the procurement of 14 CIV that will replace the outdated legacy 
vessels. The subcommittee's support of this program with the enactment 
of $14.5 million for CIV procurements in fiscal year 2019 is very much 
appreciated.
            Innovation Team
    In October 2018, CBP formally established the CBP Innovation Team 
(INVNT). This team was established following a successful CBP pilot to 
transition commercial technologies in joint partnership with DHS S&T's 
Silicon Valley Innovation Program. INVNT's mission is to identify, 
adapt, and deliver innovative and disruptive commercial technology 
solutions to keep front-line personnel safer and more effective. The 
team invests in four areas: Autonomous platforms; artificial 
intelligence-driven analytics; sensors; and communications 
capabilities. INVNT has successfully transitioned multiple 
technologies, including autonomous towers, compact sensors, and big 
data analytics, into operational use. These capabilities are directly 
contributing to increased situational awareness in San Diego Sector and 
supporting the National Targeting Center with the development of 
algorithms that facilitate lawful trade and travel.
    CBP INVNT has established itself as a strong partner for industry, 
and CBP looks forward to continued support from the committee to enable 
us to increase the rate at which CBP transitions new technology into 
operational use.
Personnel
    An organization is only as good as its people, and CBP has made it 
the top mission support priority to attract, hire, train, retain, and 
support a world-class, resilient workforce.
    Through a combination of process changes, realignment of resources 
and leadership focus, CBP increased both Border Patrol and Office of 
Field Operations year-end strength for the first time in 6 years. 
Border Patrol Agent hiring increased by 95 percent and CBP officer 
hiring increased by 39 percent over fiscal year 2017, resulting in an 
additional 120 agents and 380 officers at the end of fiscal year 2018. 
On the non-front-line side, we also increased hiring by 17 percent.
    We continue to retool and upgrade our recruitment, hiring, and 
retention mechanisms to help us meet staffing requirements not just to 
secure the border, but also to address all critical emergent needs at 
the ports. In just the last year, CBP has opened permanent recruitment 
offices on multiple military installations across the country, enhanced 
data-driven digital advertising/marketing and social media efforts, 
implemented an ``applicant care'' initiative that helps guide recruits 
through the CBP hiring process, and launched a Fast Track process to 
move well-qualified candidates more quickly through the hiring process. 
We also launched several initiatives designed to increase workforce 
resilience and employee retention, including our new veteran support 
program, family outreach events, and multiple family support programs, 
such as the child care subsidy program, backup care program, and direct 
child care program. Our investments are starting to deliver positive, 
sustainable results, and in fiscal year 2018, hiring outpaced attrition 
for Border Patrol agents for the first time in 6 years. We will 
continue to further enhance our capabilities and build on our momentum 
through fiscal year 2020 and beyond.
    The fiscal year 2020 budget includes an increase of $164.5 million 
to hire, train, and equip 750 additional Border Patrol agents and 145 
mission support personnel. Staffing Border Patrol Sectors at 
operationally-required levels is fluid as threats change and TCOs adopt 
new tactics. Even as the Border Patrol continues to conduct staff 
analysis and develop models to refine Border Patrol personnel 
requirements, it is already clear that additional Border Patrol agents 
will be necessary in fiscal year 2020 just to meet today's operational 
and staffing requirements. Anticipated trends, coupled with currently 
heightened enforcement efforts, result in a clear requirement for 
additional Border Patrol agents to interdict illegal activity in an 
all-threats border environment.
    CBP is also actively working to minimize attrition and fill 
positions in ``hard-to-fill'' locations that are often remote and offer 
very limited amenities compared with metropolitan locations. We 
appreciate the subcommittee's support of Border Patrol's relocation and 
retention initiatives, including those aimed at helping fill mission-
critical vacancies and developmental assignment opportunities. 
Improving retention is a priority for both the Secretary and me, and, 
as described above, we will continue to look at novel approaches to 
best support and retain our valuable workforce.
Trade and Travel
    Advancing U.S. economic competitiveness and prosperity is a 
strategic priority for CBP, and facilitating lawful trade and travel is 
a crucial part of CBP's mission. Ensuring an efficient, secure supply 
chain and safe, strong global tourism is imperative for a healthy 
economy. In fiscal year 2018, CBP processed more than $2.6 trillion in 
imports, and collected approximately $47 billion in duties, taxes, and 
fees--an increase from the previous fiscal year, caused in part by the 
increased duties on steel, aluminum, and products from China.
    In the fiscal year 2019 budget CBP received an increase of 
approximately $520 million for the procurement of non-intrusive 
inspection (NII) technology at land border ports of entry. The funding 
will support system procurements as well as the implementation of new 
concepts of operations that are focused on significantly improving 
scanning rates of both commercial and privately-owned vehicles. The 
procurements will occur following successful completion of technology 
demonstrations at Southwest Border ports of entry. The focus is not 
just to replace aging systems, but to transform port operations in 
order to expertly facilitate legitimate travel and trade, while 
successfully interdicting deadly fentanyl and other contraband.
    The fiscal year 2020 budget continues substantial investment in NII 
technology that enables CBP to detect materials that pose significant 
economic and National security threat. Using NII imaging equipment, CBP 
officers can examine cargo conveyances such as sea containers, 
commercial trucks, and rail cars, as well as privately-owned vehicles, 
for the presence of contraband without physically opening or unloading 
them. NII technologies--both radiological detection and imaging--are 
force multipliers that enable CBP to screen or examine a larger portion 
of the stream of commercial traffic while facilitating the flow of 
legitimate trade, cargo, and passengers.
    The fiscal year 2020 budget provides $62.6 million to support 
procurement of more than 20 large-scale NII systems and approximately 
200 small-scale NII systems for recapitalization efforts as well as new 
systems to support operational needs. It also provides $8 million for 
the procurement of approximately 3 large-scale NII and 3 small-scale 
NII systems as well as the associated infrastructure to support 
operational requirements at the Gordie Howe International Bridge land 
POE. Also for the Gordie Howe International Bridge, the fiscal year 
2020 budget designates $12 million for the procurement and deployment 
of Land Border Integration Equipment and Z-Portal screening technology 
to support inspection requirements for bus, privately- and 
commercially-owned vehicles lanes, along with booths and 
infrastructure.
    Utilizing detection equipment deployed Nation-wide at our POEs, CBP 
is able to scan 100 percent of all mail and express consignment mail 
and parcels; 100 percent of all truck cargo and personally-owned 
vehicles arriving from Canada and Mexico; and nearly 100 percent of all 
arriving maritime containerized cargo for the presence of radiological 
or nuclear materials. Let me take this opportunity to express further 
appreciation for the subcommittee's decision to add $520 million to our 
fiscal year 2019 funding for NII.
    The fiscal year 2020 budget also requests an increase in funding 
for a combined 267 CBP officers, agriculture specialists, trade and 
revenue positions, and mission and operational support positions. This 
funding will help CBP move closer toward the necessary staffing levels 
identified in the OFO Workload Staffing Model, Agriculture Resource 
Allocation Model, and the new Mission and Operational Support Resource 
Allocation Model.
    CBP's intelligent enforcement efforts are anchored on further 
improving risk management and the impact of efforts to detect high-risk 
activity, deter non-compliance, and disrupt fraudulent behavior by 
using technology, big data, and predictive analytics. Through the use 
of data-driven operations and enhanced ability to collect and analyze 
information, CBP can better develop a holistic understanding of the 
global trade environment. To better protect U.S. consumers and 
businesses, the fiscal year 2020 budget includes $24.3 million to 
increase intelligent enforcement.
    CBP recognizes how critical our trade enforcement and facilitation 
role is in protecting our Nation's economic security. We are working to 
ensure a fair and competitive trade environment where the benefits of 
trade compliance exceed the costly consequences of violating U.S. trade 
law. The fiscal year 2020 budget continues to build on our progress and 
will enable CBP to hire additional staff to support continued TFTEA 
implementation.
  national vetting enterprise and countering transnational organized 
                                 crime
    Since CBP's creation after the tragedies of September 11, 2001, 
preventing the travel of bad actors to the United States has been a 
primary CBP objective. Our Nation's enemies, whether terrorists or 
criminals, remain determined and agile, and detection is paramount for 
our National security.
    In 2018, in order to unify and streamline the vetting of 
international travelers and visa and immigration benefit applicants, 
the President signed National Security Presidential Memorandum 9, 
Optimizing the Use of Federal Government Information in Support of the 
National Vetting Enterprise, establishing the National Vetting Center 
(NVC). Consistent with applicable law and policy, the NVC ensures that 
traveler and immigration populations are consistently vetted against 
all appropriate U.S. Government information to identify National 
security and public safety threats. The fiscal year 2020 budget 
includes $31.5 million to fund 20 full-time positions, a case 
management tool, targeting system enhancements, and systems engineering 
for the NVC, which will be co-located with the National Targeting 
Center.
    In addition to our vetting efforts, CBP also guards against threats 
from TCOs. TCOs maintain a diverse portfolio of crimes, including 
fraud, human trafficking, kidnapping, and extortion. They are also 
heavily involved in human, weapons, bulk cash, and drug smuggling 
through their sophisticated criminal networks.
    Part of CBP's strategy to counter TCOs is participation in joint 
task forces. CBP is the lead component for the Department of Homeland 
Security's Joint Task Force-West (JTF-W), and a participating component 
in JTF-East (led by USCG) and JTF-Investigations (led by U.S. 
Immigration and Customs Enforcement). The fiscal year 2020 President's 
budget will further enhance JTF-W's ability to execute counter-network 
operations by meeting JTF-W's intelligence and targeting team's travel 
requirements and by providing investigative case support with the 
purchase of new forensic equipment and investigative software. This 
funding will help ensure these unique collaborative efforts have the 
resources they need.
                       organizational initiatives
    The fiscal year 2020 President's budget dedicates $54.9 million in 
critical investments to organizational initiatives, which will enable 
CBP to mature and develop our capabilities and business processes to 
meet the challenges of tomorrow.
Modernization and Improvement
    Revenue Modernization is a multi-year, phased program that will 
benefit the trade and travel industries and the U.S. economy by 
simplifying the collections process, providing modern electronic 
billing and payment options, and creating operational efficiencies at 
the POEs. The purpose of Revenue Modernization is to free up CBP 
officers to focus on law enforcement duties rather than the labor-
intensive process of collecting fees at POEs; to offer modern, on-line, 
and electronic billing and payment options; and to enable access to 
reliable, transaction-level financial information to inform decision 
making and promote accountability.
    The fiscal year 2020 budget includes $15.7 million to increase 
electronic payment capabilities into collections processes, modernize 
Intra-Governmental Payment and Collection (IPAC) system collections, 
and expand the location and collection capabilities of the Mobile 
Collections and Receipts (MCR) project. Initially deployed to pilot 
participants in New Orleans, Louisiana; Gulfport, Mississippi; Mobile, 
Alabama; and Los Angeles/Long Beach, California sea POEs, the budget 
will enable MCR to expand to 84 out of 186 POEs.
    While technology and network-enabled capabilities significant 
enhance CBP's daily operations, it also increases CBP's vulnerability 
to cybersecurity incidents. The fiscal year 2020 budget allocates $25.0 
million to address high-risk internal cybersecurity, including 
hardware, software, monitoring tools, and contract support services to 
operate the CBP Security Operations Center (SOC). The SOC enables CBP 
to support Continuous Diagnostics and Mitigation of security 
vulnerabilities and to detect and respond to cybersecurity threats.
    In the theme of modernization, CBP is also seeking to transform its 
time-keeping system. CBP processes time-keeping in the CBP Overtime 
Scheduling System (COSS), which came on-line in 1998. The President's 
fiscal year 2020 budget supports retirement of the antiquated COSS and 
replace it with a modern, integrated scheduling and timekeeping 
solution. This modern system will provide comprehensive and accessible 
scheduling and timekeeping data.
Personnel and Mission Support
    CBP's Operations Support (OS) Office brings together experts, 
analysts, innovators, and facilitators from across 9 functional areas 
that directly support the operational offices to strengthen mission 
effectiveness. These specialized capabilities that OS provides play a 
critical role in making a more agile, innovative, and stronger CBP. 
Integrating across the OS functional areas--including intelligence, 
international affairs, planning, requirements development, incident 
coordination, laboratories and scientific services, and use of force--
is essential to fully support CBP's operational office. The fiscal year 
2020 budget provides $2.3 million to fund contract support for this 
critical function.
    The Information and Incident Coordination Center (IICC) enhances 
internal and external situational awareness and coordinates CBP's 
incident response capabilities. The IICC serves as a 24/7 central entry 
point of communication and information flow for field CBP and DHS 
management officials. The fiscal year 2020 budget provides $1.6 million 
to support the implementation of new programs and the continuation of 
others to comply with both Presidential and DHS policy directives.
    The fiscal year 2020 budget includes $1.1 million for 6 criminal 
investigator positions within the Investigative Operations Division, 
National Security Group with the Office of Professional Responsibility. 
These positions would focus on detection and investigation of counter-
intelligence and insider threats. This allotment also funds 6 
management and program analyst positions for programmatic oversight.
    A substantial mandate within TFTEA is the Enforce and Protect Act 
(EAPA), which allows a party to submit an allegation of dumping 
circumvention to CBP, and grants CBP new authorities to make adverse 
decisions against an importer based on the lack of response or an 
incomplete response to an inquiry. CBP is mandated to initiate and 
pursue EAPA allegations within certain time frames, and demand for 
these services is growing. The fiscal year 2020 budget funds $1.5 
million in overseas operating costs, including housing and utilities, 
and mission-critical travel in support of EAPA and forced labor 
investigations.
    CBP's AMO plays a critical role in narcotics interdiction, 
investigations, and domain awareness, and our standards for recruitment 
are very high. As such, we face a challenge to meet authorized staffing 
levels. CBP trains all of its new AMO agents to become full-time law 
enforcement agents through the Air and Marine Basic Training Academy at 
the Federal Law Enforcement Training Center in Georgia. The budget 
enables the Air and Marine Basic Training Academy to increase student 
throughput in fiscal year 2020, which will strengthen AMO on-board 
staffing.
                         legislative proposals
    Finally, as in the past, the fiscal year 2020 budget highlights 
some of the legislative priorities CBP hopes to achieve with the help 
of Congress. The legislative proposals, if enacted, will increase user 
fee revenues that would directly impact the trade and travel operations 
programs, projects, and activities.
    The Department will submit a legislative proposal that increases 
the Immigration Inspection User Fee (IUF) by $2 and removes the IUF 
exemption for certain travelers. The fee was initially set at $5 per 
passenger in 1986, increased to $6 per passenger in 1993, and to $7 per 
passenger in May 2002. The legislation that increased the fee to $7 
introduced a second fee of $3 per passenger effective February 27, 
2003. The fee applied to vessel passengers whose journey originated in 
the U.S. territory, Canada, or Mexico--passengers to whom the $3 fee 
applied had previously been exempt. The fee has not been adjusted since 
that time, though travel volumes and CBP costs for immigration 
inspections have continued to increase. If passed, the IUF increase 
legislation would support up to an additional 1,753 CBP officer 
positions.
    The Department will also submit a legislative proposal to decrease 
the shortfall between the costs of CBP's inspections activities and the 
collections received. Per the Consolidated Omnibus Budget 
Reconciliation Act of 1985 (COBRA), passenger inspection fee 
collections fund customs inspection activities that are mandated by 
law. The fee levels set in current law do not fully cover CBP's costs. 
The proposal will increase the customs inspection fees for air and sea 
passengers, as well as increase all other COBRA inspection fees and any 
respective caps. The baseline fee has not been adjusted since 2007, 
though a final rule of increased inflation has gone into effect. The 
proposed legislation also supports up to an additional 1,169 CBP 
officers. The legislation also seeks to extend COBRA and Merchandising 
Process Fees past their current sunset dates.
    The Department is resubmitting a legislative proposal to redirect 
approximately $160.8 million in Electronic System for Travel 
Authorization (ESTA) surcharge collections from Brand USA to CBP. The 
base fee of $10 per application remains unchanged and funds the vetting 
of travelers and refugees; helps reengineer and modernize the entry and 
exit process; and fund the staffing and overtime processing of arrivals 
and departures from the United States. The Brand USA funding would not 
constitute an overall increase to CBP's budget, but rather offset a 
commensurate decrease in CBP's Operations and Support (O&S) 
discretionary appropriation.
    The Department is also resubmitting a legislative proposal to 
create a $10 Electronic Visa Update System (EVUS) user fee. As Senate 
appropriators indicated in their markup of the fiscal year 2019 DHS 
appropriations bill, non-immigrant visa holders who benefit from this 
program, not U.S. taxpayers, should pay for the operation and 
maintenance of EVUS. Once the authorizing proposal is enacted, CBP will 
no longer require appropriated funding to support the EVUS program.
    CBP looks forward to working with you and your colleagues in the 
appropriate committees of jurisdiction to accomplish these legislative 
priorities.
                               conclusion
    The fiscal year 2020 President's budget recognizes the serious and 
evolving threats and dangers the American people face each day, enables 
CBP to continue its vital operations, and provides funding for new 
initiatives critical to our success across all mission areas. With the 
support of Congress, CBP continues to secure our Nation's borders and 
promote international trade and travel. I want to thank the Members of 
this subcommittee for your continued support of CBP. Thank you for the 
opportunity to appear before you today. I look forward to your 
questions.

    Miss Rice. Thank you for your testimony.
    I now recognize Mr. Albence to summarize his statement for 
5 minutes.

    STATEMENT OF MATTHEW T. ALBENCE, ACTING DIRECTOR, U.S. 
              IMMIGRATION AND CUSTOMS ENFORCEMENT

    Mr. Albence. Thank you.
    Chairwoman Rice, Ranking Member Higgins, and distinguished 
Members of the committee, thank you for the opportunity to 
discuss ICE's $9.3 billion fiscal year 2020 budget request. 
While this represents a $1.2 billion increase from the fiscal 
year 2019 enacted--excuse me--enacted budget, this increase is 
critical for ICE to meet its current and future mission needs, 
and it will enable ICE to invest its necessary personnel, 
equipment, and systems.
    In particular, it provides resources and officers to 
address an increasing number of at-large criminal aliens and 
the ever-growing, fugitive, alien population. Those who have 
been provided due process and have been determined by a judge 
to have no lawful right to remain in the United States, 
numbering at more than 570,000 people.
    This increase in funding also provides for attorneys to 
reduce the rapidly expanding, nondetained alien docket, 
transportation cost removals, medical care for detainees, UAC 
transportation, expansion of criminal investigative personnel 
to combat opioids, solid exploitation, human smuggling, and the 
deleterious impacts of transnational gangs across the United 
States.
    ICE's Homeland Security investigations special agents 
protect the United States against terrorists and other criminal 
organizations through criminal and civil enforcement of Federal 
laws governing border control, customs, trade, and immigration.
    The fiscal year 2020 budget maintains HSI's critical 
operations abroad, supports hiring of an additional 150 
domestic special agents, and increases our efforts to target 
and combat dangerous, transnational gangs and other criminal 
organizations.
    In fiscal year 2018, HSI made 4,333 arrests of gang 
leaders, members, and associates, including 959 Mara 
Salvatrucha, MS-13 members. Our special agents helped take more 
than 750 firearms off the street through these investigations, 
and we intend to expand on that success going forward.
    Additionally, last fiscal year, HSI identified and assisted 
more than 1,477 crime victims, including 308 human trafficking 
victims, and 715 child exploitation victims. Leveraging its 
border enforcement security task forces, HSI is increasing 
investigation and enforcement activities, combatting 
organizations that illicitly introduce and distribute fentanyl, 
heroine, methamphetamine, and cocaine into and throughout the 
United States.
    Narcotics enforcement efforts throughout fiscal year 2018 
resulted in more than 11,400 criminal arrests with seizures 
totaling more than 1 million pounds.
    Another component of HSI's international engagement, the 
visa security program, maximizes the visa process and a 
counterterrorism tool to identify, exploit, and disrupt 
transnational terrorists and criminal networks seeking to harm 
the United States. In fiscal year 2018, the VSP screened almost 
2.2 million nonimmigrant visa applicants at high-risk 
diplomatic posts. From those applicants VSP made over 1,200 
nominations, or enhancements, to the terrorist watch list and 
recommended the refusal of over 9,000 visa applications.
    The Biometric Identification Transnational Migration Alert 
Program, known as BITMAP, is managed by HSI in collaboration 
with the Department of Defense and Customs and Border 
Protection. Through BITMAP, HSI extends the U.S. border by 
targeting high-risk subjects who attempt to enter the United 
States utilizing illicit pathways.
    Under this program HSI trains and equips foreign 
counterparts to tactically collect biometric and biographic 
data on special-interest aliens, gang members, and other 
persons of interest as identified by the host country. In 
fiscal year 2018, BITMAP enrolled over 41,000 persons of 
interest, including over 100 biometric enrollments, or 
amendments, to records of known and suspected terrorists.
    From an enforcement and removal operations perspective, DHS 
and ICE continue to work to balance effective law enforcement 
with the overwhelming number of aliens, including family units 
and unaccompanied alien children arriving at our borders. The 
increase in the flow of migrants and the change in those who 
are arriving at our border are putting migrants, particularly 
young children, at risk of harm from smugglers, traffickers, 
criminals, and the dangers of the difficult journey.
    ERO remains committed to directing its enforcement 
resources toward those aliens posing the greatest risk to the 
safety and security of the United States, as well as to 
maintain the integrity of our border.
    In fiscal year 2018, ICE housed a daily average of 42,188 
aliens, with 61 percent of the aliens booked into detention 
stemming from CBP or border apprehensions, a number which has 
swelled to 75 percent during fiscal year 2019, as a result of 
the on-going crisis. Consequently, additional detention 
capacity will be necessary to prevent the expansion of catch 
and release. Specifically, the budget includes nearly $2.7 
billion to increase detention capacity to support an average 
daily adult population of 51,500 and an average daily family 
population of 2,500, for a total of 54,000 beds, and also 
includes augmentation for ground and air transportation-
related, alien movements and removals.
    Securing our borders is a fundamental National security 
priority as well as a humanitarian issue. However, we can never 
achieve strong border security without effective interior 
enforcement. In fiscal year 2018, ERO officers removed over 
250,000 illegal aliens and made over 150,000 interior arrests, 
with more than 138,000 of those having criminal histories.
    The fiscal year 2020 budget request includes attorney 
resources to ensure that ICE is able to carry out its statutory 
responsibility to prosecute removal proceedings before 
immigration courts. There are currently over 870,000 pending 
cases before the immigration courts, and ICE attorneys are an 
indispensable part of the immigration hearing process.
    In fiscal year 2018, ICE obtained over 122,000 orders of 
removal for a ratio of more than 150 cases per attorney. With 
the hiring--with the hundreds of additional immigration judges 
that DOJ is in the process of hiring, it is critical that we be 
resourced at a level which ensures that aliens charged with 
immigration violations, have their cases completed efficiently 
and either receive relief to which they are entitled, or 
removed promptly.
    Simply put, an inadequate augmentation of local resources 
will prevent the realization of the efficiencies envisioned by 
the substantial increase in immigration judges and will not 
reduce the massive backlog of cases.
    Looking ahead, the men and women of ICE will continue to do 
their sworn duty to enforce all laws with which we are charged, 
removing the scourge of illegal narcotics from our communities, 
dismantling gangs that prey upon the vulnerable, protecting 
children from sexual exploitation, and arresting, detaining, 
and removing criminal aliens, public safety threats, known or 
suspected terrorists, and immigration violators, all of which 
are critical to the National security, border security, and the 
safety and well-being of our country.
    Thank you again for inviting me today and providing me the 
privilege of representing the outstanding, dedicated 
professionals in every job series, program, and assignment 
within this great agency.
    I look forward to answering any questions you may have.
    [The prepared statement of Mr. Albence follows:]
                Prepared Statement of Matthew T. Albence
                              May 9, 2019
                              introduction
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the committee: Thank you for the opportunity to appear before you 
today to present the fiscal year 2020 President's budget for U.S. 
Immigration and Customs Enforcement (ICE). We look forward to 
discussing our priorities for the upcoming fiscal year and highlighting 
our continued efforts to ensure we make the most efficient and 
effective use of the resources to carry out our vital homeland security 
mission. Every day, the over 20,000 dedicated, proud, professional men 
and women at ICE work to promote homeland security and public safety 
through broad enforcement of over 400 Federal laws governing border 
control, customs, trade, and immigration.
    The fiscal year 2020 President's budget includes $8.8 billion in 
discretionary funding, reflecting a $1.2 billion increase from the 
fiscal year 2019 enacted budget. Additionally, the budget estimates 
$527.4 million in budget authority derived from mandatory fees, 
bringing total estimated budget authority to $9.3 billion. This 
increase in funding is critical for ICE to meet its current and future 
mission needs and enables ICE to invest in necessary personnel, 
equipment, and systems. Particularly, it provides resources and 
officers to address an increasing number of at-large criminal aliens 
and the ever-growing fugitive alien population--those who have been 
provided due process and have been determined by a judge to have no 
lawful right to remain in the United States--numbering at more than 
570,000. This increase in funding provides for attorneys to reduce the 
rapidly expanding non-detained alien docket; transportation costs for 
removals, medical care of detainees, and UAC transportation; and 
expansion of criminal investigative personnel to combat opioids, child 
exploitation, human smuggling, and the deleterious impacts of 
transnational gangs across the United States.
                       enforcing immigration laws
    Our immigration enforcement efforts are led by the more than 6,000 
law enforcement officers of Enforcement and Removal Operations (ERO). 
ERO's deportation officers enforce our Nation's immigration laws by 
identifying, arresting, detaining, and removing illegal aliens. To 
ensure the National security and public safety of the United States and 
the faithful execution of the immigration laws, officers may take 
targeted enforcement action against any removable alien who is present 
in the United States in violation of immigration law.
    ERO remains committed to directing its limited enforcement 
resources toward those aliens posing the greatest risk to the safety 
and security of the United States, as well as the integrity of our 
border. In fiscal year 2018, ICE removed 256,085 illegal aliens, a 13 
percent increase over fiscal year 2017. Additionally, ICE's ERO 
officers arrested 152,074 aliens, an 11 percent increase over fiscal 
year 2017, of which 138,117 had criminal histories. ICE housed a daily 
average of 42,188 illegal aliens, with 61 percent of the aliens booked 
into detention stemming from CBP border apprehensions, a number which 
has swelled to 75 percent during fiscal year as a result of the on-
going border crisis. ERO also responded to 1,533,007 immigration alien 
inquiries from Federal, State, and local law enforcement agencies 
through ICE's Law Enforcement Support Center. Additionally, ERO 
conducted 807 foreign Fugitive Alien Removals (FAR) arrests--removable 
aliens wanted for or convicted of crimes committed abroad and residing 
within the United States.
    Due to the crisis on the border, additional detention capacity will 
be necessary to prevent the expansion of catch-and-release. 
Specifically, the budget includes nearly $2.7 billion to increase 
detention capacity to support an average daily adult alien population 
of 51,500 and an average daily family population of 2,500, for a total 
of 54,000 beds. The budget also includes an augmentation for ground and 
air transportation related alien movements and removals, and additional 
funds for the Alternatives-to-Detention (ATD) program to increase the 
average daily participants to 120,000.
    Additional resources are also requested in fiscal year 2020 to 
ensure that ICE's Office of the Principal Legal Advisor (OPLA) is able 
to carry out its statutory responsibility to prosecute removal 
proceedings before the U.S. Department of Justice's (DOJ) immigration 
courts.\1\ There are currently over 870,000 pending cases before the 
immigration courts, and OPLA attorneys are an indispensable part of the 
immigration hearing process. They determine the legal sufficiency of 
charging documents, appear in court, examine witnesses, prepare 
evidentiary submissions and legal pleadings, work with opposing counsel 
to narrow issues, hold aliens who are seeking asylum and other forms of 
relief to their burdens of proof, and ensure that immigration judges 
enter fair and correct decisions, including by filing appeals of 
erroneous decisions. In fiscal year 2018, OPLA obtained over 122,000 
orders of removal for a ratio of more than 150 cases per OPLA line 
attorney (up from a ratio of 135 cases per attorney in fiscal year 
2017). With the hundreds of additional immigration judges that DOJ is 
in the process of hiring, it is critical that OPLA be resourced at a 
level which ensures that aliens charged with administrative immigration 
violations have their cases completed efficiently, and either receive 
relief to which they are entitled or are removed promptly. The 
President's request for 128 additional attorneys and 41 additional 
support staff for OPLA addresses a critical resource gap. Without these 
resources, ICE OPLA will not be able to handle the heavy workload. 
Simply put, an inadequate augmentation of OPLA resources will prevent 
the realization of the efficiencies envisioned by the substantial 
increase in immigration judges and will not reduce the massive backlog 
of cases.\2\
---------------------------------------------------------------------------
    \1\ 6 U.S.C.  252(c).
    \2\ In addition to representing DHS in proceedings before EOIR, 
OPLA is responsible for advising ICE leadership and operational 
personnel on legal matters and addressing an array of other litigation 
and legal matters facing the agency, which have seen significant 
increases in tempo and complexity.
---------------------------------------------------------------------------
            combatting transnational criminal organizations
    ICE's Homeland Security Investigations (HSI) Special Agents protect 
the United States against terrorists and other criminal organizations 
through criminal and civil enforcement of Federal laws governing border 
control, customs, trade, and immigration. As the largest investigative 
arm of DHS, HSI utilizes its broad legal authorities to investigate 
immigration and customs violations, including those related to weapons 
and contraband smuggling, child exploitation, human trafficking and 
smuggling, transnational gangs, export control, human rights abuses, 
narcotics, financial crimes, cyber crime, intellectual property 
infringements, immigration document and benefit fraud, and worksite 
enforcement. The fiscal year 2020 budget maintains HSI's critical 
operations abroad, supports hiring of an additional 150 domestic 
special agents and increases our efforts to target and combat dangerous 
transnational gangs and other criminal organizations.
    In fiscal year 2018, ICE's HSI agents arrested 44,069 individuals, 
making a record 34,344 criminal arrests, along with 9,725 
administrative arrests. HSI achieved numerous significant enforcement 
initiatives and accomplishments, and additional funding is necessary to 
sustain and build upon our successes. For example, HSI made 4,333 
arrests of gang leaders, members, and associates, including 959 Mara 
Salvatrucha (MS-13) members. Our special agents helped take more than 
750 firearms off the streets through these criminal investigations, and 
we hope to expand on that success going forward. We will continue 
targeting transnational criminal gangs like MS-13. Results from across 
the country show that these policies are working and helping make 
communities safer for our kids, who are frequently targeted for 
initiation.
    HSI identified and assisted more than 1,477 crime victims, 
including 308 human trafficking victims, and 715 child exploitation 
victims. HSI initiated more child exploitation cases and achieved more 
arrests, indictments, and convictions paying immediate dividends when 
considering the long-term, lasting damage these criminals can inflict 
upon their young victims. HSI is prioritizing the identification and 
rescue of child victims of sexual exploitation, working to disrupt and 
dismantle the transnational criminal organizations (TCOs) responsible 
for the sexual exploitation of children through cyber crime and child 
sex tourism.
    Narcotics enforcement efforts throughout fiscal year 2018 resulted 
in more than 11,400 criminal arrests, with seizures totaling more than 
1 million pounds. Our workforce is dedicated to eliminating the 
transnational criminal organizations responsible for the manufacture, 
distribution, and sale of these illegal and deadly drugs. Leveraging 
the Border Enforcement Security Task Force, or BEST unit resources, HSI 
is increasing investigation and enforcement activities combating 
organizations that illicitly introduce and distribute fentanyl, heroin, 
methamphetamine, and cocaine into and throughout the United States.
    HSI conducted 5,981 Employment Eligibility Verification (Form I-9) 
inspections; issued over $10.0 million in judicial fines, forfeitures, 
and restitutions against employers found to be in violation of 
employment eligibility verification requirements; conducted nearly 
1,500 presentations to 8,257 employers regarding the requirements and 
benefits of the ICE Mutual Agreement between Government and Employers 
(IMAGE) program, designed to reduce unauthorized employment and 
minimize fraudulent identity documents; and certified 18 exceptional 
employers as new IMAGE members.
    In addition to leveraging domestic assets, HSI works closely with 
attache personnel deployed to 68 offices in 51 countries world-wide. 
These personnel are uniquely positioned to utilize established 
relationships with host country law enforcement, including 
Transnational Criminal Investigative Units (TCIUs). These TCIUs are 
composed of DHS-vetted and trained host country counterparts who have 
the authority to investigate and prosecute violations of law in their 
respective countries. The use of TCIUs enables HSI to promote direct 
action on its investigative leads while respecting the sovereignty of 
the host country and cultivating international partnerships. These 
efforts, often thousands of miles from the U.S.-Mexico border in 
countries like Colombia and Panama, act as an outer layer of security 
for our Southwest Border.
    Another component of HSI's international engagement, the Visa 
Security Program (VSP), maximizes the visa process as a 
counterterrorism tool to identify, exploit, and disrupt transnational 
terrorist and criminal networks seeking to harm the United States. In 
fiscal year 2018, the VSP screened 2,196,708 million non-immigrant visa 
applicants at 35 (36 as of fiscal year 2019 Q2) high-risk U.S. 
diplomatic posts. From those visa applicants, VSP made 1,251 
nominations/enhancements to the terrorist watch list and recommended 
the refusal of 9,007 visa applications.
    An additional international program is the Biometric Identification 
Transnational Migration Alert Program (BITMAP), managed by HSI in 
collaboration with the Department of Defense (DOD) and Customs and 
Border Protection (CBP). Through BITMAP, HSI extends the U.S. border by 
targeting high-risk subjects who attempt to enter the United States 
utilizing illicit pathways. Under this program, HSI trains and equips 
foreign counterparts to tactically collect biometric and biographic 
data on special interest aliens, gang members and other persons of 
interest as identified by the host country. Foreign partners share this 
data with HSI to populate and enhance U.S. Government databases. In 
fiscal year 2018, BITMAP enrolled over 41,000 encounters of persons of 
interest, including 31 biometric enrollments of Known and Suspected 
Terrorists (KST) and 81 enrollments resulting in a biometric 
enhancement to a KST record. BITMAP has matched nearly 190 persons to 
the DOD Biometrically-Enabled Watchlist (BEWL) and added 200 new 
identities to the BEWL. Since inception in fiscal year 2011, BITMAP has 
enrolled over 94,000 encounters of persons of interest. including over 
450 enrollments of KSTs. BITMAP has matched to over 230 persons to the 
DOD BEWL and added 1,500 new identities to the BEWL.
    Terrorism remains one of the most significant threats our law 
enforcement faces in protecting the homeland. Our counterterrorism and 
anti-criminal exploitation efforts seek to prevent terrorists and other 
criminals, such as human rights violators, from exploiting our Nation's 
immigration system. HSI's overstay analysis efforts provide timely, 
relevant, and credible information on entry, exit, and immigration 
overstay status of visitors to the United States to enhance security, 
facilitate legitimate trade and travel, and ensure the integrity of the 
immigration system, all while protecting the privacy of visitors.
             positioning our workforce to meet the mission
    The fiscal year 2020 budget includes $313.9 million to hire 
additional personnel critical to mission success. This funding would 
allow ICE to hire 850 additional ERO Officers, 150 additional HSI 
Criminal Investigators, 128 additional attorneys, and 538 additional 
support staff including intelligence analysts, case management 
specialists, and other operational support personnel.
         investing in information technology and infrastructure
    The fiscal year 2020 budget includes $7.8 million to fund the 
deployment and modernization of ICE's information technology 
applications--systems infrastructure that support our front-line 
personnel and improves information sharing with the Department of 
Homeland Security (DHS) and partner organizations.
    Tactical Communication (TACCOM) is an integral part of all 
successful ICE law enforcement operations, including criminal 
apprehension, emergency response, surveillance, and multi-agency task 
force operations. In addition to daily operational needs, TACCOM 
provides critical support necessary for National Special Security 
Events (NSSEs) and responses to natural and man-made disasters. ICE 
needs to procure and deploy multi-band mobile and portable radios and 
the required radio infrastructure nationwide to support 
interoperability communications, improve officer safety, increase 
mission effectiveness, and reduce capability gaps. The fiscal year 2020 
budget sustains $53.6 million in IT resources for this effort.
    In addition to information technology enhancements, ICE facilities 
and vehicle recapitalization plans are funded within the fiscal year 
2020 budget. An additional $71 million is requested to conduct critical 
repairs at ICE-owned facilities and improve mission capacity at leased 
facilities. Funding for the 5-year vehicle recapitalization plan is 
also included providing $49.4 million to support the lease and 
acquisition of 1,000 new law enforcement vehicles.
    ICE relies on the availability of these mission-essential systems 
to perform critical functions across the enterprises. These systems, in 
turn, rely on modern and up-to-date infrastructure to ensure 
operational readiness and optimal performance.
                               conclusion
    ICE continues to work to balance effective law enforcement with the 
staggering number of arriving aliens, including family units, at our 
borders. The increase in the flow and the change in those who are 
arriving at our border are putting these aliens, particularly young 
children, at risk of physical and emotional harm from smugglers, 
traffickers, criminals, and the dangers of the difficult journey.
    Our workforce is dedicated to eliminating the transnational 
criminal organizations responsible for the manufacture, distribution, 
and sale of illegal and deadly drugs. We are determined to work with 
our local law enforcement partners to meet this crisis head-on and 
reverse the devastating toll these substances are taking on our 
communities.
    Funding people, technology, and equipment are especially prudent 
investments given today's challenges. We believe no other investment 
will return more operational value on every dollar than the 
extraordinary men and women of ICE. Removing illicit narcotics, 
dismantling gangs, protecting children from sexual exploitation, and 
detaining and removing criminal aliens, public safety threats, and 
immigration violators, along with ICE's ability to counter emerging 
threats also constitutes an operational success that continues to yield 
important results for the Nation.
    Thank you again for inviting me to testify today. I look forward to 
your questions.

    Miss Rice. Thank you for your testimony. I now recognize 
Ms. Renaud to summarize her statement for 5 minutes.

    STATEMENT OF TRACY RENAUD, ACTING DEPUTY DIRECTOR, U.S. 
              CITIZENSHIP AND IMMIGRATION SERVICES

    Ms. Renaud. Chairwoman Rice, Ranking Member Higgins, and 
distinguished Members of the subcommittee, thank you for this 
opportunity to discuss the fiscal year 2020 budget proposal of 
U.S. Citizenship and Immigration Services.
    My name is Tracy Renaud, and I am the acting deputy 
director of USCIS. I have had the honor to serve this agency 
and its predecessor, the Immigration and Naturalization Service 
since 1982. As the agency that administers the lawful 
immigration system, we are proposing a budget of $4.8 billion, 
97 percent of which comes from fees paid by those seeking 
certain immigration benefits. Of the proposed budget, $122 
million would be appropriated funds to support the E-Verify 
program, which last year verified the employment eligibility of 
38 million new hires.
    In addition, our budget proposal includes $25 million in 
fee revenue to build a USCIS Academy Training Center at the 
Federal Law Enforcement Training Center in Charleston, South 
Carolina. A new headquarters building is under construction in 
Camp Springs, Maryland, and it will centralize operations and 
consolidate our staff from locations across the National 
Capital Region. The move is anticipated for fiscal year 2020.
    I would like to focus on E-Verify for a moment, because it 
is the appropriated portion of our budget. E-Verify is an 
electronic system that allows employers to confirm the 
eligibility of their employees to work in the United States. 
Nearly all confirmations occur instantly or within 24 hours. As 
of April 15 of this year, more than 855,000 employers were 
enrolled in E-Verify.
    USCIS previously received appropriated funding to modernize 
the technology behind E-Verify. The system can now handle 
nearly 11,000 users at once, with scaleable technology to 
accommodate future growth. We have also increased accuracy and 
efficiency by automating more data checks, providing the 
verification algorithms, and providing for employer, data-
entry-error checks.
    During the 35-day partial Government shutdown, E-Verify 
suspended operations and was unavailable to employers. When the 
system resumed operations on January 27, we received more than 
600,000 requests, triple the volume we have ever seen in a 
given day.
    Between January 27, and February 1, E-Verify successfully 
processed approximately 2 million requests. E-Verify's expanded 
capabilities, achieved through the modernization, made it 
possible to handle the unprecedented incoming volume and 
eliminate the backlog promptly and efficiently.
    We anticipate achieving full operating capability of E-
Verify modernization by the fourth quarter of this fiscal year. 
Since 2016, we have experienced a period of unexpectedly high 
demand for immigration benefits. We are still feeling the wake 
from the extraordinary receipt growth of fiscal years 2016 and 
2017.
    In fiscal year 2018, USCIS received more than 8 million 
petitions, applications, and requests for immigration benefits. 
The agency naturalized over 757,000 new citizens, a 5-year 
high, and issued nearly 1.1 million green cards to new, lawful, 
permanent residents.
    We are also undertaking several initiatives to realize 
efficiencies, focus resources, and better facilitate access to 
information, including shifting away from first-in/first-out 
processing of affirmative asylum cases, and returning to a 
last-in/first-out process, to help identify nonmeritorious 
asylum claims earlier and place those individuals into removal 
proceedings sooner.
    Committing to making the filing and adjudications of 
applications a paperless process by the end of calendar year 
2020, which will put the agency in a better position to 
allocate resources, spot trends, and work with other agencies.
    We continue to focus on filling positions and reducing 
vacancy rates and ensuring employee overtime is available to 
increase adjudication capacity. We are also focused on 
improving screening and vetting standards and procedures for 
immigration benefits, including expanding the use of in-person 
interviews for certain employment-based adjustment 
applications, enhancing screening and vetting in the U.S. 
refugee admissions program with the goal to close security gaps 
and take a more risk-based approach to refugee admissions, and 
expanding the targeted site visit and verification program to 
take a more targeted approach to combatting fraud and abuse.
    Our country and the world have changed significantly since 
I joined the service 37 years ago, yet our immigration policies 
and practices have not kept pace. Our immigration system and 
our Nation are vulnerable in new and dynamic ways. USCIS is 
dedicated to serving and safeguarding the American people, our 
Nation, and our economy. I am extremely proud of the hard work 
and professionalism I see every day from the people at USCIS.
    Again, thank you for allowing me to be here, and I look 
forward to answering your questions.
    [The prepared statement of Ms. Renaud follows:]
                   Prepared Statement of Tracy Renaud
                              May 9, 2019
                              introduction
    Chairwoman Rice, Ranking Member Higgins, Chairman Thompson, Ranking 
Member Rogers, and distinguished Members of the subcommittee, thank you 
for this opportunity to discuss U.S. Citizenship and Immigration 
Services' (USCIS) fiscal year 2020 budget.
    USCIS administers the lawful immigration system for the United 
States. The agency's mission is to safeguard the integrity and promise 
of that system by efficiently and fairly adjudicating requests for 
immigration benefits while protecting Americans, securing the homeland, 
and honoring our values.
    My name is Tracy Renaud. I am the acting deputy director of USCIS. 
I have had the honor to serve in this agency and its predecessor, the 
Immigration and Naturalization Service, since 1982. A lot has changed 
since then. But while our country and the world have changed 
significantly, our immigration policies and practices have not kept 
pace. Today, we realize that many current security and integrity risks 
to our system did not exist in the last century, and many of the 
threats that did exist then have evolved. At the same time, National 
and economic interests demand efficient and reliable processes so that 
our Nation can retain its preeminent position in the world for 
business, education, and technology. The agency is working hard to 
tackle many issues through technology, updated regulations, and clear 
guidance. Yet, there is only so much that the agency can do through 
regulation and technology. As Congress continues to grapple with 
immigration policy, I want you to know that USCIS stands ready to 
provide assistance on immigration-related legislation.
                        fiscal year 2020 budget
    USCIS is nearly 97 percent fee-funded. The USCIS budget for fiscal 
year 2020 provides funding to support our critical mission. The budget 
allocates $4.8 billion in funding, of which $4.7 billion would be 
financed through mandatory fee revenue, and $122 million would be 
funded with discretionary appropriations. The appropriated funding 
supports the operation and maintenance of the E-Verify program. The 
fee-funded portion of the budget, which supports all other USCIS 
operations, includes $25 million and the required language to enter 
into an interagency agreement for the construction of a USCIS Academy 
Training Center at the Federal Law Enforcement Training Centers (FLETC) 
in Charleston, South Carolina.
                             uscis updates
    Here are some statistics that provide a quick snapshot of USCIS in 
fiscal year 2018:
  <bullet> More than 8 million petitions, applications, and requests 
        received.
  <bullet> Approximately 19,000 employees and contractors working in 
        approximately 240 offices.
  <bullet> $4.5 billion budget supported almost entirely (97 percent) 
        by fees.
  <bullet> 849,000 naturalization applications completed--nearly a 10-
        year high.
  <bullet> 757,000 new U.S. citizens naturalized--a 5-year high.
  <bullet> Nearly 1.1 million Green Cards obtained by new lawful 
        permanent residents.
  <bullet> Nearly 2.1 million employment authorization applications 
        processed.
  <bullet> 14 million USCIS Contact Center calls received.
  <bullet> 38 million new hires verified through E-Verify.
  <bullet> 191,000 FOIA requests received.
    As of the end of March 2019, USCIS had an approved level of 20,404 
positions and 18,473 employees on-board. USCIS operates offices in a 
variety of settings--from high-volume service centers, to asylum 
offices and field offices where interviews take place, to application 
support centers, to our headquarters offices. A new building under 
construction in Camp Springs, Maryland, will centralize operations and 
consolidate our staff from locations across the National Capital 
Region. This consolidation will likely occur in fiscal year 2020.
    The agency derives nearly all its revenue from fees for services--a 
fact of which we are very mindful. As the stewards of these funds, we 
continually seek greater efficiencies, while also striving for the 
highest degree of integrity and security. One thing remains constant--
the workload USCIS faces each year is staggering. This workload 
represents the full spectrum of immigration benefits that our laws 
provide to those seeking to come to the United States--temporarily or 
permanently--and those who seek to become citizens of this Nation. 
USCIS anticipates workloads and resource needs based on events and 
historic trends. Occasionally, however, workloads do not conform to the 
models that have served us so well, and we have to adjust priorities, 
processes, and resources. Since 2016, there has been a period of 
unexpected high demand for immigration benefits.
    As receipts have grown, USCIS has continued to add staff and look 
for ways to maximize use of our existing facilities wherever possible. 
As discussed below, USCIS is tackling increased workloads with several 
initiatives designed to realize efficiencies, focus resources on 
adjudicating cases, and better facilitate access to information.
                          operational updates
E-Verify
    E-Verify is an electronic system that allows employers to confirm 
the eligibility of their employees to work in the United States. It 
compares information from an employee's Form I-9, Employment 
Eligibility Verification, to records available to the Department of 
Homeland Security (DHS), the Social Security Administration, the 
Department of State, and certain State Department of Motor Vehicle 
divisions. Nearly all confirmations occur instantly or within 24 hours. 
As of April 15, 2019, more than 855,000 employers were enrolled in E-
Verify. Enrollment has grown by an average of approximately 1,500 new 
employers each week in fiscal year 2019.
    USCIS previously received appropriated funding to modernize the 
technology that supports the E-Verify program. This modernization 
effort was designed to improve the effectiveness and efficiency of the 
E-Verify program for its users and USCIS, and to manage the rapid 
increase in enrollments and use of this popular program.
    As a result of the modernization effort the program can now handle 
up to 10,800 concurrent users, with the ability to handle even more 
with the scalable technology that has been built. Additionally, the 
modernization effort improved accuracy by automating more data checks 
and improving the verification algorithms, which has reduced the manual 
verification workload by 35 percent since implementation. Finally, the 
modernization effort provided for employer data entry error checks. 
These checks have improved the accuracy of E-Verify results and reduced 
data mismatches from an fiscal year 2016 baseline of 84,116 down to 
341.
    In fiscal year 2018, USCIS executed an agreement with the National 
Law Enforcement Telecommunications System (NLETS). The former Records 
and Information from Department of Motor Vehicle for E-Verify (RIDE) 
program included only 10 States. The new connection to NLETS allows 
verification of States' Department of Motor Vehicles data in over 40 
States. This effort will help flag fraudulent or invalid driver's 
licenses and State-issued identification cards.
    USCIS upgraded the Verification Information System architecture for 
case processing by eliminating redundant steps and providing a more 
user-friendly experience through an improved design. This included 
implementing an auto-scroll feature that automatically advances to the 
next section on the page. This reduced the case processing screens from 
10 to 3 by removing unnecessary pages and steps. Additionally, there 
are new checks for data entry errors by the employer, which improved 
accuracy of the results and reduced data mismatches.
    In April 2018, USCIS launched E-Verify.gov, a new dedicated Uniform 
Resource Locator (URL, i.e., web address), as opposed to the previous 
sub-URL within the agency web address. The dedicated URL enhances the 
existing brand with a new look throughout the website and other public 
materials. Website hits to E-Verify.gov increased over 8 percent in 
fiscal year 2018. The dedicated URL streamlines materials on the site 
for easier and faster navigation for employers, improves readability 
and explanations of E-Verify services and products (my E-Verify, 
account roles, web services) for the public, and strategically targets 
and supports unique external users that are separate and apart from the 
larger USCIS audience.
    In July 2018, an E-Verify data field was added to the Federal 
Procurement Data System that identifies Federal contractors subject to 
the E-Verify clause. This addition will allow our E-Verify Monitoring 
and Compliance team to better monitor Federal contractors for required 
enrollment and usage of E-Verify.
    Between January 27 and February 1, 2019, approximately 2 million 
cases were successfully processed in E-Verify, eliminating the case 
backlog from the most recent partial Government shutdown. During the 
35-day shutdown, E-Verify suspended operations and was unavailable to 
employers. When the system resumed operations on January 27, it 
received more than 600,000 cases--triple the volume previously seen on 
a single day. By January 30, the number of E-Verify cases had reached 2 
million. E-Verify's expanded capabilities, achieved through 
modernization, made efficiently and promptly handling this backlog 
possible.
    We anticipate achieving full operating capability of E-Verify 
modernization by the fourth quarter of fiscal year 2019.
    Beginning in fiscal year 2019 and continuing into fiscal year 2020, 
we plan to concentrate on strengthening system architecture, improving 
system reliability and resiliency, and delivering verification services 
with the highest degree of speed and accuracy possible, while reducing 
user burden. We will leverage cloud-based data warehousing and analytic 
services that allow business users to run customized reports, 
dashboards, and data analytic tools to monitor performance, program 
integrity, and support decision making. We will also enhance the 
systems that support call center operations, monitoring and compliance 
units, status verification operations, and program promotion. These 
enhancements will allow us to better monitor the program and respond to 
employer's questions.
SAVE (Systematic Alien Verification for Entitlements)
    USCIS also administers the SAVE Program, which provides a fast, 
secure, and efficient verification service for Federal, State, and 
local benefit-granting agencies to verify a benefit applicant's 
immigration status or naturalized/derived citizenship.
    More than 1,100 agencies use SAVE. New features include improved 
case search capabilities, larger file size upload capacity, and more 
user-friendly navigation. Improved ease of use has led agencies to 
submit many cases digitally using uploaded documents, doubling from 
17,000 per month to 34,000 per month, thereby reducing abandonments and 
improving the effectiveness of the program.
    SAVE became fully paperless in May 2018 and has reduced response 
time from 20 business days to 5 business days or less. An estimated 
170,000 formerly paper cases a year will now be submitted and responded 
to electronically.
Asylum and Credible Fear
    In fiscal year 2018, USCIS adjudicated nearly 82,000 applications 
for affirmative asylum, a 61 percent increase from fiscal year 2017. In 
January 2018, USCIS announced a shift away from ``first in, first out'' 
processing of affirmative asylum cases and a return to ``last in, first 
out'' (LIFO) processing. This priority approach, first established by 
the asylum reforms of 1995 and used for 20 years until 2014, seeks to 
deter those who might try to exploit the existing backlog as a means to 
obtain employment authorization. The goal is to quickly identify non-
meritorious claims, thereby deterring such claims and helping to slow 
the growth of the affirmative asylum caseload that disadvantages 
legitimate asylum seekers. In the first quarter of fiscal year 2019, 
USCIS had approximately 325,000 affirmative asylum applications pending 
adjudication. Returning to a LIFO interview schedule has allowed USCIS 
to identify non-meritorious asylum claims earlier and place those 
individuals into removal proceedings sooner.
    Individuals placed in the expedited removal process who claim a 
fear of return are screened by the Asylum Division for a ``credible 
fear'' of persecution or torture to determine whether they will be 
issued a Notice to Appear in full removal proceedings in Immigration 
Court. In fiscal year 2018, USCIS processed nearly 98,000 credible fear 
claims. Adjudications were up 22 percent from fiscal year 2017 and 
nearly doubled from fiscal year 2014.
Refugee Program
    In fiscal year 2018, USCIS officers interviewed more than 26,000 
refugee applicants in 45 countries, and the United States admitted 
22,491 refugees. In fiscal year 2018, the Refugee Affairs Division 
committed the equivalent of an average of 100 full-time equivalent 
positions throughout the fiscal year to support the Asylum Division 
workload. To sustain this level of commitment, Refugee Affairs Division 
staff completed over 500 details to the Asylum Division. In fiscal year 
2019, it continues to detail staff to assist but on a smaller scale as 
the Asylum Division continues to add permanent staff.
    USCIS, along with our partners, has implemented a number of 
enhancements recommended because of two reviews of the U.S. Refugee 
Admissions Program (USRAP) pursuant to Executive Orders. The 
enhancements aim to close security gaps and take a more risk-based 
approach to refugee admissions. These enhancements are an additional 
layer of security for the American people and take account of evaluated 
intelligence, as well as identified gaps in screening and vetting 
operations. These enhancements are part of a long-standing practice of 
prioritizing integrity and security in the USRAP. Since the inception 
of the program, USCIS and other processing partners have consistently 
reviewed the USRAP and implemented enhancements to its security vetting 
and program integrity in order to carry out the mission and safeguard 
the United States.
eProcessing
    USCIS' goal is to make the filing and adjudication of applications 
a paperless process by the end of calendar year 2020. The agency has 
taken in, stored, and transported paper forms and documentation in the 
tons for far too long. USCIS is committed to using the technology 
necessary to support on-line filing and electronic records management. 
An electronic government is the key to increasing efficiency, 
reliability, and accuracy. USCIS is taking active steps to increase 
operations on-line.
    USCIS is modernizing our IT strategy and business processes to 
enable all applicants to file for benefits on-line so that we can 
adjudicate cases electronically. This effort is called ``eProcessing.'' 
The plan is to create an on-line filing platform for each benefit 
request product line, gradually stopping the creation of new paper 
immigration records. Once digital, cases can be adjudicated with more 
current and comprehensive information. USCIS will be better able to 
allocate resource, see trends, and collaborate with other agencies.
    Today individuals can file several forms on-line, including the 
Application to Replace Permanent Resident Card, the Application for 
Replacement Naturalization/Citizenship Document, and the Application 
for Naturalization. On-line filing opportunities are scheduled to 
expand quickly because existing technical functionalities can be reused 
to facilitate an increased rate of deployment for subsequent benefit 
request types.
Employment-Based Adjustment of Status Interviews
    Pursuant to Section 5 of Executive Order 13780, Protecting the 
Nation from Foreign Terrorist Entry into the United States, DHS and 
Federal partners continue to develop ``a uniform baseline for screening 
and vetting standards and procedures.'' As part of this effort, USCIS 
has expanded the use of interviews. This expansion includes 
transitioning certain employment-based adjustment applications from 
service centers to field offices for interviews.
    Specifically, USCIS has transitioned the adjudication of 
employment-based adjustment of status applications based on an 
underlying immigrant worker petition. The employment-based adjustment 
cases that were transitioned for interviews to field offices generally 
included applications filed on or after March 6, 2017 (the effective 
date of Executive Order 13780). USCIS service centers generally 
continue to adjudicate employment-based cases filed before March 6, 
2017, that still await visa availability.
    USCIS has provided training to field offices on the adjudication of 
employment-based cases, along with fraud detection training, to ensure 
a high level of consistency in the adjudication of employment-based 
adjustment of status applications while maximizing the use of available 
employment visa numbers.
Site Visit and Verification Programs
    In fiscal year 2018, USCIS created and expanded the Targeted Site 
Visit and Verification Program in response to Executive Orders 13768, 
Enhancing Public Safety in the Interior of the United States, and 
13788, Buy American and Hire American, to take a more targeted approach 
to combating H-1B fraud and abuse by focusing on:
  <bullet> Cases where USCIS cannot validate the employer's basic 
        business information through commercially available data;
  <bullet> H-1B-dependent employers (those who have a high ratio of H-
        1B workers as compared to U.S. workers, as defined by statute); 
        or
  <bullet> Employers petitioning for beneficiaries who work offsite at 
        another company or organization's location.
    In fiscal year 2018, USCIS completed 414 targeted H-1B site visits, 
confirming fraud in 149 cases. From the start of fiscal year 2019 
through April 22, 2019, USCIS conducted 2,209 targeted H-1B site 
visits, confirming fraud in 100 and non-fraud related compliance issues 
in another 100.
    In fiscal year 2018, USCIS also began Targeted Site Visit and 
Verification Program pilots for the following nonimmigrant employment 
classifications:
  <bullet> L-1B (intracompany transferee with specialized knowledge)
  <bullet> E-2 (treaty investors)
  <bullet> H-2B (temporary nonagricultural workers)
    USCIS is currently reviewing the results of these pilots.
    USCIS plans to continue expanding the Targeted Site Visit and 
Verification Program pilots in fiscal year 2019. So far this fiscal 
year USCIS has added the L-1A (intracompany transferee in a managerial 
or executive position) nonimmigrant visa classification and conducted a 
mini-pilot on selected EB-3 (immigrant unskilled worker) petitions in 
the Targeted Site Visit and Verification Program.
USCIS Tip Unit
    In June 2018, USCIS established a Tip Unit in Williston, Vermont. 
This unit, co-located with the U.S. Immigration and Customs Enforcement 
(ICE) Tip Line Center, is working on processing the thousands of 
immigration benefit fraud tips that USCIS receives annually from the 
public and other Government entities. USCIS has established dedicated 
mailboxes for tips: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c290a7b2adb0b684b0a3b7a696abb2b182b7b1a1abb1eca6aab1eca5adb4">[email&#160;protected]</a>, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c7e495c435e58641d6e6d4e595f496c595f4f455f0248445f024b435a">[email&#160;protected]</a> and <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91c3f4e1fee3e5d9a3d3d0f3e4e2f4d1e4e2f2f8e2bff5f9e2bff6fee7bf">[email&#160;protected]</a> The Tip 
Unit refers actionable or articulable leads to USCIS officers for 
further action. Since becoming operational, the Tip Unit has processed 
over 45,000 tips from the public. Of these, over 26,000 leads have been 
developed and numerous fraud findings and referrals were submitted to 
ICE for criminal investigation.
                               conclusion
    It is my privilege to be here to discuss USCIS' budget for the 
upcoming fiscal year. Our goal by the end of 2020 is to have all of our 
adjudications moved to a digital environment, allowing full digital 
processing and more streamlined workflows. But technology can only do 
so much. It cannot replace the people who actually make the decisions. 
That is why we continue to focus on filling positions and reducing 
vacancy rates, and ensuring employee overtime is available to increase 
adjudication capacity. We are still feeling the wake from the 
extraordinary receipt growth during fiscal year 2016 and 2017. As 
certain workloads have continued to grow, so too has the complexity of 
some adjudications, and the time needed for us to do our job in 
compliance with the will of Congress, as expressed in the immigration 
laws.
    USCIS is dedicated to serving and safeguarding the American people, 
our Nation, and our economy, and I am extremely proud of the hard work 
and professionalism I see every day in service to our Nation. Again, 
thank you for allowing me to be here and I look forward to answering 
your questions.

    Miss Rice. I thank all the witnesses for their testimony, 
and I will remind each Member that he or she will have 5 
minutes to question the panel. I will now recognize myself for 
questions.
    I am going to put this question to all three of the 
witnesses. There have been multiple news reports finding that 
the actual architect of the Trump administration's immigration 
agenda is White House Advisor Stephen Miller. Have any of you 
ever been contacted by Stephen Miller?
    Mr. Perez. Thank you, Madam Chairwoman. I will answer 
first. I have been in meetings with Mr. Miller at the White 
House, but that is it. Other than in a professional capacity, 
with respect to what my duties, I have had interaction----
    Miss Rice. What was discussed at those meetings?
    Mr. Perez. Pardon me, ma'am?
    Miss Rice. What was discussed at those meetings with 
Stephen Miller?
    Mr. Perez. Various efforts of the Department and of the 
agency with respect to our border security mission.
    Miss Rice. So broadly the administration's policy and what 
it was going to be and how you were going to implement it at 
the border?
    Mr. Perez. More so an exchange of ideas and how to 
implement what we believe are the best policies moving forward, 
yes.
    Miss Rice. That is what I said. Thank you.
    Mr. Albence.
    Mr. Albence. Yes, ma'am, I have been contacted by Mr. 
Miller, been in meetings with him as well, as with many other 
White House individuals.
    Miss Rice. So, Mr. Albence, I am asking about you, not 
other White House officials. It is a very simple question, to 
you, not any other White House official. When he contacted you, 
what did he contact you about?
    Mr. Albence. Generally, it is operational guidance with 
regard to impact that a certain policy may have.
    Miss Rice. He was directing to you what the policy--the 
White House policy was, to make sure that you, as a soldier in 
the field, were implementing it correctly?
    Mr. Albence. No. It was more of, if we instituted this 
policy, could it be operationalized, how would it be 
operationalized, what would be the impact on the operations. It 
was more an exchange of ideas versus a--it was not a direction 
that I would do X, Y, or Z.
    Miss Rice. So he would speak to you about a policy--
immigration policy that he had and was asking you whether you 
thought it was going to work or not?
    Mr. Albence. Or if it could work, if it would be possible 
to implement, would it be able to operationalize.
    Miss Rice. Ms. Renaud.
    Ms. Renaud. I have---- [inaudible.]
    Miss Rice. Has he spoken to you about immigration policy 
and how it is going to be implemented at the border and 
elsewhere?
    Ms. Renaud. [Inaudible.]
    Miss Rice. Can you speak up?
    Ms. Renaud. Oh, thank you. The conference calls that I have 
participated on have been mostly seeking updates on 
implementation of either Executive Orders or Presidential 
memorandums and status of where we are.
    Miss Rice. He specifically was asking you in your capacity 
for data regarding your piece of that operation?
    Ms. Renaud. He is a participant. He doesn't chair the 
calls. So whoever chairs the calls will do the----
    Miss Rice. Did he speak on the calls?
    Ms. Renaud. Yes.
    Miss Rice. Did he ask questions?
    Ms. Renaud. Yes.
    Miss Rice. Did he ask questions specifically of you?
    Ms. Renaud. Not of me, no.
    Miss Rice. Were you asked to give information?
    Ms. Renaud. Yes.
    Miss Rice. Mr. Albence, I want to go back to what I talked 
about in terms of, I think one of the most shocking parts of 
the budget which would drastically reduce funding for NII 
systems, which are specifically used to scan for drugs, guns, 
and other contraband at ports of entry, if you look at any 
public statement that the President makes and people in his 
administration, whether it is his spokesperson or other people, 
about our biggest problem at the border, that then becomes an 
interior problem in this country, it is drugs.
    So I think it doesn't make much sense to me that in his 
budget, he would cut from $500 million to procure new NII 
systems to the 2020 budget where he requests just $59 million. 
Do you think that is a wise decision?
    Mr. Albence. With all due respect, ma'am, that is on the 
CBP budget, so I would defer to my colleague here to answer 
that question.
    Mr. Perez. I will gladly answer for you, Madam Chairwoman. 
So----
    Miss Rice. Let me just say, Mr. Albence, we spoke about 
drugs when we met previously, so you have an opinion. What is 
your opinion?
    Mr. Albence. Again, I can't speak to the money. I can tell 
you what we have learned in Homeland Security investigations 
that----
    Miss Rice. I am asking you, are you aware of the NII 
systems that are used?
    Mr. Albence. A little bit, ma'am. I don't have----
    Miss Rice. Do you think they make sense?
    Mr. Albence. From what I understand, they are effective 
systems, yes.
    Ms. Rice. So do you think it makes sense to cut the 
procurement dollars for that technology?
    Mr. Albence. I don't have insight into the whole CBP 
budget----
    Miss Rice. So you are not going to answer the question.
    OK, Mr. Perez, can we go to you?
    Mr. Perez. Thank you, ma'am--Chairwoman. So in the fiscal 
year 2018 budget, we were provided, thanks to Congress, the 
ability to recapitalize----
    Miss Rice. So Mr. Perez, I have very limited time. I have 
to interrupt you, and I am very sorry. I am asking you one 
specific question.
    Mr. Perez. Right.
    Miss Rice. Do you think it is a good decision for this 
administration to cut the budget for NII systems, from $500 
million to $59 million, yes or no?
    Mr. Perez. Since we have money between 2018 and 2019 to 
recapitalize nearly 75 percent, thanks to Congress, of our 
entirety of our NII systems, and we are balancing a very 
complex mission that is multifaceted----
    Miss Rice. Yes, go ahead.
    Mr. Perez. I don't think deem it unreasonable to position--
--
    Miss Rice. So basically you don't need any money, you don't 
even need----
    Mr. Perez. No.
    Miss Rice [continuing]. The $59 million?
    Mr. Perez. No, I'm saying we need all the----
    Miss Rice. Wow, I think it sounds like you don't even--
well, I just saved us $59 million. Thank you.
    Mr. Perez. We will gladly--thank you, Madam Chairwoman.
    Miss Rice. OK, Mr. Perez, thank you.
    Mr. Perez. Thank you.
    Miss Rice. So I just have one question for Ms. Renaud.
    Despite the on-going violence and political unrest that 
renders El Salvador unable to adequately handle the return of 
their nationals, then-Secretary Nielsen announced the decision 
to terminate TPS status for El Salvador in January 2018. Do you 
know what the reasons justifying the termination of TPS for El 
Salvador were?
    Ms. Renaud. I do not know the reasons off the top of my 
head, ma'am. I would be happy to get you that information.
    Miss Rice. Did USCIS provide the Secretary or anyone within 
the administration with an opinion as to whether TPS should be 
terminated or extended?
    Ms. Renaud. Yes. USCIS prepares country conditions for the 
Secretary whenever there is going to be a determination made on 
TPS for any country. Along with that, we usually do provide a 
recommendation.
    Miss Rice. So what was your recommendation?
    Ms. Renaud. I don't recall. It was some time ago.
    Miss Rice. Any of the northern triangle countries or--I 
shouldn't say that. I should say--yes, so El Salvador, along 
with Nicaragua and Honduras, can you give us----
    Ms. Renaud. I don't have that----
    Miss Rice [continuing]. Did you give opinions about those?
    Ms. Renaud. We gave opinions on all of those, and we----
    Miss Rice. But you don't remember what they are now?
    Ms. Renaud. I don't on the----
    Miss Rice. So I am going to ask you to please provide me 
with--this committee with that information.
    Ms. Renaud. We will follow up with you, ma'am.
    Miss Rice. So I just want to ask, we have a lot of people 
up here who want to ask questions. I asked direct questions. 
Can you please give direct answers? There is no filibustering 
on the subcommittee. So, please, can we all use the time 
wisely, and can you answer in the most direct way possible? 
Thank you very much. Appreciate that.
    Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chair. Regarding technology, 
Mr. Perez, with the purchase of new technology, would there be 
a requirement to replace that new technology every year?
    Mr. Perez. Not every year, Congressman.
    Mr. Higgins. Thank you. I believe we try and keep to direct 
answers here. I believe most of the folks in the audience here 
have a laptop or an iPad. I don't know of anyone that replaces 
that technology every year.
    You had mentioned a number, I believe you said 75 percent 
of your systems have been upgraded or replaced with new 
technology?
    Mr. Perez. We received funding, Congressman, between fiscal 
year 2018 and 2019 to recapitalize and replace over 230 of our 
280 systems.
    Mr. Higgins. OK. So just to clarify, you have already 
received funding to replace a large percentage of your 
technology that was indicated here. So would it not make sense 
that the budget decrease? It is just common sense. We can move 
on.
    Let's talk about personnel, please. The budget request 
includes $163.6 million to recruit, hire, and train 750 
additional Border Patrol agents. It is no secret that CBP 
experiences difficulties in recruiting, hiring, and retaining. 
It is a gruelling job, and it is insane down there right now. I 
am amazed at the retention that you are managing. How long 
would you project it would take, given flexibilities regarding 
hiring bonuses, retention bonuses, et cetera, can you fulfill 
the hiring of 750 additional Border Patrol agents if we provide 
the budget for it?
    Mr. Perez. Thank you, Congressman. We expect that we will. 
The time frame, I wouldn't want to speculate as to how long. 
Right now, particularly with Border Patrol agents, our 
attrition rates are at about 6 percent, which is higher than 
our other law enforcement uniformed personnel. We have put in 
place a lot of hiring initiatives to retain more, to--with----
    Mr. Higgins. Do you have the flexibility needed at the 
command level regarding bonuses and retention bonuses, hiring 
bonuses, et cetera?
    Mr. Perez. We do, however, it is part of the supplemental 
request that was put forward.
    Mr. Higgins. Thank you, sir.
    Mr. Perez. We are looking forward to getting that support.
    Mr. Higgins. Moving on, the President has requested $4.5 
billion emergency supplemental funding for the crisis at the 
border. Mr. Perez, can you explain why these funds are so 
critical?
    Mr. Perez. Thank you, Congressman. So in addition to the 
surging of now nearly--or just over a thousand CBP officers and 
Border Patrol agents along the Southern Border from parts all 
over the country, the nourishment, the procurement of 
consumables for primarily the families and the children that 
are in our custody for the time they are, the softsided 
facilities that we have put up recently.
    In addition to all of that, and being able to fund what we 
have already done, everything that we expect to continue to 
have to be done in this urgent crisis, is included in that 
supplemental request, along with some very critical support for 
our interagency partners, particularly in----
    Mr. Higgins. Would funding directed within the supplemental 
request help the American men and women that work for you to 
respond to the humanitarian crisis?
    Mr. Perez. Unquestionably so.
    Mr. Higgins. OK. Moving to Acting Deputy Director--excuse 
me--Acting Director Albence. Would you explain to us, sir, the 
expansion of the 287(g) program, in the form of the warrant 
service officer program? We are talking about personnel, for 
boots on a guy--ground, like me, this is significant. Difficult 
jobs, difficult to hire and retain, and you have determined a 
way to expand an existing 287(g) program within the parameters 
of the law, to be a force multiplier for your endeavors at ICE. 
Would you explain the warrant service officer program, please?
    I have 35 seconds.
    Mr. Albence. Yes, sir. Thank you for the question. The 
warrant service officer serves as a force multiplier for ICE. 
We only have about 6,000 or so sworn law enforcement officers 
within ERO to cover the wide spectrum of duties that we have to 
do.
    The warrant surface officer allows us to deputize State and 
local law enforcement agents and deputies to execute 
immigration warrants on our behalf. So that way, individuals 
that are sitting in their custody, criminals that are here 
illegally, have committed a criminal violation--convicted----
    Mr. Higgins. That is, the program essentially puts in place 
trained and certified officers at the State and local level?
    Mr. Albence. Absolutely. It allows us to take our officers 
that are sitting in these detention facilities----
    Mr. Higgins. Automatic detainers.
    Mr. Albence [continuing]. And replace them with theirs.
    Mr. Higgins. Would you provide to the committee, please, 
some details and explanations of that program for my colleagues 
on both sides?
    Mr. Albence. I would be happy to.
    Mr. Higgins. I yield back, Madam Chairwoman.
    Miss Rice. So before we go on, I just--you know, I just 
want to go back to something that Mr. Albence said. You had 
said before there are 109,000 people had been apprehended 
between ports of entry, and the actual number is 98,000. You 
include people who actually presented themselves at a port of 
entry and were then turned away by CBP ICE. So I think it is 
important to be accurate. It is not 109,000. It is 98,000.
    I now recognize the gentleman from California, Mr. Correa.
    Mr. Correa. Thank you, Madam Chair.
    All of you, first of all, seem to have a tremendous history 
of serving our country, thank you very much. I just returned 
from Central America, where I took a tour of the triangle 
countries to look at what was going on. I concur with my 
colleague from Louisiana, we do have a crisis, and it is a 
refugee crisis. It is one that is been going on, probably since 
the 1980's. It has just been invisible for the most part, and 
now, when we have these caravans, I think it is easier to 
detect.
    I went to these three countries to ask, what is going on, 
what is fueling all of this activity. The simple answer is a 
lot of violence, a lot of drugs, a lot of dollars--dollars that 
flow out of our country because of our insatiable appetite for 
drugs, that everybody's essentially on the take, there is so 
much money, there is so much violence, and most people are just 
looking for a better place.
    A lot of interesting things going on. Some of our aid has 
helped create some educational centers, some jobs, some local 
training, some deported individuals that are going back and 
trying to start lives. Good silver linings in those dark 
clouds. One of the other ones I found, and I was pleasantly 
surprised, was to find fusion centers in those Central American 
countries where our FBI agents, DEA agents, other Federal 
agencies, working together to make sure that we track a lot of 
those individuals that are dangerous criminals, that seem to 
move from one country to another, in and out. We talk a little 
bit--your testimony was about investing more resources to make 
sure we track these folks that I would call high, serious 
risks.
    My question is, any of those resources also going to 
coordinate with groups like--or entities like fusion centers in 
Central America or Mexico?
    Mr. Albence. Thank you, Congressman. We actually have----
    Mr. Correa. Can you make it a quick--just an answer----
    Mr. Albence. Yes sir. We have--Homeland Security 
Investigations has attache offices in each of these countries 
that work very closely with the law enforcement agencies in 
those countries. In fact, we have----
    Mr. Correa. Is some of the budget that you requested to 
augment those efforts, or is that----
    Mr. Albence. No. We will augment those efforts. We have 
transnational criminal investigative units. We have vetted 
officers from those foreign governments that work----
    Mr. Correa. Thank you, you answered my question. You 
mentioned 570,000 criminal aliens that you are following, or--
--
    Mr. Albence. It was 570,000 immigration fugitives. So these 
are individuals that are here illegally.
    Mr. Correa. Now, define a fugitive for me. Is that somebody 
who murdered----
    Mr. Albence. So an immigration fugitive is an individual 
who has been through the entire immigration court process, has 
had their due process, and at the end of that process, has been 
ordered removed by an immigration judge, but has failed to 
comply with that order.
    A portion of those, I don't have the exact number, but I 
believe it is around 130,000 or so, do have criminal records.
    Mr. Correa. Your discussions with Mr. Miller, when you 
spoke to him, it was clearly immigration policy, how you are 
doing the job. My question is--again, all of you have very long 
careers in this area of Government--when you talk to Mr. Miller 
or you were part of those discussions, did you find Mr. Miller 
asking your opinion as to what worked or didn't work, or was it 
more Mr. Miller telling you the new vision that he wanted to 
implement in terms of immigration policy and immigration 
enforcement?
    Mr. Albence. No, sir, it was the former. It was, we have 
this policy idea, how would it work, how would you 
operationalize it, is it doable----
    Mr. Correa. Child separation, was that something of a 
policy you came up with or he came up with?
    Mr. Albence. No, sir. I wasn't involved in that.
    Mr. Correa. Who came up with that?
    Mr. Albence. I believe that was the Former Attorney General 
developed a prosecution program, a zero-tolerance prosecution 
program is what related to----
    Mr. Correa. One final question. I have got 40 seconds. 
Border Patrol agents hiring, recruiting, I know that--was it 
last year or the year before we had that challenge where you 
all were paying somebody a $10 million bonus to hire, to speed 
up the hiring of agents, and only about a dozen were hired.
    So my question is, have you changed the way you are looking 
for recruits? Are you going, for example, to college campuses? 
Are you going to, you know, hire veterans, or are we still 
doing these 10 million for a dozen kind of programs?
    Mr. Perez. Thank you, Congressman. Yes, we have put forth 
several initiatives to try to improve our hiring, targeted 
recruitment----
    Mr. Correa. Very quickly, it is my understanding that the 
big issue in hiring agents is passing of the polygraph test, 
the lie detector test. I was talking to some of the members of 
the local union. They were telling me it is easier for an FBI 
agent to pass than it is for an agent to actually pass. Is that 
the case? Are we doing anything to change that specific issue?
    Mr. Perez. Making sure we adhere to the practices and the 
policies that we have in place to maintain the integrity. We 
feel we have made a lot of strides on the polygraph program, 
Congressman, and that we are not experiencing nearly some of 
the challenges that we had had a couple of years ago.
    In addition to targeted recruitment for veterans, in 
addition to fast-track hiring processes to get people who are 
willing, through the process much faster. Last year actually 
was the first year that we actually got ahead in the 5 years of 
Border Patrol agents, meaning bringing on more than we 
attrited. So we are encouraged moving forward that we are going 
to be able to continue to do the same.
    Mr. Correa. Madam Chair, I am out of time, I yield.
    Miss Rice. Thank you, Mr. Correa.
    The Chair now recognizes Mr. Joyce from Pennsylvania for 5 
minutes.
    Mr. Joyce. Thank you, Madam Chairwoman. I thank our 
witnesses for being here today. Currently, there is a massive 
crisis on our Southern Border. Just last month's data of 
attempted illegal crossings represented more than a 100 percent 
spike over the previous year and a staggering 500 percent 
increase from 2 years ago. I witnessed this first-hand when I 
was at the Southern Border just last month.
    While I was there, I witnessed first-hand the lack of a 
secure border in areas along the Colorado River, which allows 
the cartels to smuggle drugs into our country, to smuggle drugs 
that end up in my district in south central Pennsylvania.
    There is another issue with the surge of people who seek to 
be apprehended at the border. They are brought into custody, 
they say prescribed words, and they are allowed access to 
American jobs, health care, and education that law-abiding 
citizens--with no real ability for these individuals to verify 
their claims. This new group of family and unaccompanied minors 
arriving from Central America present significant new 
challenges, and it is truly driving this crisis.
    Fully acknowledging that the Majority has refused to even 
address this emergency request for funding sent to Congress by 
DHS Secretary McAleenan, do you think that the budget request 
for fiscal year 2020 are still in line with what is needed to 
protect our Nation? This is a simple yes and no question, and I 
will address Deputy Commissioner Perez first.
    Mr. Perez. I will say yes, Congressman.
    Mr. Joyce. Director Albence, do you feel that the budget 
requests are in line to address this crisis?
    Mr. Albence. Yes, I do.
    Mr. Joyce. Second--thank you both--Secretary McAleenan also 
made requests to change the asylum laws, among other changes, 
to alleviate the pressures at the border. These are similar to 
what legislations from Representative Collins, that I 
cosponsored, would fix the Flores settlement and strengthen our 
asylum system. Do you believe that passing these laws would 
have impact on the crisis at the border? If we pass them, do 
you think it would cut down on the amount of money we have to 
spend to address this crisis? In essence, will fixing our 
asylum system save taxpayers in the long run without 
sacrificing our security? Again, I ask for your yes-no answers.
    Mr. Perez. I will say yes, but if I may, Congressman, I 
will just add that it is the most urgent and immediate need 
that we need right now to deal with this crisis.
    Mr. Joyce. So let me clarify that. So passing the asylum 
laws would most be pressing for us to fix the problem that you 
face on the Southern Border?
    Mr. Perez. That and fixing the--having the ability to 
main--keep families together through an expedited immigration 
process, and being able to return unaccompanied children to 
noncontiguous countries, as long as they are not being 
trafficked. Fixes to Flores, TVPRA, and asylum, those are the 
three legal fixes that are most urgent now.
    Mr. Joyce. Mr. Albence, would you please comment as well?
    Mr. Albence. Mr. Perez is absolutely correct.
    Mr. Joyce. Thank you both.
    I yield back my time to the Ranking Member.
    Mr. Higgins. Thank you, sir. Deputy Commissioner Perez, 
just to give you an opportunity to clarify. The numbers we have 
for border apprehensions for April were 98,977. You mentioned a 
number of 109,000. Will you clarify for the committee, please, 
where the other 9,000 law enforcement interactions were at the 
border?
    Mr. Perez. Thank you, Congressman. The number--the 109,000 
that I cited included not just apprehensions in between our 
ports of entry, but encounters at the ports of entry of 
inadmissible migrants. So that is the total number that we 
encountered, again, 109,000.
    Mr. Higgins. Thank you, sir.
    Madam Chair, I yield.
    Miss Rice. I thought that is what I said, but thank you for 
clarifying that.
    I now recognize for 5 minutes the gentleman from Texas, Mr. 
Green.
    Mr. Green. Thank you, Madam Chair. I thank the Ranking 
Member as well. Madam Chair, it is an honor to serve under your 
leadership. I thank you for hosting this hearing.
    Mr. Albence, you are now the acting director of ICE. Is 
this correct?
    Mr. Albence. Yes, sir, that is correct.
    Mr. Green. But you have not always been the acting 
director. In 1994, you were with INS. Is this correct?
    Mr. Albence. Correct. I started as a special agent in San 
Antonio that year.
    Mr. Green. Special agent. You have, through the years, seen 
a good many things take place at ICE. You know the history of 
ICE, do you not?
    Mr. Albence. I have experienced many things, yes, sir.
    Mr. Green. You know that ICE has metamorphosed from the 
Office of the Superintendent of Immigration, created and placed 
in the Treasury Department in 19--that is 1891, excuse me, and 
it has gone through a good many changes and metamorphosed into 
INS in 2003. ICE--according to this, the INS was abolished in 
2003. Is that correct?
    Mr. Albence. The various----
    Mr. Green. This is, by the way, coming from your home page. 
So I am reading from----
    Mr. Albence. The various----
    Mr. Green. Without giving me the history, just let me ask 
you, is that correct, was INS abolished?
    Mr. Albence. It wasn't abolished. It was fold---its 
responsibilities were folded into DHS.
    Mr. Green. Well, let me ask you this. Why would you have on 
your home page that INS was abolished and its functions placed 
under three agencies?
    Mr. Albence. I would have--I would have to take a look at 
that page. But, yes, the functions were separated between----
    Mr. Green. OK. Well, does INS exist now?
    Mr. Albence. No, it does not.
    Mr. Green. Then it was abolished, wasn't it?
    Mr. Albence. That is a term you could use, sure.
    Mr. Green. Well, it is a term that you use. I am looking at 
your home page.
    Mr. Albence. OK.
    Mr. Green. Do you--would you--I hate to--look, now, I know 
the questions to ask. I am not going to do it to you, but you 
will agree, if you would, that INS does not exist now, and it 
was abolished?
    Mr. Albence. I agree it does not exist now, correct.
    Mr. Green. OK. Well, let's just say it was abolished so 
that I don't have to go through another exercise. The reason I 
am sharing this with you is because you didn't complain when 
INS was abolished, did you?
    Mr. Albence. No. I would say there was a great bit of 
consternation on both the individuals from the Customs Service, 
as well as INS during the time of the merger. It was a 
difficult merger for many individuals.
    Mr. Green. And the merger took place?
    Mr. Albence. Yes, it took place.
    Mr. Green. Would you reverse it if you could?
    Mr. Albence. I don't think I would reverse it, because we 
have come so far, and we have learned how to utilize both our 
customs and immigration authorities for the benefit of National 
security and public safety.
    Mr. Green. Yes, sir. If you could, you would improve upon 
it, wouldn't you?
    Mr. Albence. Sir, the men and women of ICE come to work 
every day trying to do their job better.
    Mr. Green. Yes, sir. So you would improve upon what you 
have, would you not?
    Mr. Albence. If we can, yes.
    Mr. Green. OK. So if someone, according to what you have 
here, has indicated that INS was abolished and ICE was created, 
one of the products, then if someone else said, well, look, 
let's improve upon ICE, let's abolish ICE, let's create 
something that is better, and you thought that this something 
was better, just as you have acclimated to the iteration that 
was created in 2003, you would want to see that better thing 
take place, wouldn't you? You would want to see it, wouldn't 
you? You would want to be one of the persons to support that, 
wouldn't you?
    Mr. Albence. I can envision an agency being better based on 
the----
    Mr. Green. Well, let me just ask you this. All of these 
iterations, let's look at it--1891, 1895, 1903, 1906, 1913, 
1924, 1933, 1940, 2003. All of these changes, it has 
metamorphosed, and now we have perfection.
    Mr. Albence. I would say that you have within----
    Mr. Green. Would you say you have perfection?
    Mr. Albence. I don't think anybody would say they have 
perfection.
    Mr. Green. OK. That is what I am looking for. You wouldn't 
say that.
    Because you don't have perfection, my assumption is that--
just as the President has said that Boeing with its 737 MAX 8 
ought to change the name, he said. Let's not call it the MAX 8. 
Let's improve upon it and, he said, give it another name.
    This is why you have a good many people saying, let's 
improve upon ICE, and it is OK for it to get another name, 
given that it has all of these other names that it has had 
through the years. Why not make it better? You understand the 
point.
    I yield back my time.
    Miss Rice. Thank you, Mr. Green.
    The Chair now recognizes Mr. Guest, the gentleman from 
Mississippi, for 5 minutes--oh, my gosh, I am so sorry.
    Mrs. Lesko. No worries.
    Miss Rice. The gentlewoman from Arizona, Ms. Lesko.
    Mrs. Lesko. Thank you, Madam Chairman.
    First of all, I want to say thank you. Thank you for the 
work that you do. I really want to thank all the men and women 
that work for you. Coming from the State of Arizona, the No. 1 
issue of constituents in the State of Arizona, in my district, 
is securing the border. We see the impacts each and every day.
    I have gone down and visited the border and met with some 
of the agents down there, and my staff has met with the ICE 
agents in Phoenix. I applaud you for your hard work. This is 
hard work. You are doing a lot of humanitarian work, as well, 
with the crisis that is going on on the border. So I just want 
to say thank you.
    I do have several questions. Don't know if I can fit them 
all in or not. But similar to what Mr. Joyce said, I, too, am 
sponsoring legislation, and hopefully my staff can get together 
with you to talk about all of the details, but I had met with 
Secretary Nielsen in the past.
    So I am introducing a bill to tighten the ``credible fear'' 
standard; permit DHS to remove asylum seekers to safe third 
countries, where they could apply for asylum without the need 
for bilateral agreements; to give more funds for more detention 
bed space and immigration judges. I was just wondering what 
your thoughts were on it.
    Anybody can speak.
    Mr. Perez. Thank you, Congresswoman, again, for your 
support of our men and women.
    Certainly, all those solutions are part of, again, a very 
complex mix of immediate solutions we need.
    I don't want to undersell the need, especially given the 
supplemental that was put forward, of resources now, by virtue 
of the absolute humanitarian overwhelming crisis we have, as 
well as the security crisis that goes right alongside that.
    But certainly, again, those legal fixes are, as I mentioned 
before, the most, in my professional opinion, urgent and 
immediate need that will make a huge difference in what it is 
we are dealing with.
    Mrs. Lesko. Thank you. Yes, I have been on record as saying 
we need the resources and the money. I think we need not only--
we needed the funding for the border fence, because I think it 
is part of the solution, not the entire solution, but we need 
to change the laws. That is up to Congress. I think President 
is doing what he can. Because he has to protect our Nation. 
That is his No. 1 duty. That is our No. 1 duty. This is a 
security crisis and a humanitarian crisis.
    I remember Secretary Nielsen, right here in this committee 
room, saying how 11-year-old girls are being tested, pregnancy 
tests. I think 3 out of every--or 1 out of every 3 women is 
being raped. This is bad news. We really need to fix it.
    But let me go to the next question.
    The President's request, he wants to add 128 attorneys and 
41 support staff for the ICE Office of the Principal Legal 
Advisor.
    So, in addition to immigration judges, Director Albence, 
why do you need the extra attorneys?
    Mr. Albence. Well, the immigration courts can't proceed 
without those OPLA attorneys to actually present and prosecute 
those cases. So there has been a large increase of immigration 
judges over the past couple of years. There has not been a 
corresponding increase of OPLA attorneys.
    So, without those OPLA attorneys, you could hire and bring 
on as many judges as you want; you will only make that 
bottleneck get worse.
    Mrs. Lesko. OK. Thank you.
    My next question is, I have heard numerous stories about 
adults bringing in children to take advantage of our laws and 
our court settlements here, and some of those children aren't 
their children. They are being recycled and sent back to their 
home country and then being exploited again.
    What are we doing to try to address that problem now?
    Mr. Albence. Homeland Security Investigations over the past 
3 weeks has been surging resources to the Border Patrol sectors 
to start ferreting out these fraudulent families. In the matter 
of just a couple of weeks, we identified 256 potentially 
fraudulent families and confirmed that 65 of those were indeed 
fraudulent families.
    Within the first week, we found a young 7-year-old girl 
from Guatemala who was on her second trip to the country, whose 
mom had rented her to her uncle so that he could come to the 
country because he knew that he would be released. She also 
told us that her two brothers were already here and came in 
January, and she didn't know where they were.
    So we know and we have criminal investigations on-going of 
multifaceted criminal organizations, both domestic and 
international, that are profiting off this problem, profiting 
off the poor children that are being trafficked. That is our 
primary goal in having those officers and agents down there, is 
to ferret out these traffickers and smugglers.
    Mr. Perez. If I can add, Congresswoman, year to date, to 
put it into context, on the CBP side, in the last 6 months of 
last fiscal year, we identified 466 fraudulent families. So 
far, in the first 6 months of this fiscal year, we are up to 
3,500, just over 3,500 fraudulent families.
    So we are, again, working right alongside our colleagues in 
ICE on this very, very important issue.
    Mrs. Lesko. Yes. Thank you very much. I mean, we do have a 
crisis. I mean, some people, I think, might be denying it, but 
it is right in front of our eyes. This is a humanitarian crisis 
and a security crisis. I thank you for your work.
    I yield back.
    Miss Rice. Thank you.
    The Chair now recognizes the gentlewoman from New Mexico, 
Ms. Xochitl Torres, for 5 minutes.
    Ms. Torres Small. Thank you, Chairman Rice.
    Thank you also, Ranking Member Higgins.
    Thank you all for being here.
    As you know, Border Patrol is currently under immense 
strain, partly due to the administration's ``metering'' and 
``remain in Mexico'' policies, which are pushing some migrants 
to cross the border between ports of entry, often in areas like 
the one that I represent, which is rural and remote.
    In my district in southern New Mexico, Border Patrol 
checkpoints have been suspended, and many agents have been 
recalled from the field to assist with processing individuals 
voluntarily presenting along the border.
    In speaking to a Border Patrol agent in my district, he 
said, ``We are not a detention center agency. We are a law 
enforcement agency.'' I couldn't agree more.
    This is why CBP must be doing more to contract trained 
personnel to assist with non-law-enforcement duties, such as 
feeding, transporting, and giving medical care when necessary 
to migrants. This would allow agents to return to their law 
enforcement responsibilities for which they are really trained.
    Mr. Perez, can you please describe how CBP is planning to 
allocate part of its fiscal year 2020 budget toward contracting 
for these non-law-enforcement duties?
    Mr. Perez. Thank you, Congresswoman.
    So, in the fiscal 2020 budget as well as, if I may, the 
supplemental request, very much the transportation, the care 
and feeding, the soft-sided facilities that we have raised, all 
of those non-law-enforcement-related duties are not only 
already being contracted and actually contracts being pursued 
to be expanded because of the crisis we have at hand, but 
certainly in 2020 those are exactly the type of things we are 
looking to get our officers and agents out of doing and 
bringing on more other folks to do those types of functions for 
us.
    Ms. Torres Small. That is great to hear, Mr. Perez. Thank 
you so much.
    How can Congress feel confident that the funds it 
appropriates for these very specific purposes, such as 
contracting services you just described, will not be 
reprogrammed for the administration's own priorities?
    Mr. Perez. Well, I don't have the specific numbers right 
now, Congresswoman, but I will gladly get back to you on what 
it is we have already obligated from the funds we have been 
provided and actually what it is we have already begun to spend 
this fiscal year, as well, you know, with respect to what it is 
we are asking for, again, on the supplemental that is so 
critically important, you know, regarding the contracting and 
the like, you know, just so that you have a good frame of 
reference of how it is we are investing all those moneys.
    Ms. Torres Small. Sorry, my question was about future 
appropriations from Congress. You identified the need is still 
on-going. How can we make sure that is where the money goes?
    Mr. Perez. Well, it is unquestionably true, Congresswoman, 
you know, front-line agents and officers are there to perform a 
law enforcement function, National security function, first and 
foremost, certainly a humanitarian function, given a crisis 
like the one we have in front of us. To make sure that we are 
fulfilling that mission responsibility, to keep our communities 
safe, keep drugs off the street, keep criminals from coming 
across our borders, that is where our focus will remain--and 
keeping, you know, again, the Nation safe.
    So I am very confident that I can tell you that if we are 
able to bring on those contracts, get these types of roles 
filled with non-law-enforcement types, that is something the 
agency will remain very interested in doing.
    Ms. Torres Small. Thank you. I don't feel the assurance 
that I think we need to be able to work to support you in what 
needs to happen. I think if there is any additional words you 
can lend to that, it would be very helpful for me to continue 
to advocate for these continued needs.
    I want to turn to investments in our ports of entry, which 
are also essential to our National security.
    Facts show that the majority of illegal drugs that come 
into the United States enter through legal ports of entry. For 
example, according to the CBP's own numbers, in fiscal year 
2018, 90 percent of the heroin was seized at ports of entry by 
CBP officers, while only 10 percent was seized between ports of 
entry by Border Patrol.
    Yet, in recent years, not enough attention has been given 
to CBP's $5 billion land port of entry modernization backlog or 
to the deployment of drug inspection technology at the ports of 
entry. My colleague Miss Rice spoke about NII tech, and I 
reinforce the need to invest there.
    Mr. Perez, as a former port director and the director of 
field operations, you know first-hand the importance of these 
investments. Do you believe the administration should be giving 
more funding priority to decrease the backlog of CBP's land 
port of entry modernization portfolio and to drug-interdiction 
systems at ports of entry such as this non-intrusive inspection 
technology?
    Mr. Perez. Thank you, Congresswoman. I am really grateful 
to the Congress for what it is we have received. I mentioned 
earlier about the recapitalization of a huge portion of the 
non-intrusive inspection fleet. We also received an incredible 
amount of funding, as well, for hand-held technologies, you 
know, for video surveillance and the like. So those are 
investments we are absolutely looking forward to continuing to 
make and are part of the fiscal year 2020 budget.
    With respect to modernization of the ports, that is also 
something that is a priority for us in respect to, you know, 
there are so many of them that are outdated. We are living that 
every day right now, with respect to Border Patrol stations and 
ports of entry.
    So, facilities-wise, definitely, you know, we have a few 
options there. We don't own all of those facilities. We have to 
work through GSA a lot of times. But we also have, you know, 
collaboration with the private, you know, communities 
themselves, where we could pursue some of those endeavors also.
    Ms. Torres Small. Thank you, Mr. Perez. I know I am out of 
time, but I look forward to working with you in the future.
    Mr. Perez. OK.
    Miss Rice. Thank you.
    The Chair now recognizes the gentleman from Mississippi, 
Mr. Guest, for 5 minutes.
    Mr. Guest. Thank you.
    To each of the witnesses, thank you for being here. I want 
to thank the men and women that serve under you for your 
service to our country.
    Throughout prior hearings that we have had, I believe that 
there has been testimony that we have a drug trafficking crisis 
along our Southwest Border, a human trafficking crisis, an 
immigration crisis, and now a humanitarian crisis.
    Would each of you agree that the current situation along 
our Southwest Border would fit in the definition of a crisis 
state based on everything that we have going on at this time?
    Mr. Albence. Undoubtedly.
    Ms. Renaud. Yes, I do believe there is a crisis at the 
Southwest Border.
    Mr. Perez. I do, Congressman, unlike anything I have ever 
seen in 26 years.
    Mr. Guest. Mr. Albence, in your report that you provided to 
us as part of your testimony, you say, I believe on page 3, 
that ICE seized over 1 million pounds of illegal narcotics in 
fiscal year 2018. Is that correct?
    Mr. Albence. Yes, sir, that is correct.
    Mr. Guest. Mr. Perez, you also gave a figure in your report 
about narcotics that was seized. Would the amount seized by 
your agency be in addition to what Mr. Albence had in his 
report?
    Mr. Perez. It would, Congressman. We collaborate often, the 
agencies, but those would have been deconflicted, in addition 
to, yes.
    Mr. Guest. So you report a million pounds of narcotics 
seized.
    Mr. Perez, you broke yours down. You said that you all 
seized in that fiscal year 1.1 million pounds of marijuana, 
282,570 pounds of cocaine, 248,132 pounds of methamphetamine, 
6,552 pounds of heroin, and 2,463 pounds of fentanyl. Is that 
correct?
    Mr. Perez. That is correct, Congressman.
    Mr. Guest. Thank you. Please thank the men and women that 
you serve with.
    I think, as the American public, as Members of Congress, we 
often don't give you and the men and women that you work with 
the credit that you deserve. Because of your hard work, because 
you are standing there on the border, we have been able in a 
year to prevent millions of pounds of illegal drugs from coming 
into this country.
    So I would ask that when you return home to the men and 
women that you serve with that you let them know that there are 
members of the American public and Members of the Congress that 
appreciate what they do on our behalf.
    I wanted to speak very briefly on the current immigration 
crisis that exists along our Southwest Border.
    Mr. Albence, you were saying in your report that there are 
currently 870,000 pending cases. Is that correct?
    Mr. Albence. On the non-detained docket, so individuals not 
in custody. We have about 50,000 people in custody that are 
also pending.
    Mr. Guest. OK. So that would be in addition to the 870,000?
    Mr. Albence. Correct.
    Mr. Guest. So we have, then, roughly 920,000 pending cases?
    Mr. Albence. That is a good approximation, yes.
    Mr. Guest. As I understand from media reports, the average 
wait time for a hearing is 2 years. Would that be approximately 
correct, give or take?
    Mr. Albence. It depends on the location. In some places, it 
could be 2 years. In some places, EOIR is setting out court 
dates 3 to 4 to 5 years.
    Mr. Guest. So we have people who are sometimes being 
released, and they are given a court date to return in 5 years?
    Mr. Albence. That is quite possible, yes.
    Mr. Guest. I think there was testimony that you all gave a 
few minutes ago that--and I believe, Mr. Perez, you were the 
one that offered this--that you believe that the best thing 
that Congress can do to alleviate the crisis along our 
Southwest Border is to fix our broken asylum process.
    Mr. Perez. Yes, Congressman, in addition to, again, fixing 
Flores, the ability to keep families together through the 
entirety of an expedited immigration process and hearing and 
adjudication of their case, and fixing the TVPRA or the ability 
to process unaccompanied alien children and repatriate them to 
noncontiguous countries like we do for Canada and Mexico if 
they are not being trafficked. Those are the three really 
primary areas of legal change that we absolutely need.
    Mr. Guest. My question is, until we fix those three issues, 
are we just basically managing the crisis along our Southwest 
Border?
    Mr. Perez. I personally believe those are the most 
prevalent--unquestionably prevalent pull factors of the 
phenomenon that we are seeing right now and what the criminal 
alien smuggling organizations are very consciously exploiting 
and profiting off of.
    Mr. Guest. Again, thank you for your service. Thank you for 
testifying today.
    I will yield back the remainder of my time.
    Miss Rice. The Chair now recognizes for 5 minutes the 
gentlewoman from New York, Ms. Clarke.
    Ms. Clarke. I thank you, Madam Chair, and I thank our 
Ranking Member, Mr. Higgins.
    We are a Nation of immigrants. Our country's prosperity is 
inherently linked with our history of welcoming people from all 
corners of the Earth. Diversity has been and continues to be 
our greatest strength.
    But Donald Trump sees strength through a different lens. 
When he sees an immigrant family, he sees a threat to our 
Nation rather than an opportunity to enrich it. He thinks 
ripping those families apart, not just at the border but 
through bureaucratic maneuvers here in the District of 
Columbia, is somehow strong. But he is wrong. Congress has an 
obligation to get it right and to fix this inhumanity.
    So let me start by asking you, Mr. Albence, I want to get 
some ideas of current policy and how it is actually being 
implemented.
    In March, I actually sent a letter to DHS regarding ICE's 
immigration check-in policies, and I am still waiting for a 
response. So I am Congresswoman Clarke from Brooklyn, New York.
    Traditionally, DHS has allowed immigrants to be accompanied 
by persons of their choosing during check-ins with ICE 
personnel. However, when I attempted to accompany Ravi Ragbir, 
a New York immigrant rights activist, to his check-in 
appointment this January, many members of our group, including 
elected officials, were denied entry to ICE's field office.
    So I would like to know: What is DHS policy with respect to 
allowing members of the public, including family members, 
clergy, and public officials, in accompanying immigrants to 
facilities where ICE check-ins occur?
    Mr. Albence. So I can get back with you with the specific 
policy with regard to how we manage the check-in process. In 
many locations----
    Ms. Clarke. That is fine. That will be good.
    Mr. Albence. OK.
    Ms. Clarke. If I can get that in writing, I would like to 
know what the policy is. And----
    Mr. Albence. I will check on your letter. I am sorry for 
the delay.
    Ms. Clarke. OK.
    Why has DHS's long-standing policy, which has been to allow 
folks to be accompanied, been changed?
    Mr. Albence. Again, I will get you a written response on 
that.
    Ms. Clarke. Very well.
    The Supreme Court appears likely to allow the 
administration to add a citizenship question to the 2020 
Census. This comes after a Federal judge in New York ruled 
against adding the question, which would have forced everyone 
to answer whether or not they and others in their household are 
U.S. citizens.
    Federal law prohibits the Census from sharing data with 
other Federal agencies, such as ICE. But the laws have been 
circumvented before to target minority families. During World 
War II, the Census Bureau found a loophole so it could help the 
Government identify Japanese-Americans for internment.
    Will you commit, if the Supreme Court allows the citizen 
question appear in the 2020 Census, not to seek any data 
whatsoever in violation of existing law regarding immigration 
status from the Census Bureau?
    Mr. Albence. I would never ask any of my officers to do 
something in violation of law.
    Ms. Clarke. Very well.
    Ms. Renaud and Mr. Perez, by the end of the summer, the 
President wants to sanction countries with visa-overstay rates 
higher than 10 percent, including by potentially restricting 
entry from those countries. In plain English, that means 
tearing apart families simply because of the Nation they hail 
from.
    The order cites 20 specific countries, 13 of which are on 
the continent of Africa. Caribbean nations like Jamaica and 
Haiti could also become targets. Last year, Donald Trump used 
vile language to describe Haiti, Central America, and the 
continent of Africa. Now the President is putting those words 
into action.
    Do you have any additional information about what specific 
restrictions Donald Trump intends to impose on nationals of 
visa-overstay countries?
    Mr. Perez. I do not, Madam Congresswoman.
    Ms. Clarke. OK.
    Ms. Renaud. Nor do I.
    Ms. Clarke. Very well.
    Ms. Renaud, USCIS recently issued new guidance to asylum 
officers on adjudicating ``credible fear'' claims, directing 
them to be more confrontational and focus on discrepancies 
between testimony instead of the testimony itself. There may be 
a series of reasons as to why there are differences between the 
testimony given at Border Patrol compared to trained asylum 
officers.
    How are you planning to document those discrepancies? Given 
the serious life-and-death consequences of a negative finding, 
what kind of discretion are experienced asylum officers given 
to determine what is an allowable discrepancy?
    Ms. Renaud. Thank you for the question, ma'am.
    Our asylum officers, as you well know, are very well-
trained. We give them an extraordinary amount of training.
    We did recently update a lesson plan which clarified to 
them that they need to address the credibility issue related to 
the individual themselves, both when they are looking to find a 
positive ``credible fear'' screening or a negative ``credible 
fear'' screening.
    In addition to that, what we asked them is that they do 
elicit testimony when they find discrepancies, and that is so 
that they can deconflict. But they still have the discretion to 
have a finding of a positive screening or a negative screening. 
We just want them to actually document the fact that they 
deconflicted any conflicts between what they told CBP when they 
entered and what they are telling us during the screening 
process.
    Ms. Clarke. Thank you for your responses.
    I yield back, Madam Chair.
    Miss Rice. Thank you.
    We are now going to go into Round 2 of questioning.
    Ms. Renaud, I want to ask you, I understand that USCIS is 
planning to close its overseas field offices, which I strongly 
oppose. Do you know if the State Department is planning to 
charge USCIS for the services that they would take over from 
USCIS?
    Ms. Renaud. Yes, they would charge us. They already do so 
in a number of other locations.
    Miss Rice. So how would that save any money for the Federal 
Government and not actually result in an increase in costs? I 
understand why you need your personnel--why you would want to 
make that decision, but how do you think that is going to save 
money and not actually incur a higher cost?
    Ms. Renaud. It is very costly to have individuals stationed 
overseas, and our cost analysis right now, based on the rates 
the Department of State is charging, shows that we will have a 
substantial amount of savings, although we are negotiating with 
them right now about those specific locations. So we won't have 
a solid number about the financial impact until we finish those 
negotiations for our 22 locations.
    Miss Rice. But it is also not just a financial impact. It 
is actually, can they handle the increase in the workload with 
the personnel that they have, or are they then going to turn 
around and request additional hires, which would increase the 
cost there, not just----
    Ms. Renaud. Excuse me, ma'am. The volume of work that we 
have in our overseas offices is very minor compared to the work 
that State already has. So we don't believe that they will need 
to plus up. They may hire some of our locally-engaged staff 
that are trained in that work already, and it gives them 
trained personnel to be able to continue----
    Miss Rice. When is that decision likely to be made?
    Ms. Renaud. We are in negotiations right now with State. We 
have started maybe 10 days ago the conversations with them 
about the cost related to these particular functions. So we 
expect over the next 30 or 60 days we would finalize those 
costs.
    Miss Rice. OK.
    Mr. Perez, you have testified here today that the CBP is 
already greatly understaffed. Why do you think that CBP is 
going to be able to handle ``credible fear'' interviews for 
asylum seekers instead of trained USCIS officials?
    Mr. Perez. Thank you, Madam Chairwoman.
    What we are doing now is we are just pursuing a pilot, 
working with our colleagues at CIS, and essentially just 
looking for any and every tool in the toolbox that we can apply 
to try to streamline, make more effective, more efficient the 
process and all the different administrative responsibilities 
that we have at the border.
    Again, we are working on a pilot alongside CIS right now, 
and, you know, where and how we evaluate those results will 
remain to be seen once we are done.
    Miss Rice. So the pilot, has it started or not?
    Mr. Perez. No. We are in the process of our agents now 
getting trained. Again, as Ms. Renaud mentioned, it is very 
extensive training to be able to do that work. They will also 
be supervised by a CIS supervisor while we perform this pilot.
    Again, we are just using every tool in the toolbox we have 
available to us in an effort to try to be as innovative as we 
can to make more efficient, you know, the backlogs and the 
complexities of what we are facing at the border right now.
    Miss Rice. How are you paying for that training process for 
these agents?
    Mr. Perez. I believe we actually included in the 
supplemental request some funding for that. Other than that, 
that would be just coming out of our base funding.
    Miss Rice. OK.
    So, Mr. Perez, I just want to stay with you for another 
question. Actually, let me just ask you, on that note, I know 
it is only in the pilot phase, but where will Border Patrol 
agents actually conduct the ``credible fear'' interviews? Will 
they be in the field or at the ports of entry?
    Mr. Perez. It will be in a field location, but we are still 
working on determining exactly where.
    Miss Rice. OK.
    So we have spoken about DHS's targeting and surveillance of 
people who are known to either work with or advocate for 
migrants. I had highlighted the case of the 59 people, mostly 
Americans, who are on a CBP list entitled ``San Diego Sector 
Foreign Operations Branch: Migrant Caravan Fiscal Year 
Suspected Organizers, Coordinators, Instigators, and Media.''
    Can you tell us how these 59 people were targeted and who 
compiled the list and who ordered that list to be made?
    Mr. Perez. The matter and the allegations you are talking 
about, Madam Chairwoman, are being investigated by our Office 
of Inspector General at the Department right now.
    What I can tell you is, once we were made aware, that we 
very diligently not only reported it to our Office of Inspector 
General, but our Office of Professional Responsibility 
augmented and is supporting them in that same investigation.
    What I can assure you is that we do not target any group 
based on profession, based on ethnicity or anything of that 
nature. So, when and if we see any of those types of 
allegations, we take them very seriously. What we absolutely do 
do is manage the risk of any potential threat that comes to the 
border.
    So they are working on that investigation, and we are 
waiting to see what the outcome is.
    Miss Rice. Is your internal OPR analysis done yet?
    Mr. Perez. They would be in a supportive role, our Office 
of Professional Responsibility, to the Office of Inspector 
General's investigation.
    Miss Rice. So they don't come up with their own results.
    Mr. Perez. Not during--it is my understanding that, no, not 
when an Office of Inspector General investigation has taken on 
that case.
    Miss Rice. You have not been informed by OPR of any 
findings that they have made regarding that case.
    Mr. Perez. Not anything that I can disclose at this time.
    Miss Rice. So you have, but you can't disclose it until 
after the----
    Mr. Perez. Well, it is a sensitive investigation, so, 
although I have some general awareness, not definitive findings 
but general awareness of what occurred, again, I have to defer 
to investigators to let them pursue the entirety of that 
investigation until it is concluded.
    Miss Rice. So can you tell us if this kind of targeting is 
still being done by CBP?
    Mr. Perez. Again, Madam Chairwoman, thank you.
    We do not tolerate targeting or profiling of any type for 
anybody's profession, any ethnicity, any type of profiling at 
all. What we do is manage threats and risk based on, you know, 
potential criminality, criminal activity, and, as such, 
criminal histories.
    We do not tolerate that at all within our work force, never 
have, absolutely never will. We take very, very seriously any 
of those allegations, run them to ground to the best of our 
ability.
    Miss Rice. Are you aware as to whether this activity 
occurred in other areas of the country, outside of the San 
Diego area?
    Mr. Perez. I am not aware.
    Miss Rice. So there is a case in San Francisco where the 
CBP ordered an Apple employee to hand over his company-owned 
phone and laptop. The employee did not decline but asked to 
speak to attorneys at Apple, because he had signed a 
nondisclosure agreement and his devices held corporate 
information. CBP told him he had no right to an attorney and 
eventually let him leave but revoked his Global Entry status, 
which you can imagine had an immediate effect on his ability to 
travel for work.
    Questioning by officers clearly indicates CBP knew about 
his past jobs and perhaps his social views. Do you know if this 
was also a part of a targeting effort by CBP? Were you aware of 
this incident?
    Mr. Perez. I am not aware of the incident, Madam 
Chairwoman. I will gladly get back to you with a little bit 
more specificity of what we can share.
    Miss Rice. Great. I would appreciate that. Thank you.
    Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chair.
    Regarding the 920,000 pending cases, you had stated there 
were 870,000 pending cases, and you said it was another 50,000 
to my colleague. What of that number, clarify for us please, 
had been released on summons?
    Mr. Albence. I don't have the exact number. I can look to 
see what we have. We would release them. Depending on the 
circumstances, they may be bonded out by an immigration judge.
    Mr. Higgins. Not bond. I am talking about initial summons 
that would have to have been after apprehension, found to be a 
misdemeanor crossing----
    Mr. Albence. Right. So if I----
    Mr. Higgins [continuing]. And no other felony warrants and 
they are released. They are released with a summons to be 
contacted for a court date.
    Mr. Albence. Right.
    Mr. Higgins. That number, give us a round figure, please.
    Mr. Albence. Yes, so all those individuals are placed with, 
depending on the type of entry which they made and the 
encounter--whether they overstayed their visa, whether they 
entered the country illegally--are issued a notice to appear or 
a charging document.
    Mr. Higgins. OK. What, roughly, is that number?
    Mr. Albence. That is all those individuals that I mentioned 
are in that process because they were given a charging 
document. So that 920,000 are all in that process because they 
have been charged with an immigration violation.
    Mr. Higgins. All right.
    When an American citizen bonds out after initial arrest, he 
is given bond instructions, which include the clarification 
that it is incumbent upon than American citizen to maintain 
contact with the judicial system if he has a change in phone 
number, address, et cetera.
    If an American citizen is granted parole after sentencing 
or remanded to probation and parole with suspended sentence, 
the clarification is given as well, it is incumbent upon that 
American citizen to maintain contact with the judicial system.
    Of these pending cases of illegal immigrants that have been 
given summons, one of the common complaints that we hear from 
them when we listen compassionately, they say, ``Well, we were 
never contacted by the court.''
    So would you clarify for us, please--and anyone can answer 
this--is it incumbent upon the judicial system to maintain 
contact with that released illegal immigrant, or is it 
incumbent upon the illegal immigrant to maintain contact with 
the judicial system?
    Mr. Albence. So a lot of the aliens that are not in custody 
do have reporting requirements. They would report to ICE, 
actually. They would not report to the immigration courts. So 
they would report to ICE on a----
    Mr. Higgins. To law enforcement.
    Mr. Albence [continuing]. On a periodic basis. However, it 
is also their responsibility, if they change their address, to 
notify the Executive Office of Immigration Review, which is the 
jurisdiction for the court.
    Mr. Higgins. Just to move on, what you are stating is that 
it is incumbent upon the offender or the suspect to maintain 
communication with the system, not the other way around.
    Mr. Albence. Right. They are required to comply.
    Mr. Higgins. Thank you.
    Moving to--let's discuss, if we can, Deputy Commissioner 
Perez, the justification for the additional miles of enhanced 
physical barriers, 21st-Century technology, access roads, and 
border law enforcement personnel.
    My understanding is the 2018 Border Security Improvement 
Plan was mandated in the fiscal year 2018 appropriations bill. 
After distribution to the Appropriations Committee, this plan 
was subsequently shared with this committee upon our request.
    Who at CBP had input in this comprehensive plan to secure 
our Southwest Border? Were the men and women on the ground 
consulted?
    Mr. Perez. Thank you, Congressman.
    Absolutely, yes. So it was a combination, first and 
foremost, of our field leadership and field agents, as well as 
the----
    Mr. Higgins. OK.
    Mr. Perez [continuing]. Program office and headquarters.
    Mr. Higgins. Thank you for that clarification. Limited 
time.
    So agents and operators in the field, what you are saying 
is, actually had input into the analysis that identified the 
need for hundreds of additional miles of enhanced physical 
barrier, 21st-Century technology, access roads, and law 
enforcement personnel to gain operational control of the 
Southwest Border. Is that your statement, sir, that the men and 
women in the field made this determination, not bureaucrats in 
the District of Columbia and not politicians in the District of 
Columbia?
    Mr. Perez. Yes, Congressman, they had a significant amount 
of input in all that, first and foremost.
    Mr. Higgins. Are you aware that that appropriation was 
included in the 2018 appropriations bill for the Border 
Security Improvement Plan?
    Mr. Perez. Yes, Congressman.
    Mr. Higgins. This is what we are trying to accomplish in 
this fiscal year as well.
    Mr. Perez. Indeed. Indeed.
    Mr. Higgins. Gentlemen, madam, thank you very much for your 
appearance today. We are going to get this thing hammered out. 
We have faith in each other on both sides of the aisle and 
confidence in your professional performance.
    Thank you, Madam Chair.
    Miss Rice. I just want to clarify, Mr. Perez. I mean, I 
appreciate the fact that the men and women on the ground were 
asked for input, but the priorities were set right here in 
Washington. Isn't that correct?
    Mr. Perez. There is a program management office, Madam 
Chairwoman, that handles, you know, and put together, alongside 
the agency folks who built the Border Security Improvement Plan 
that oversees all the activity of the wall planning and 
procurement and processing.
    Nevertheless, again, the prioritization, the types of 
solutions that are put forth and were put forth was, you know, 
first and foremost driven by the experiences and the folks in 
the field, the leadership we have in the field, the ground 
agents, based on, again, decades of their experience of what it 
is they have known to have worked and will work along the 
border.
    Miss Rice. Was every single recommendation that the men and 
women on the ground suggested taken and actually implemented by 
the powers that be here in Washington?
    Mr. Perez. I wouldn't know to that degree of detail, Madam 
Chairwoman. What I would expect is that we took everything that 
they suggested and then, nevertheless, you know----
    Miss Rice. But you can't answer----
    Mr. Perez [continuing]. Worked through with them----
    Miss Rice. But you can't answer that question. I mean, you 
are making it seem as if everyone here in Washington just 
listened to what was said on the ground and that there was no 
policy coming out of Washington. I just don't think you are in 
a position to say that that is true.
    Mr. Perez. Well, it was a collaborative process, Madam 
Chairwoman, is what I am saying, and that, first and foremost, 
the experience and the considerations and the input of the 
field leadership and of the front-line agents was really the 
driver behind the design and the implementation.
    Miss Rice. But the overall policy, as it is in most 
organizations, comes from the top down, right?
    Mr. Perez. I am not sure which policy you are referring to.
    Miss Rice. Any policy usually comes from the top down, 
right? Wouldn't that be fair to say?
    Mr. Perez. Usually, yes.
    Miss Rice. OK.
    Ms. Xochitl Torres Small.
    Ms. Torres Small. Thank you, Madam Chair.
    Thank you, Ranking Member.
    The work that you do is incredibly hard, and I want to 
recognize that. I want to recognize that it is getting even 
harder and more complex, with the different people who are 
approaching the border now, families who are approaching. It is 
something--to adapt to these changing circumstances and to 
constantly adapt, as you have, to continue to respond to needs. 
But we have seen these challenges grow. We are all in it 
together, from agents on the line and officers on the line, to 
communities along the border, to the families that are 
voluntarily presenting, and Members of Congress trying to 
figure out what to do and how to work together to make it 
happen. I just want to recognize and respect the work that you 
do. Thank you.
    Communities really are feeling it along the border too. I 
have communities who are working incredibly hard to help--when 
families are bonded out, to help them reach those families so 
they can better comply with the orders they have been given.
    Sometimes it is really hard because, with the increasing 
numbers presenting along the border, they are not always 
getting the right paperwork that has all the information that 
they need. Border Patrol is incredibly strained right now, and 
so being able to provide all of that paperwork has been 
difficult. The coordination with these churches and other 
organizations that are working to help this happen sometimes 
slips through the cracks as well.
    So I want to recognize the work that is being done and then 
also ask if CBP has any plans to improve that coordination with 
the local organizations for the release of these families.
    Mr. Perez. Thank you, Congresswoman, for your recognition.
    I can tell you that our interaction with the non-
Governmental organizations--you know, there is a handful of 
which, certainly in your district and all across the Southern 
Border--that that collaboration is at an unprecedented high. We 
are absolutely grateful, because we couldn't do what we are 
doing right now if not but for those non-Governmental 
organizations, their collaboration not only with us but with 
ICE as well, and how we all come together to deal with, again, 
the humanitarian issues that we are confronting, the sheer 
volume of families.
    So I assure you, we are talking to them just about every 
day, literally, our folks on the ground, every day. Because we 
are moving hundreds of these families to them every day for 
them to place and help find where it is that they need to go. 
Look, do things like you just mentioned, raise to us if they do 
encounter maybe, you know, a typo or something that they don't 
understand quite with the paperwork that they have been given.
    But, nevertheless, you know, we are very grateful, and I 
assure you that is something that is going to be on-going.
    Ms. Torres Small. Just to clarify, one of the big 
challenges is just whether or not the families or the 
individuals get pictures--the processing paper, if it has a 
picture, a photograph of them. Because that is what allows them 
to take a flight to reach their sponsor, if that is what their 
sponsor paid--the person who sponsored their bond pays for.
    Do you have any plans to try to make sure--because that is 
something that ICE has done very well, is that when they 
produce that paperwork it has that photograph which allows the 
travel. Is that something that you are working toward 
standardizing?
    Mr. Perez. I will go back, Congresswoman, and check on that 
and make sure that, you know, whatever it is that is the 
standard is being applied.
    Ms. Torres Small. Thank you.
    For fiscal year 2020, can you talk about any plans for that 
budget to better assist with that local government and NGO 
coordination?
    Mr. Perez. I am not aware of any specific line item called 
out for that. But, unquestionably, even as we were talking 
earlier about some of the contractual arrangements, all of that 
plays into some of that, you know, type of work, if you will, 
that would end up with interaction and coordination with the 
non-Governmental organizations.
    So, as I said before, you know, even as we expect to find 
solutions and want to work with you all to find solutions to 
this immediate crisis, we are part of those communities, and 
the NGO's are our neighbors as well, and so that collaboration, 
from a professional level, will never wane. In fact, again, we 
are very grateful for what we have right now.
    Ms. Torres Small. Thank you.
    I yield my time.
    Miss Rice. Thank you.
    Ms. Clarke.
    Ms. Clarke. Thank you once again, Madam Chair.
    Ms. Renaud, I wanted to circle back, because I am just 
trying to wrap my arms around this new policy of training 
Border Patrol to be trained asylum officers. I wanted to get a 
sense from you of, since the guidance went into effect on April 
30, what is the daily average number of interviews completed by 
an asylum officer?
    Ms. Renaud. Excuse me. If I can clarify, are you talking 
about ``credible fear'' screening?
    Ms. Clarke. I am sorry. Yes.
    Ms. Renaud. So the ``credible fear'' screening takes about 
2 hours per individual. So, depending on how long they are 
going to be in any facility that day, they can do up to 3 or 4.
    Ms. Clarke. OK. Has that been an increase or a decrease 
since April 30?
    Ms. Renaud. The April 30 lesson plan has not been put into 
effect yet. It will be put into effect mid-May. But we don't 
expect that it will have a substantial difference. The 2 hours 
has been pretty consistent for several years.
    Ms. Clarke. How do you certify sort-of the training of the 
Border Patrol officers?
    Ms. Renaud. So the Border Patrol officers are conducting--
they have already done, as of the end of this week, 2 weeks of 
distance training where they have read a number of lesson plans 
and other materials.
    They will begin their in-person training next week, and 
they will have several weeks of in-person training at our 
asylum office, conducted by our asylum officers, where they 
will do some mock interviews, they will have some training 
classes, they will observe some actual ``credible fear'' 
screenings that are being conducted by experienced asylum 
officers.
    Once we feel they are ready to actually start conducting 
some ``credible fear'' screenings, we will have those be 
monitored, and we will supervise them as they are doing it to 
make sure they are going in the right direction.
    Then, as Mr. Perez mentioned, once we feel that they are 
able to go out on their own and do ``credible fear'' 
screenings, our supervisory asylum officers will supervise that 
workload that they do. That includes the 100-percent check that 
the supervisors do of our own employees. We will do to same 
thing with----
    Ms. Clarke. So do you have a time line for when this will 
begin, since the guidance went into effect on April 30?
    Ms. Renaud. So the Border Patrol agents will be finished 
their training in late May. So they will begin actually doing 
the screening in late May or early June, depending on Mr. 
Perez's direction.
    Ms. Clarke. Mr. Perez, do you have a certain number of 
Border Patrol agents that will be specific to the ``credible 
fear'' screening process? Or is this going to become an 
additional duty of your average, everyday officer?
    Mr. Perez. Thank you, Congresswoman.
    For the pilot--because it is just a pilot now--I believe 
there are 10 agents that are in training with Ms. Renaud's 
folks right now. We have identified another 2 groups, I 
believe, of 20 to 25 each. So it is about a total of maybe 50 
to 60 total agents, again, that we will initially utilize in 
the pilot.
    It really will depend on the outcomes that we all realize 
as to whether or not, you know, we continue to move forward and 
what type of investments we make subsequent to that.
    Ms. Clarke. Would this be an additional duty for your 
officers, or would they be specifically relegated to sort-of 
that initial screening for ``credible fear'' or, you know, 
determining whether someone should move forward?
    Mr. Perez. Those are some of the exact details, 
Congresswoman, that, right now, in the planning for the actual 
pilot and its implementation, that we are working through right 
now. So I am not aware that we have made those final----
    Ms. Clarke. So it would be the 10 officers right now are 
strictly dedicated to this training, or do they have other 
duties?
    Mr. Perez. I believe, right now, they may be primarily only 
doing the training because of the time consumption of what it 
is to receive the training. But, again, I would gladly get back 
to you on that.
    Ms. Clarke. Yes, would you get back to us? Try to give us 
as much as you can about how their time would be delegated, if 
it were to be sort-of a hybrid or an additional duty to their 
regular duties.
    Mr. Perez. Once we have the pilot up and running, we will 
be glad to share that.
    Ms. Clarke. Absolutely.
    With that, Madam Chair, I yield back.
    I thank you all for your testimony here today.
    Miss Rice. Thank you, Ms. Clarke.
    I want to thank all the witnesses for being here today.
    For Mr. Perez and Mr. Albence, I know you spent some time 
before today with the Ranking Member and with myself, and I 
appreciate you taking the extra time for that. I think it makes 
for a more substantive hearing.
    I know it is very difficult to sit there for the 2 hours 
that you have been there and answer a bunch of questions from 
us, but I think this is such an incredibly important 
conversation, because not only does it give us the ability to 
identify, maybe, where we need to fix things, but it does, as 
Ms. Xochitl Torres Small and everyone else up here has said, 
give us an opportunity to recognize the hard work that all of 
you are doing in a very difficult environment.
    So thank you all very much. I want to thank you again for 
your testimony.
    I want to thank the Members for their questions.
    Members of the subcommittee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions.
    With that, I ask unanimous consent to insert 3 statements 
into the hearing record from the National Treasury Employees 
Union, Southern Border Communities Coalition, and Church World 
Service.
    [The information referred to follows:]
Statement of Anthony M. Reardon, National President, National Treasury 
                            Employees Union
                              May 9, 2019
    Chairman Rice, Ranking Member Higgins, and distinguished Members of 
the subcommittee, thank you for the opportunity to submit this 
statement for the record. As president of the National Treasury 
Employees Union (NTEU), I have the honor of leading a union that 
represents over 27,000 Customs and Border Protection (CBP) officers, 
agriculture specialists, and trade enforcement personnel stationed at 
328 land, sea, and air ports of entry across the United States and 16 
Preclearance stations currently at airports in Ireland, the Caribbean, 
Canada, and the United Arab Emirates. CBP's Office of Field Operations 
(OFO) pursues a dual mission of safeguarding American ports by 
protecting the public from dangerous people and materials, while 
enhancing the Nation's global and economic competitiveness by enabling 
legitimate trade and travel. OFO is the largest component of CBP 
responsible for border security--including anti-terrorism, immigration, 
anti-smuggling, trade compliance, and agriculture protection--while 
simultaneously facilitating lawful trade and travel at U.S. ports of 
entry that are critical to our Nation's economy. In addition to CBP's 
trade and travel security, processing and facilitation missions, CBP 
OFO employees at the ports of entry are the second-largest source of 
revenue collection for the U.S. Government. In 2018, CBP processed more 
than $2.8 trillion in imports and collected approximately $44 billion 
in duties, taxes, and other fees.
    According to CBP on-board staffing data, there is a shortage of 
approximately 3,700 CBP officers at the ports of entry. Unfortunately, 
the administration has not included sufficient funding in its fiscal 
year 2020 budget request to address this significant staffing gap. 
Instead, the administration's fiscal year 2020 budget requests only $28 
million to fund the hiring of 171 new Customs and Border Protection 
officers, 91 mission and operational support positions, and 5 
agriculture specialists. According to CBP, these 267 new OFO employees 
in the fiscal year 2020 budget request are designated to go to San 
Luis, AZ, Blaine, Cincinnati, and Boston. CBP's limited OFO personnel 
request is intended to test a ``Proof of Concept'' that if the OFO 
allocations in its own Workload Staffing Model (WSM) at these 4 ports 
of entry are fully met, then these ports should function without 
excessive wait times, overtime, or other economic consequences of short 
staffing.
    While I am pleased that the administration included some new 
funding for the hiring of critically-needed CBP officers, agriculture 
specialists, and support staff, the fiscal year 2020 budget request for 
this ``Proof of Concept'' experiment does not by any means meet CBP's 
staffing needs. During post-shutdown negotiations earlier this year, 
the House Majority proposed funding 1,000 CBP officer new hires, and 
ultimately the fiscal year 2019 final funding agreement provided $58.7 
million to hire 600 new CBP officers.
    According to CBP's most recent analytic workload staffing models--
the fiscal year 2018 CBP officer WSM, the fiscal year 2018 Agriculture 
Resource Allocation Model (AgRAM), and the fiscal year 2017 Resource 
Optimization Model (ROM) for Trade Positions--an additional 2,516 CBP 
officers, 721 agriculture specialists, and at least 150 trade 
operations specialists need to be funded and hired in order to meet 
current staffing needs at the U.S. ports of entry.
    CBP employees at the ports of entry are not only the first line of 
defense for illegal trade and travel enforcement, but their role of 
facilitating legal trade and travel is a significant economic driver 
for private-sector jobs and economic growth. According to CBP, for 
every 1,000 CBP officers hired there is an increase in the Gross 
Domestic Product (GDP) of $2 billion; $642 million in opportunity costs 
are saved (the amount of time that a traveler could be using for 
purposes other than waiting in line, such as working or enjoying 
leisure activities); and 33,148 annual jobs are added. If CBP filled 
the 3,700 needed new positions, the impact could be as high as a $7.4 
billion increase in GDP; a $2.38 billion savings in opportunity costs; 
and the creation of 122,650 new private-sector jobs.
    In addition, according to the Joint Economic Committee (JEC), the 
volume of commerce crossing our borders has more than tripled in the 
past 25 years. Long wait times lead to delays and travel time 
uncertainty, which can increase supply chain and transportation costs. 
According to the Department of Commerce, border delays result in losses 
to output, wages, jobs, and tax revenue due to decreases in spending by 
companies, suppliers, and consumers. JEC research finds border delays 
cost the U.S. economy between $90 million and $5.8 billion each year.
                          cbp officer overtime
    Due to the on-going current staffing shortage of 3,700 CBP 
officers, CBP officers Nation-wide are working excessive overtime to 
maintain basic port staffing. Currently, CBP officer overtime pay is 
funded 100 percent through user fees and is statutorily capped at 
$45,000 per year. All CBP officers are aware that overtime assignments 
are an aspect of their jobs. However, long periods of overtime hours 
can severely disrupt an officer's family life, morale, and ultimately 
their job performance protecting our Nation.
    In addition, since CBP officers are required to regularly work 
overtime, many of these individual officers are hitting the overtime 
cap very early in the fiscal year. This leaves no overtime funding 
available for peak season travel, resulting in critical staffing 
shortages in the third and fourth quarter of the fiscal year that 
usually coincide with holiday travel at the ports.
    At many ports, CBP has granted overtime exemptions to over one-half 
of the workforce to allow managers to assign overtime to officers that 
have already reached the statutory overtime cap, but cap waivers only 
force CBP officers already working long daily shifts to continue 
working these shifts for more days. Officers are required to come in 
hours before their regular shifts, to stay an indeterminate number of 
hours after their shifts (on the same day) and are compelled to come in 
for more overtime hours on their regular days off as well. Both 
involuntary overtime--resulting in 12- to 16-hour shifts, day after 
day, for months on end--and involuntary work assignments far from home, 
significantly disrupt CBP officers' family life and erode morale. As 
NTEU has repeatedly stated, this is not a long-term solution for 
staffing shortages at the ports and has gone on for far too long.
      temporary duty assignments at southwest land ports of entry
    Due to CBP's on-going staffing shortage, since 2015, CBP has been 
diverting hundreds of CBP officers from other air, sea, and land ports 
to severely short-staffed Southwest land ports for 90-day Temporary 
Duty Assignments (TDYs).
    This past month, CBP announced a new round of CBP officer TDYs--
possibly exceeding 2,000--to be voluntarily reassigned not to ports, 
but to Border Patrol sectors across the Southwest Border. This 
redeployment is making the existing problems at the ports even worse 
and resulting in hours-long delays, since most of the CBP officers 
being redeployed are from the Nation's most short-staffed land ports on 
our Southern Border.
    If these reassigmnents continue, they could lead to even more 
extensive staffing shortages at other critical land ports of entry on 
the Southern and Northern Borders, and at international air and 
seaports. Reduced personnel numbers at other ports threatens CBP' s 
capacity to carry out critical immigration, trade, and health-related 
inspections and to interdict illegal drug shipments.
    According to a newly-released study ``The Economic Costs of the 
U.S.-Mexico Slowdown,'' by the Perryman Group that was commissioned by 
IBC Bank in conjunction with the Texas Association of Business, Texas 
Border Coalition, Texas Business Leadership Council and the Border 
Trade Alliance, this most recent TDY has resulted in a significant 
slowdown at the U.S.-Mexico border and led to substantial economic 
harms. Millions of trucks cross the Southern Border every year, and 
delays at the border cause logistical problems. The current slowing on 
the U.S.-Mexico border is reducing efficiency and costing the U.S. 
economy billions in output and hundreds of thousands of jobs.
    The study further states that if the diversion of CBP officers from 
the Southwest Border international land ports continues, the State of 
Texas alone could lose more than $32 billion in gross domestic product 
in just over 3 months. If there is a one-third reduction in trade 
between the United States and Mexico over a 3-month period, the cost to 
the U.S. economy would be over ``$69 billion in gross product and 
620,236 job-years (when multiplier effects are considered). Almost half 
of these losses occur in Texas.''
    NTEU urges Congress to require CBP to allocate personnel and 
resources appropriately to ensure timely processing of people at all 
ports of entry and better manage the changing demographic flows at our 
Southern Border. To end all of these TDYs, CBP must fill existing CBP 
officer vacancies and fund the hiring of the additional CBP officers 
called for in CBP's own WSM. Without addressing the 3,700-CBP officer 
shortfall, allocating adequate staffing at all ports will remain a 
challenge.
                          opioid interdiction
    CBP OFO is the premier component at the Department of Homeland 
Security (DHS) tasked with stemming the Nation's opioid epidemic--a 
crisis that is getting worse. According to a May 2018 report released 
by the Senate Homeland Security and Governmental Affairs Committee 
Minority titled Combatting the Opioid Epidemic: Intercepting Illicit 
Opioids at Ports of Entry, ``between 2013 and 2017, approximately 
25,405 pounds, or 88 percent of all opioids seized by CBP, were seized 
at ports of entry. The amount of fentanyl seized at the ports of entry 
increased by 159 percent from 459 pounds in 2016 to 1,189 pounds in 
2017.''
    On January 26, 2019, CBP OFO made their biggest fentanyl seizure 
ever, capturing nearly 254 pounds of the deadly synthetic opioid at the 
Nogales port of entry. According to the Drug Enforcement 
Administration, just 2 milligrams of fentanyl is considered a lethal 
dose. From the January 26 seizure alone, it is estimated that CBP 
officers seized enough fentanyl to kill 57 million people. That's more 
than the combined population of the States of Illinois, New York, and 
Pennsylvania. The street value for the fentanyl was over $102 million. 
CBP officers also seized an additional 2.2 pounds of fentanyl pills and 
a large cache of methamphetamine.
    The majority of fentanyl is manufactured in other countries such as 
China, and is smuggled primarily through the ports of entry along the 
Southwest Border and through international mail and Private Express 
Carrier Facilities, e.g. FedEx and UPS. Over the past 5 years, CBP has 
seen a nearly 50 percent increase in express consignment shipments from 
76 million to 110 million express bills and a 200 percent increase in 
international mail shipments from approximately 150 million to more 
than 500 million. Yet, according to CBP, over the last 3 years, there 
were only 181 CBP employees assigned to the 5 Postal Service 
International Service Centers and 208 CBP employees assigned to the 
Private Express Carrier Facilities. NTEU's funding request would allow 
for increases in CBP OFO staffing at these facilities.
    Noting the positive impact of hiring additional CBP officers, it is 
troubling that the President's 2017 Border Security Executive Order and 
his subsequent budget request did not ask for 1 additional CBP officer 
new hire. In 2017, CBP officers at the ports of entry recorded over 
216,370 apprehensions and seized over 444,000 pounds of illegal drugs, 
and over $96 million in illicit currency, while processing over 390 
million travelers and $2.2 trillion in imports through the ports. 
Imagine what they could do with adequate staffing and resources.
                    agriculture specialist staffing
    CBP employees also perform critically important agriculture 
inspections to prevent the entry of animal and plant pests or diseases 
at ports of entry. Agricultural specialists provide a critical role in 
both trade and travel safety and prevent the introduction of harmful 
exotic plant pests and foreign animal diseases, as well as potential 
ag/bio-terrorism into the United States. All ports of entry are 
currently understaffed relative to mission goals and workload 
requirements of agricultural specialists. For years, NTEU has 
championed the CBP agriculture specialists' Agriculture Quality 
Inspection (AQI) mission within the agency and fought for increased 
staffing to fulfill that mission. The U.S. agriculture sector is a 
crucial component of the American economy, generating over $1 trillion 
in annual economic activity. According to the U.S. Department of 
Agriculture, foreign pests and diseases cost the American economy tens 
of billions of dollars annually.
    Because of CBP's key mission to protect the Nation's agriculture 
from pests and disease, NTEU urges the committee to authorize the 
hiring of these 721 CBP agriculture specialists identified by CBP's 
AgRAM to address this critical staffing shortage that threatens the 
U.S. agriculture sector.
                     cbp trade operations staffing
    In addition to safeguarding our Nation's borders and ports, CBP is 
tasked with regulating and facilitating international trade. CBP 
employees at the ports of entry are critical in protecting our Nation's 
economic growth and security. For every dollar invested in CBP trade 
personnel, we return $87 to the U.S. economy, either through lowering 
the costs of trade, ensuring a level playing field for domestic 
industry or protecting innovative intellectual property. Since CBP was 
established in March 2003, however, there has been no increase in non-
uniformed CBP trade enforcement and compliance personnel. Additionally, 
CBP trade operations staffing has fallen below the statutory floor set 
forth in the Homeland Security Act of 2002 and stipulated in the fiscal 
year 2017 CBP Resource Optimization Model for Trade Positions. NTEU 
strongly supports funding for 140 new hires at the CBP Office of Trade 
through direct appropriations to support Trade Facilitation and Trade 
Enforcement Act implementation.
                          cbp funding sources
    CBP collects Customs User Fees (CUFs), including those under the 
Consolidated Omnibus Budget Reconciliation Act of 1985 (COBRA), to 
recover certain costs incurred for processing air and sea passengers 
and various private and commercial land, sea, air, and rail carriers 
and shipments. The source of these user fees are commercial vessels, 
commercial vehicles, rail cars, private aircraft, private vessels, air 
passengers, sea passengers, cruise vessel passengers, dutiable mail, 
customs brokers, and barge/bulk carriers.
    COBRA fees are deposited into the Customs User Fee Account and are 
designated by statute to pay for services provided to the user, such as 
100 percent of inspectional overtime for passenger and commercial 
vehicle inspection during overtime shift hours. Of the 24,576 CBP 
officers currently funded, Customs User Fees (CUFs) fund 3,825 full-
time equivalent (FTEs) CBP officers. Further, Immigration Inspection 
User Fees (IUF) fund 4,179 CBPO FTEs. CUF and IUF user fees fund 8,004 
CBPO FTEs or one-third of the entire CBP workforce at the ports of 
entry.
    NTEU strongly opposes any diversion of CUFs. Any increases to the 
CUF Account should be properly used for much-needed CBP staffing and 
not diverted to unrelated projects. Unfortunately, while section 52202 
of the FAST ACT indexed CUFs to inflation, it diverted this funding 
from CBP to pay for unrelated infrastructure projects. Indexing COBRA 
CUFs to inflation would have raised $1.4 billion over 10 years--a 
potential $140 million per year funding stream to help pay for the 
hiring of additional CBP officers to perform CBP's border security, law 
enforcement, and trade and travel facilitation missions. Diverting 
these funds has cost CBP funding to hire over 900 new CBP officers per 
year since the FAST Act went into effect. These new hires would have 
significantly alleviated the current CBP officer staffing shortage.
    In order to find alternative sources of funding to address serious 
staffing shortages, CBP received authorization for and has entered into 
Reimbursable Service Agreements (RSAs) with the private sector, as well 
as with State and local governmental entities. These stakeholders, who 
are already paying CUFs and IUFs for CBP OFO employee positions and 
overtime, reimburse CBP for additional inspection services, including 
overtime pay and the hiring of new CBP officer and agriculture 
specialist personnel that in the past have been paid for entirely by 
user fees or appropriated funding. According to CBP, since the program 
began in 2013, CBP has entered into agreements with over 149 
stakeholders covering 111 U.S. ports of entry, providing more than 
467,000 additional processing hours for incoming commercial and cargo 
traffic.
    NTEU believes that the RSA program is a Band-Aid approach and 
cannot replace the need for Congress to either appropriate new funding 
or authorize an increase in customs and immigration user fees to 
adequately address CBP staffing needs at the ports.
    RSAs simply cannot replace the need for an increase in CBP 
appropriated or user fee funding--and make CBP a ``pay to play'' 
agency. NTEU also remains concerned with CBP's new Preclearance 
expansion program that also relies heavily on ``pay to play.'' Further, 
NTEU believes that the use of RSAs to fund CBP staffing shortages 
raises significant equity issues between larger and/or wealthier ports 
and smaller ports.
                          nteu recommendations
    To address CBP's workforce challenges, it is clearly in the 
Nation's economic and security interest for Congress to authorize and 
fund an increase in the number of CBP officers, CBP agriculture 
specialists, and other CBP employees.
    In order to achieve the long-term goal of securing the proper 
staffing at CBP and end disruptive TDYs and excessive involuntary 
overtime shifts, NTEU recommends that Congress take the following 
actions:
  <bullet> Support funding for 600 new CBP officers in fiscal year 2020 
        DHS Appropriations;
  <bullet> Support funding for 721 new CBP agriculture specialists, as 
        well as additional trade operations specialists and other OFO 
        support staff;
  <bullet> Address the polygraph process to mitigate excessive (60 
        percent) applicant polygraph failures;
  <bullet> Fully fund and utilize recruitment and retention awards, and 
        other incentives; and
  <bullet> Restore cuts in mission support personnel that will free CBP 
        officers from performing administrative duties such as payroll 
        processing, data entry, and human resources to increase the 
        numbers available for trade and travel security and 
        facilitation.
    Congress should also redirect the increase in customs user fees in 
the FAST Act from offsetting transportation spending to its original 
purpose of providing funding for CBP officer staffing and overtime, and 
oppose any legislation to divert additional fees collected to other 
uses or projects.
    Shutdowns, pay freezes, and proposed cuts to benefits, rights, and 
protections do nothing to help with recruitment and retention of CBP 
officers. The employees I represent are frustrated and their morale is 
indeed low. These employees work hard and care deeply about their jobs 
and their country. These men and women are deserving of more staffing 
and resources to perform their jobs better and more efficiently.
    NTEU is not alone in seeking increased funding to hire new CBP 
officers at the ports. A diverse group of business, industry, and union 
leaders have joined forces in support of legislation and funding to 
hire more Customs and Border Protection personnel and alleviate 
staffing shortages at the Nation's ports of entry. The coalition--which 
includes leading voices from various shipping, tourism, travel, trade, 
law enforcement, and employee groups--sent the attached letter urging 
House appropriators to provide the funding necessary to hire at least 
600 new CBP officers annually (see Exhibit A.)
    Thank you for the opportunity to submit this statement for the 
record.
                               EXHIBIT A
                                       May 1, 2019.
The Honorable Lucille Roybal-Allard,
Chairwoman, Subcommittee on Homeland Security, Committee on 
        Appropriations, U.S. House of Representatives, Washington, DC 
        20515.
The Honorable Chuck Fleischmann,
Ranking Member, Subcommittee on Homeland Security, Committee on 
        Appropriations, U.S. House of Representatives, Washington, DC 
        20515.
    Dear Chairwoman Roybal-Allard and Ranking Member Fleischmann: As 
stakeholders interested in the facilitation activities of Customs and 
Border Protection (CBP) at land, sea, and air ports-of-entry around the 
globe, we urge you to provide additional appropriations in fiscal year 
2020 for at least 600 new CBP officers over the current staffing level 
to help the agency meet its current and future staffing needs.
    With CBP's on-board data and most recent workload staffing model 
showing a shortage of over 3,700 CBP officers, current staffing levels 
fail to address the growing demands of travel and trade at our ports-
of-entry. Providing additional CBP officers at this time of growing 
volumes of international passengers and cargo will both reduce lengthy 
wait times and facilitate new economic opportunities in communities 
throughout the United States.
    Increasing CBP officer staffing is an economic driver for the U.S. 
economy. According to the Joint Economic Committee (JEC), ``every day 
1.1 million people and $5.9 billion in goods legally enter and exit 
through the ports of entry.'' CBP estimates that the annual hiring of 
an additional 600 CBP officers at the ports-of-entry could increase 
yearly economic activity by over $1 billion and result in the addition 
of over 17,000 new jobs.
    While the volume of commerce crossing our borders has more than 
tripled in the past 25 years, CBP staffing has not kept pace with 
demand. Long wait times at our ports-of-entry lead to travel delays and 
uncertainty, which can increase supply chain costs and cause passengers 
to miss their connections. According to the U.S. Department of 
Commerce, border delays result in losses to output, wages, jobs, and 
tax revenue due to decreases in spending by companies, suppliers, and 
consumers. The travel industry estimates long CBP wait times discourage 
international visitors, who spend an average of $4,200 per visit, from 
traveling to the United States. JEC research also finds border delays 
cost the U.S. economy upwards of $5 billion each year.
    We share your commitment to ensuring that America's borders remain 
safe, secure, and efficient for all users, while enhancing our global 
competitiveness through the facilitation of legitimate travel and 
trade. Therefore, we request at least 600 new CBP officers in fiscal 
year 2020 to continue building on the staffing advances made in recent 
years.
    Thank you for your consideration of this request.
            Sincerely,
              Airports Council International--North America
                   American Association of Port Authorities
                          National Treasury Employees Union
                 American Association of Airport Executives
                                        Borderplex Alliance
                                      Border Trade Alliance
                                  Cargo Airline Association
                     Cruise Lines International Association
               Federal Law Enforcement Officers Association
                  Fresh Produce Association of the Americas
                         Global Business Travel Association
               National Association of Waterfront Employers
                              New York Shipping Association
                            United States Maritime Alliance
                                   U.S. Chamber of Commerce
                                    U.S. Travel Association
                            West Gulf Maritime Association.
                                 ______
                                 
 Statement of Vicki B. Gaubeca, Director, Southern Border Communities 
                               Coalition
                              May 3, 2019
    Please accept my testimony on behalf of the Southern Border 
Communities Coalition, a network that brings together organizations 
from San Diego, California, to Brownsville, Texas, to ensure that 
border enforcement policies and practices are accountable and fair, 
respect human dignity and human rights, and prevent the loss of life in 
the region. The Southern Border region is one of the most diverse, 
economically vibrant, and safest areas of the country, home to about 15 
million people. It is a place of encounter, hope, and opportunity, not 
confrontation and hate. Yet for decades, policy makers have pushed to 
militarize the Southern Border region with policies and funding that 
has not made us safer, but instead has jeopardized the rights and 
quality of life of those who live, work, and travel through the 
borderlands. These harms have been deeply exacerbated by this 
administration's reckless, unaccountable border militarization, 
enforcement, and detention operations that have terrorized border and 
immigrant communities, torn-apart families, and treated those seeking 
protection at our Southern Border with cruelty. As this committee 
considers the fiscal year 2020 Department of Homeland Security (DHS) 
appropriations, we urge you to reject this administration's requests to 
expand Trump's bloated border militarization, deportation, and 
detention regime by reducing funding for Customs and Border Protection 
(CBP) and Immigration and Customs Enforcement (ICE).
    Border communities have already endured the construction of 700 
miles of walls built in our towns, neighborhoods, and even backyards. 
And regardless of whether the structures are called border walls, 
fences, levee walls, or barriers--and made of concrete, steel, or some 
other material--the reality is the same. Walls and the associated 
hyper-militarization of the border don't make us safer or address the 
root causes that motivate individuals to make the trek to our border. 
Instead, walls harm those who call the Southern Border region home, 
contribute to the on-going humanitarian crisis of migrant deaths, 
endanger wildlife and the environment, strip property owners of their 
lands, and reflect a colossal waste of taxpayer dollars. These harmful 
consequences will be felt long after this administration has left 
because once constructed, border walls cause permanent harms that 
cannot be remedied.
    The last Congress alone provided President Trump with roughly $3 
billion in border wall funding. President Trump's fiscal year 2020 
budget proposes $5 billion for 200 additional miles of border wall--
this is in addition to the over $8 billion that this administration 
seeks to siphon from the Department of Defense budget for more border 
wall using its emergency powers. We strongly urge you to reject any 
funding for President Trump's wall in the fiscal year 2020 DHS 
appropriations bill--and ensure measures are in place to prevent 
President Trump from circumventing Congress and seizing funds from 
other agencies to pay for more wall.
    In addition, we urge you to reject the administration's request for 
additional funding for Border Patrol agents. For years, the Border 
Patrol's budget has skyrocketed, although the agency has operated with 
little or no oversight, accountability, or transparency, leading to 
abuses and deaths across our Nation's borders. The agency has a 
troubled track record of excessive force, racial profiling, sexual 
assault, and misconduct. During this administration, agents have 
separated families, tear-gassed asylum seekers, terrorized our 
children, and acted as a deportation force in border communities.
    Much ado has been made that there is a crisis in Southern Border 
communities to justify further more wasteful, damaging wall 
construction and other harmful, anti-immigrant policies. However, the 
only crisis we see in border communities is one stemming from 
excessive, unchecked militarization--and a humanitarian challenge of 
people fleeing violence and seeking refuge in a country that has 
historically been a beacon for refugees from throughout the world. The 
White House has used existing funds to try to shut down our current 
asylum system, cutoff access at ports of entry and lock up families and 
children. In the face of these deeply misguided policies, border 
communities have boldly stepped up to warmly greet and assist those who 
arrive to our Southern Border seeking protection.
    The bottom line is that border communities do not want more wall 
and unchecked militarization, we want our taxpayer dollars dedicated to 
critical programs that make our communities strong and vibrant such as 
investments in education, health care, green infrastructure, and 
housing. We urge Members of Congress to view the budget as a moral 
document that reflects our priorities and values as a Nation. Congress 
must invest in programs and agencies that uphold our shared values of 
dignity and justice and divest from programs and agencies that flout 
those values at every opportunity. It is unacceptable to claim support 
for border and immigrant communities while continuing to fund the 
border wall and grow the already inflated budgets for ICE and CBP. We 
call on Congress to rise to the occasion and revitalize, not 
militarize, our communities and reject Trump's dangerous budget request 
for DHS in 2020 with significant funding cuts for CBP and ICE.
                                 ______
                                 
                 Statement of the Church World Service
                              May 9, 2019
    As a 73-year-old humanitarian organization representing 37 
Protestant, Anglican, and Orthodox communions, and 23 refugee 
resettlement offices across 17 States, Church World Service urges 
Congress to cut funding for immigration detention, deportation, and 
border militarization and to demand accountability over the Department 
of Homeland Security (DHS). We urge Congress to reduce funding for 
Immigration and Customs Enforcement (ICE) and Customs and Border 
Protection (CBP) that has fueled family separation and the immoral and 
illegal treatment of asylum seekers and other immigrants.
    CWS urges the administration to rescind its April 2018 information-
sharing agreement between DHS and the Department of Health and Human 
Services (HHS) that turns HHS into an immigration enforcement agency 
and prolongs family separation. The agreement ``requires HHS to share 
the immigration status of potential sponsors and other adults in their 
households with DHS to facilitate HHS's background checks.'' The 
population of detained unaccompanied children ballooned, and although 
HHS announced that it would stop requiring fingerprints from all 
household members of sponsors, ORR continues to share information about 
all potential sponsors with DHS, needlessly prolonging child detention.
    CWS is strongly opposed to any proposal that would undermine Flores 
protections or increase family incarceration, which is plagued with 
systemic abuse and inadequate access to medical care. These conditions 
are unacceptable, especially for children, pregnant and nursing 
mothers, and individuals with serious medical conditions. The American 
Association of Pediatrics has found that family detention facilities do 
not meet basic standards for children and ``no child should be in 
detention centers or separated from parents.'' CWS urges Congress to 
reject any proposal that would expand family detention or violate the 
Flores agreement's long-standing consensus that children should not be 
detained for longer than 20 days.
    CWS is equally troubled by proposals to weaken or eliminate 
provisions in the Trafficking Victims Protection Reauthorization Act 
(TVPRA), which provides important procedural protections for 
unaccompanied children in order to accurately determine if they are 
eligible for relief as victims of trafficking or persecution. Weakening 
existing legal protections, especially for children, undermines the 
United States' moral authority as a leader in combating human 
trafficking and increases vulnerabilities for trafficking victims by 
curtailing access to due process, legal representation, and child-
appropriate services.
    Congress and the administration should utilize community-based, 
least-restrictive alternatives to detention (ATDs) that connect 
individuals with family members, faith-based hospitality communities, 
and local services to help them navigate the legal system. For example, 
the Family Case Management Program (FCMP) is effective and less 
expensive than detention, allowing people to be released, connecting 
them with legal counsel, providing case supervision, and helping with 
child care. The program is 99 percent effective at having families show 
up for check-ins and court appearances and also ensures departure from 
the United States for those who are not granted protection.
    Immigration policies that repeatedly result in death do not make us 
secure. The death of two children in CBP custody pointedly highlights 
the urgent need for shifts in policy. Border crossings have declined to 
near-record levels; the uptick in arrivals this year stems from 
families fleeing violence, persecution, and desperation from El 
Salvador, Honduras, and Guatemala. Militarizing the border and 
separating families undermine our moral and legal obligations and are 
ineffective, as families continue to seek safety. The United States can 
humanely process all families and individuals who arrive at our borders 
seeking protection.
    CWS strongly opposes sending troops to the border and any other 
policy that further militarizes our border. Border communities are some 
of the safest in the country. The most recent data available shows each 
Border Patrol agent along the Southwest Border apprehended on average 
about 3 migrants per month, far below fiscal year 2000 levels 
(approximately 16 migrants per month). With CBP's all-time high funding 
for border security procurement and development alone, legislators 
should be looking for ways to rein in CBP's draconian enforcement 
efforts.
    The administration has also imposed multiple bans and a series of 
changes to the U.S. Refugee Admissions Program (USRAP) that have 
prolonged family separation and left tens of thousands of vulnerable 
refugees in limbo. It has decreased the number of refugees that can be 
resettled in the United States to a record low 30,000 in fiscal year 
2019, after resettling less than half of last year's then-historic low 
of 45,000. Resettlement is the last resort for men, women, and children 
who cannot return to their home countries and cannot rebuild their 
lives in the country where they first fled. Resettlement is the already 
the most difficult way to enter the United States, but these bans, 
alongside many policy changes, have denied safety to tens of thousands 
of bona fide refugees and have reversed decades of U.S. leadership on 
refugee protection. We urge Congress to hold the administration 
accountable to meeting its fiscal year 2019 refugee admissions goal and 
rebuilding the resettlement program, returning the program to historic 
norms.
    As a faith-based organization, we urge Congress to hold the 
administration respecting the humanity and dignity of all asylum 
seekers, unaccompanied children, and others seeking protection.

    Miss Rice. Without objection, the subcommittee record shall 
be kept open for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

     Questions From Chairwoman Kathleen M. Rice for Robert E. Perez
    Question 1. The administration's emergency supplemental request 
includes $23 million to train Border Patrol agents to make credible 
fear determinations.
    How does Border Patrol's mission to ``detect and prevent the 
illegal entry of aliens into the United States'' conform with an asylum 
officer's duty to conduct a non-adversarial credible fear interview? 
Under what authority is this pilot being pursued?
    Answer. Response was not received at the time of publication.
    Question 2. Where will Border Patrol agents conduct credible fear 
interviews, in the field or at ports of entry?
    Answer. Response was not received at the time of publication.
    Question 3. When and for how long will Border Patrol agents be 
conducting credible fear interviews? How many will be tasked with this 
new responsibility? Will they only conduct credible fear interviews or 
is this in addition to their daily work?
    Answer. Response was not received at the time of publication.
    Question 4. What training will they receive prior to conducting 
credible fear interviews? Will other CBP personnel be tasked with 
carrying out other asylum officer functions?
    Answer. Response was not received at the time of publication.
    Question 5. How does the credible fear interview process training 
provided to Border Patrol agents differ from training that asylum 
officers undergo?
    Answer. Response was not received at the time of publication.
    Question 6. What oversight will USCIS provide for credible fear 
interview decisions made by these new interviewers to ensure 
consistency in decision making alongside other asylum officers?
    Answer. Response was not received at the time of publication.
                      migrant protection protocols
    Question 7. The Migrant Protection Protocols (MPP) are currently 
only being carried out in San Diego, Calexico, and El Paso. What is 
CBP's role in advising the Department before MPP is put into effect at 
other locations along the border? What kind of metrics are required to 
monitor or review prior to expanding the program to other locations?
    Answer. Response was not received at the time of publication.
    Question 8. When MPP first began, serious flaws were noted in the 
execution of the first cases. Migrants were not asked if they feared 
being returned to Mexico, were given false hearing dates, and did not 
have the opportunity to talk to attorneys before the hearing date. What 
has been done to address these issues? Do these problems persist?
    Answer. Response was not received at the time of publication.
    Question 9. There have been multiple media reports of migrants 
being threatened in Mexico while awaiting their court date in the 
United States. What are CBP and USCIS doing to ensure that those who 
express fear of returning to Mexico are not returned?
    Answer. Response was not received at the time of publication.
    Question 10. How many people have been allowed to stay in the 
United States due to fear of returning to Mexico under MPP?
    Answer. Response was not received at the time of publication.
                               rapid dna
    Question 11. The Department recently concluded a limited pilot 
program to use rapid DNA tests to check the authenticity of the parent-
child relationship. What is the total cost of implementing this pilot 
program, including any technology to analyze the DNA, cost of capturing 
the DNA, and training of officials involved?
    Answer. Response was not received at the time of publication.
                          fraudulent families
    Question 12. On what basis is a family categorized as 
``fraudulent?'' How many fraudulent parental relationships have been 
documented by CBP in the last 5 fiscal years? In how many of these 
cases were the children related to the adult but a different 
relationship or age that what was claimed? How many cases were referred 
to the Department of Justice for possible human trafficking charges? 
How many children were granted a U or T visa certification by ICE?
    Answer. Response was not received at the time of publication.
                              cbp staffing
    Question 13. In April, CBP announced a 5 percent retention bonus 
for GS-12 and GS-13 Border Patrol agents that will be paid in 4 
quarterly payments over the course of 1 year. Why did CBP decide to 
extend this only to Border Patrol agents and not CBP officers at ports 
of entry or AMO personnel? Does CBP have any plans to extend the bonus 
to CBP officers? Why were only 2 pay grades included? What is the 
attrition rate in these 2 grades versus lower grade agents?
    Answer. Response was not received at the time of publication.
    Question 14. The President's fiscal year 2020 budget requests $28 
million to fund the hiring of 171 new customs and border protection 
officers, 91 mission and operational support positions, and 5 
agriculture specialists. These 267 new Office of Field Operations (OFO) 
employees in the President's fiscal year 2020 budget request are 
designated to go to San Luis, AZ, Blaine, Cincinnati, and Boston to 
test a ``Proof of Concept.'' With the current shortage of over 3,700 
CBP officers and 721 CBP agriculture specialists according to CBP's own 
WSM, why is the fiscal year 2020 CBP OFO staffing request limited to 
just this ``Proof of Concept'' experiment?
    Answer. Response was not received at the time of publication.
    Question 15. Why does the fiscal year 2020 budget request not 
include funding for at least 600 CBP officers new hires, as does the 
final fiscal year 2019 DHS funding deal, to relieve OFO staffing 
shortages at the most severely short-staffed ports?
    Answer. Response was not received at the time of publication.
    Question 16. What is CBP's plan to fund and hire the 3,700 
additional CBP officers to end the OFO staffing shortage that has 
necessitated excessive CBP officer overtime and TDYs since 2015?
    Answer. Response was not received at the time of publication.
    Question 17. Is there a ``comprehensive recruitment and retention 
strategy'' for CBP personnel at the ports of entry as there apparently 
is for U.S. Border Patrol?
    Answer. Response was not received at the time of publication.
                border patrol mass releases of families
    Question 18. Earlier in April, this subcommittee heard from Bishop 
Seitz of El Paso that the mass releases conducted by Border Patrol 
often occurred without prior coordination with local organizations and 
migrant families did not seem to have the proper paperwork or an ICE 
check-in appointment in their destination city. Does CBP have any plans 
to improve coordination with local organizations on releases of 
families? Has ICE offered any training to CBP to improve their 
processes in releasing families?
    Answer. Response was not received at the time of publication.
     Questions From Ranking Member Clay Higgins for Robert E. Perez
    Question 1. Mr. Perez, I would like to give you the opportunity to 
clarify the back and forth on the NII system funding today.
    Please clarify for the committee the differences between requested 
and appropriated funds for the program, and CBP's priorities and vision 
for the NII program moving forward.
    Answer. Response was not received at the time of publication.
    Question 2. What percentage of U.S. ports of entry currently have 
some form of an NII system?
    Answer. Response was not received at the time of publication.
    Question 3. Does the Department use a risk-based approach when 
prioritizing where NII technology is needed? And if so, can you share a 
list with the committee of your top 10 priorities for 
recapitalization?''
    Answer. Response was not received at the time of publication.
   Questions From Chairwoman Kathleen M. Rice for Matthew T. Albence
    Question 1. The proposed emergency supplemental includes $61 
million to cover a payroll shortfall for ICE personnel. Why is there a 
$61 million shortfall?
    Answer. Response was not received at the time of publication.
    Question 2. In February, the enacted Fiscal Year 2019 Consolidated 
Appropriations Act included funding for 40,520 beds on average per day, 
requiring ICE to bring down the number of beds by the end of the fiscal 
year by almost 10,000 from current average daily populations. What is 
ICE doing to comply with the enacted fiscal year 2019 appropriations 
law requiring a draw down to 40,520 beds by the end of fiscal year 
2019?
    Answer. Response was not received at the time of publication.
                    alternatives to detention (atd)
    Question 3. Please explain your current policy on Alternatives to 
Detention (ATD). How do you select who gets ATD? Were alternatives, 
including pilot projects, considered?
    Answer. Response was not received at the time of publication.
    Question 4. Earlier this month, Attorney General Barr made the 
decision that immigration judges can no longer release detained 
immigrants through bond hearings. As a result, the only way for an 
immigrant to be released from detention is to seek parole by ICE. Is 
ICE planning any changes to its parole policy?
    Answer. Response was not received at the time of publication.
    Question 5. Even though a Federal court has enjoined ICE from a 
blanket ``no parole'' policy, there are 5 ICE offices that have issued 
virtually no parole since the start of the Trump administration: El 
Paso, Detroit, Los Angeles, Newark, and Philadelphia. How many paroles 
have been issued a year by each office for each of the last 5 years?
    Answer. Response was not received at the time of publication.
   Questions From Ranking Member Clay Higgins for Matthew T. Albence
    Question 1. Mr. Albence, I understand that starting in September 
2018, the immigration courts in 10 cities across the country began 
prioritizing family unit cases.
    In which cities has this taken place?
    Answer. Response was not received at the time of publication.
    Question 2. Can you tell us how many cases have been on the docket, 
how many removals ordered, how many aliens were granted relief, and how 
many family units failed to appear for their hearings and were ordered 
removed in absentia?
    Answer. Response was not received at the time of publication.
    Question 3. Mr. Albence, during your testimony, you mentioned that 
increasing the number of immigration judges without a corresponding 
increase in Office of Principal Legal Advisor (OPLA) attorneys will 
make the immigration court ``bottleneck worse.''
    Can you extrapolate on this issue? How does this contribute to the 
bottleneck?
    Answer. Response was not received at the time of publication.
    Question 4. Can you provide for the committee how many immigration 
judges have been funded and/or requested over the past 3 fiscal years 
and how many corresponding OPLA attorneys were also funded/requested?
    Answer. Response was not received at the time of publication.
    Question 5. Additionally, do you have any staffing models that show 
the current and/or future needs of OPLA attorneys based on the 
increases in immigration judges?
    Answer. Response was not received at the time of publication.
    Question 6. Mr. Albence, in your testimony, you stated that over 
the past 3 weeks, Homeland Security Investigations (HSI) identified 65 
fraudulent families out of 256 potential fraudulent families.
    Is that from cases that CBP has identified to ICE HSI?
    Answer. Response was not received at the time of publication.
    Question 7. How many additional cases have been identified over the 
past year? Please provide the consequences of those identified cases as 
well.
    Answer. Response was not received at the time of publication.
    Question 8. What more needs to be done by Congress to combat this 
problem?
    Answer. Response was not received at the time of publication.
    Question 9. Does HSI incorporate DNA testing into this fraud 
detection process? If so, how?
    Answer. Response was not received at the time of publication.
    Question 10. Can you speak to the importance of DNA testing in 
combating human smuggling and trafficking of minors at the border?
    Answer. Response was not received at the time of publication.
    Question 11. Mr. Albence, in your testimony, you described the work 
that ICE attaches are doing with fusion centers in Central America to 
further border security.
    Can you please describe these relationships in more detail?
    Answer. Response was not received at the time of publication.
    Question 12. What more should we be doing south of the border to 
combat transnational criminal organizations?
    Answer. Response was not received at the time of publication.
    Question 13. Additionally, how does the BITMAP program align with 
these efforts?
    Answer. Response was not received at the time of publication.
    Question 14. What more can Congress do to strengthen these programs 
and target transnational criminal organizations?
    Answer. Response was not received at the time of publication.
      Questions From Chairwoman Kathleen M. Rice for Tracy Renaud
                           asylum processing
    Question 1a. A recent media report details that under the Migrant 
Protection Protocols (MPP), asylum officers are being forced to sign 
the form saying the migrant wasn't likely to be persecuted in Mexico, 
even if the asylum office believed the migrant's life could be in 
danger if returned there.
    Are you aware of concerns about MPP that asylum officers have 
raised with their union? How many officers have raised concerns about 
MPP?
    Answer. Response was not received at the time of publication.
    Question 1b. When an asylum officer decides the asylum seeker 
should not be returned to Mexico, how many of these decisions are 
reviewed and overturned by a Supervisory Asylum Officer?
    Answer. Response was not received at the time of publication.
    Question 1c. When an asylum officer decides the asylum seeker 
should be returned to Mexico, how many of these decisions are reviewed 
and overturned?
    Answer. Response was not received at the time of publication.
    Question 2. USCIS recently issued new guidelines to asylum officers 
on adjudicating credible fear claims directing them to be more 
confrontational and focus on discrepancies between testimony instead of 
the testimony itself. How are you planning to document these 
discrepancies? How much time is USCIS expecting for asylum officers to 
take to deconflict discrepancies and document the deconflictions?
    Answer. Response was not received at the time of publication.
                        notices to appear (ntas)
    Question 3a. In June 2018, USCIS announced a new policy that 
dramatically expands the circumstances under which the agency may place 
applicants and petitioners into deportation proceedings through the 
issuance of Notices to Appear (NTAs).
    How many NTAs has USCIS issued to date as a result of this policy? 
Will you provide this information broken down by USCIS office and 
associated application type?
    Answer. Response was not received at the time of publication.
    Question 3b. How many NTAs did USCIS issue for each of the 2 years 
prior to this policy going into effect?
    Answer. Response was not received at the time of publication.
    Question 3c. Has USCIS made any estimates concerning the overall 
number of NTAs it anticipates issuing as a result of this policy? If 
so, please provide those estimates.
    Answer. Response was not received at the time of publication.
    Question 4. Is USCIS also going to issue NTAs to survivors of 
domestic abuse and human trafficking after their applications for T 
visas, U visas, or Violence Against Women Act protections, have been 
denied?
    Answer. Response was not received at the time of publication.
                         case processing delays
    Question 5. According to one study USCIS case processing delays 
have increased 46 percent over the last 2 fiscal years and at the end 
of fiscal year 2017, USCIS' net backlog exceeded 2.3 million delayed 
cases. Has USCIS conducted any assessments of all factors, including 
its own policies and practices, that may be affecting its case backlog? 
If so, what are your findings?
    Answer. Response was not received at the time of publication.
    Question 6. USCIS data indicates that ``case completions per hour'' 
have declined for 81 percent of application types since fiscal year 
2016. What accounts for these declines? Given USCIS's acknowledgement 
that this trend limits the agency's ability to reduce the backlog, what 
actions are USCIS taking to address falling completion rates?
    Answer. Response was not received at the time of publication.
    Question 7. In the first quarter of fiscal year 2019, USCIS was 472 
employees short of authorized staffing levels for the Asylum Program 
Office. Given the increase in asylum cases, what are you doing to 
increase the number of staff at the Asylum Program Office to process 
applications more quickly?
    Answer. Response was not received at the time of publication.
    Question 8. Of your net backlog of 2.5 million cases how many of 
these are asylum cases? How are you reprioritizing resources to reduce 
the number of cases in the backlog?
    Answer. Response was not received at the time of publication.
                   uscis-ice deportation coordination
    Question 9. USCIS has been increasingly coordinating with ICE to 
arrest individuals appearing before USCIS for immigration interviews. 
Given the backlogs, processing delays, and increased interviews at 
field offices, why is USCIS using its resources in this manner?
    Answer. Response was not received at the time of publication.
    Question 10. To what extent has this partnership between USCIS and 
ICE been memorialized in writing? Is there a memo or MOU that that lays 
out procedures for coordinating the arrest of people attending an USCIS 
interview?
    Answer. Response was not received at the time of publication.
    Question 11. To what extent is USCIS headquarters directing field 
offices to use interviews or other actions related to an immigration 
application as a way for ICE to arrest individuals? Is there a memo 
directing the use of this practice?
    Answer. Response was not received at the time of publication.
                            fraud detection
    Question 12. In fiscal year 2018, USCIS' Fraud Detection and 
National Security Directorate conducted 427 target site visits of 
companies in fiscal year 2018. Of those 427 site visits, how many sites 
were found to have fraud? How many were prosecuted?
    Answer. Response was not received at the time of publication.
                         international offices
    Question 13a. The administration announced it would be closing all 
USCIS international offices. The administration has said it will shift 
those functions to the State Department who will charge USCIS a fee for 
completing these services.
    International offices have a unique case management system called 
the Case and Activity Management for International Offices (CAMINO). 
Will the State Department assume custody of this system? If not, what 
will happen to the personal information of U.S. citizens, including 
biometric data, in CAMINO?
    Answer. Response was not received at the time of publication.
    Question 13b. As a result of the proposed closure of international 
operations, will USCIS transfer or delegate any of its functions to 
ICE?
    Answer. Response was not received at the time of publication.
    Question 13c. To what extent has DHS or USCIS conducted a cost-
benefit analysis or studied the potential impact of international 
office closures on the State Department, military personnel, and 
international services like international adoptions? Please provide a 
copy of any analysis.
    Answer. Response was not received at the time of publication.
    Question 13d. Will the closure of overseas offices result in the 
loss of full-time employment jobs? If so, how many? If there is no 
loss, how will staff be reassigned?
    Answer. Response was not received at the time of publication.
                     special immigrant visas (siv)
    Question 14. Arrivals of Special Immigrant Visas (SIV) for Afghans 
for the first few months of fiscal year 2019 show that the United 
States is not on track to resettling the number of Afghan SIVs planned 
for this year. What is being done to ensure Afghans SIVs continue to be 
processed, especially since they have not been subject to the same 
pauses and additional vetting procedures that apply to other countries 
and refugees generally?
    Answer. Response was not received at the time of publication.
    Question 15. U.S.-affiliated Iraqis (Iraqi P-2s) have provided 
critical services to U.S. missions abroad and now face persecution as a 
result. Conservative estimates suggest there are tens of thousands of 
Iraqis with close affiliations to the U.S. Government awaiting 
interviews to have their resettlement cases processed. What is being 
done to increase the number of U.S.-affiliated Iraqis who arrive this 
year and next?
    Answer. Response was not received at the time of publication.
                          refugee resettlement
    Question 16. My understanding is that Security Advisory Opinion 
(SAO) processing delays are in part responsible for the refugee 
admission rate for fiscal year 2018 being well below the 45,000 refugee 
ceiling. This year, the United States appears to be on track to settle 
less than 20,000 refugees.
    Answer. Response was not received at the time of publication.
    Question 17. What is the average time it takes to process an SAO 
and what is the current backlog of SAOs awaiting determination?
    Answer. Response was not received at the time of publication.
    Question 18. Given the intensive scrutiny refugees already face, 
what additional security benefit do these changes add?
    Answer. Response was not received at the time of publication.
    Question 19. How can we improve the U.S. refugee resettlement 
program without decreasing the amount we resettle?
    Answer. Response was not received at the time of publication.

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
